<html>
<title> - THE FUTURE OF SOCIAL SECURITY FOR THIS GENERATION AND THE NEXT: IMPLICATIONS OF RAISING THE RETIREMENT AGE</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]




 
 THE  FUTURE  OF  SOCIAL  SECURITY  FOR  THIS GENERATION AND THE NEXT: 
               IMPLICATIONS OF RAISING THE RETIREMENT AGE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 1998

                               __________

                             Serial 105-48

                               __________

         Printed for the use of the Committee on Ways and Means





                    U.S. GOVERNMENT PRINTING OFFICE                    
52-247cc                     WASHINGTON : 1999



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        BARBARA B. KENNELLY, Connecticut
JIM BUNNING, Kentucky                WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
JOHN ENSIGN, Nevada
JON CHRISTENSEN, Nebraska
WES WATKINS, Oklahoma
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Social Security

                    JIM BUNNING, Kentucky, Chairman

SAM JOHNSON, Texas                   BARBARA B. KENNELLY, Connecticut
MAC COLLINS, Georgia                 RICHARD E. NEAL, Massachusetts
ROB PORTMAN, Ohio                    SANDER M. LEVIN, Michigan
JON CHRISTENSEN, Nebraska            JOHN S. TANNER, Tennessee
J.D. HAYWORTH, Arizona               XAVIER BECERRA, California
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                               __________

                                                                   Page

Advisory of February 13, 1998, announcing the hearing............     2

                               WITNESSES

Social Security Administration, Hon. Kenneth S. Apfel, 
  Commissioner...................................................     6

                                 ______

Actuarial Sciences Associates, Christopher M. Bone...............   116
American Academy of Actuaries, Ron Gebhardtsbauer................    86
American Federation of Labor and Congress of Industrial 
  Organizations, David A. Smith..................................   128
Association of Private Pension and Welfare Plans, David M. Walker   122
Bernstein, Merton C., Washington University......................    67
Burkhauser, Richard V., Syracuse University......................    75
Myers, Robert J., Silver Spring, MD..............................    64

                       SUBMISSIONS FOR THE RECORD

Employee Benefit Research Institute, Kelly Olsen, statement......   137
Forman, Jonathan Barry, University of Oklahoma, statement........   139



 THE  FUTURE  OF  SOCIAL  SECURITY  FOR  THIS GENERATION AND THE NEXT: 
               IMPLICATIONS OF RAISING THE RETIREMENT AGE

                              ----------                              


                      THURSDAY, FEBRUARY 26, 1998

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:02 p.m., in 
room B-318, Rayburn House Office Building, Hon. Jim Bunning 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

FOR IMMEDIATE RELEASE                           CONTACT: (202) 225-9263
February 13, 1998
No. SS-13

               Bunning Announces Eighth Hearing in Series

                   on ``The Future of Social Security

                   for this Generation and the Next''

    Congressman Jim Bunning (R-KY), Chairman, Subcommittee on Social 
Security of the Committee on Ways and Means, today announced that the 
Subcommittee will hold the eighth in a series of hearings on ``The 
Future of Social Security for this Generation and the Next.'' At this 
hearing, the Subcommittee will examine the implications of raising the 
retirement age. The hearing will take place on Thursday, February 26, 
1998, in room B-318 Rayburn House Office Building, beginning at 1:00 
p.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony will be from invited witnesses only. However, any individual 
or organization may submit a written statement for consideration by the 
Committee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The Subcommittee's first seven hearings in the series have focused 
on: the recom-mendations of the Advisory Council on Social Security, 
the fundamental issues to consider when evaluating reform options, the 
findings of the 1997 Social Security Board of Trustees, the experiences 
of other countries, the views of policy experts, organizations with 
different generational perspectives, business and labor 
representatives, Members of Congress on Social Security reform, and the 
current state of public opinion on the future of Social Security.
      
    When major changes were last made to Social Security in 1983, a 
provision was included that will gradually raise the ``normal'' 
retirement age--the age at which one receives unreduced benefits--from 
age 65 to age 66 over the period 2003 to 2008, and to age 67 from 2022 
to 2027. Today, as concern continues about the long-range solvency of 
Social Security, proposals have been made to increase the ``normal'' 
retirement age even further.
      
    A substantial portion of a growing long-range deficit in Social 
Security financing is being attributed to projections of a decreasing 
ratio of workers to recipients in the future, especially when the baby-
boom generation begins to retire. It has been argued by many that 
raising the retirement age would offset, at least to some extent, the 
deficit in Social Security's long-range financing. However, there are 
many issues surrounding a further increase in the retirement age that 
require consideration, including: projected life expectancy increases 
and whether those increases are accompanied by improvements to workers' 
health, effects on the labor market, the impact on employer-sponsored 
benefit plans, public reaction to additional increases in the 
retirement age, and the extent to which savings to the Old-Age and 
Survivors Trust Fund will be offset by costs to the Disability 
Insurance Trust Fund, among others.
      
    In announcing the hearing, Chairman Bunning stated: ``Raising the 
normal retirement age is one of those options that may sound simple, 
when you consider how life expectancies have been rising. However, like 
so many of the proposed options for Social Security reform, although 
they may sound easy, in fact, the impacts are wide-spread and 
significant. Through this hearing, I look forward to fully exploring 
both the intended and unintended effects of raising the normal 
retirement age.''
      
    FOCUS OF THE HEARING:
      
    The Subcommittee will receive the views of actuaries, social 
insurance experts, employers, and employee representatives on proposals 
to raise the normal retirement age. Specifically, Members of the 
Subcommittee would like to hear from each witness regarding their views 
on the various proposals to raise the normal retirement age and what 
they see are the intended and unintended effects.
      
    DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:
      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit at least six (6) 
single-space legal-size copies of their statement, along with an IBM 
compatible 3.5-inch diskette in ASCII DOS Text or WordPerfect 5.1 
format only, with their name, address, and hearing date noted on a 
label, by the close of business, Thursday, March 12, 1998, to A.L. 
Singleton, Chief of Staff, Committee on Ways and Means, U.S. House of 
Representatives, 1102 Longworth House Office Building, Washington, D.C. 
20515. If those filing written statements wish to have their statements 
distributed to the press and interested public at the hearing, they may 
deliver 200 additional copies for this purpose to the Subcommittee on 
Social Security office, room B-316 Rayburn House Office Building, at 
least one hour before the hearing begins.
      
    FORMATTING REQUIREMENTS:
      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be typed in single space on legal-size paper and may not exceed a total 
of 10 pages including attachments. At the same time written statements 
are submitted to the Committee, witnesses are now requested to submit 
their statements on an IBM compatible 3.5-inch diskette in ASCII DOS 
Text or WordPerfect 5.1 format. Witnesses are advised that the 
Committee will rely on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
      4. A supplemental sheet must accompany each statement listing the 
name, full address, a telephone number where the witness or the 
designated representative may be reached and a topical outline or 
summary of the comments and recommendations in the full statement. This 
supplemental sheet will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at `HTTP://WWW.HOUSE.GOV/WAYS__MEANS/'.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                <F-dash>

    Chairman Bunning. The Subcommittee will come to order. I'd 
like to welcome all our guests and those that are going to 
testify. Today marks our eighth hearing in the series on the 
Social Security future for this generation and the next. During 
this hearing, we will focus on the implications of raising the 
retirement age.
    Since our last hearing, Social Security has taken center 
stage. In his State of the Union Address, the President made a 
commitment to save Social Security, reserving 100 percent of 
future budget surpluses until necessary measures have been 
taken to strengthen the Social Security system. Although 
clearly sounding as though the Federal budget surplus would 
somehow be credited to the Social Security Trust Funds, to the 
contrary, the President's budget proposed nothing new.
    There are no new Social Security Trust Fund investment 
strategies nor any changes to the Social Security taxes or 
spending. That's why I will introduce legislation which creates 
a new treasury account, the Protect Social Security Account, 
into which each year's budget surpluses will be deposited. In 
essence, my bill would wall off the budget surplus so they 
could not be spent until a solution to the Social Security is 
found.
    We have a fantastic window of opportunity right now to do 
what we all need knows to be done. We have to do this; to 
reform Social Security to make surely it remains solvent beyond 
the baby boomers; beyond the year 2029, well into the next 
century. The fact that today we are on the verge of a balanced 
budget with a potential of significant budget surpluses for the 
next 10 years gives us a golden window of opportunity to 
strengthen the Social Security system. We should not let that 
opportunity pass us.
    Today, we examine the reform solution many have discussed: 
Raising the retirement age. What many Americans may not yet 
realize, however, is that the normal retirement age, currently 
age 65, will soon begin to increase beginning in the year 2000. 
The retirement age will gradually increase over a 22-year 
period to age 67. We know people are living longer, but we also 
know that people are choosing to retire early. In 1996, for 
example, almost three-fourths of those who retired received 
reduced benefits due to retiring before the age of 65.
    Raising the normal retirement age is one of those options 
that may sound simple, however, like so many of the proposed 
options for Social Security reform, although they may sound 
easy, in fact, the impacts are widespread and significant. 
Additional years of trust fund solvency would be added by 
providing benefits for fewer years or by reducing workers' 
benefits even further if they retire before reaching the normal 
retirement age. However, raising the retirement age would not 
be advantageous for those who are unemployed or working arduous 
occupations. Low-wage earners who have poor health or fewer 
skills would be adversely affected as would certain minority 
groups with shorter lifespans. More workers age 62 and older 
probably would continue to work at least part time. Working 
seniors would be encouraged making greater use of older workers 
and increasing national productivity. But retirement income 
might be lower for those who cannot work longer due to 
employers continuing to provide incentives for older workers to 
retire and make room for younger workers.
    Younger individuals who already will not receive as many 
benefits from the program as current retirees would see even 
fewer benefits. Social Security disability program costs 
probably would be raised as seniors would have an incentive to 
apply for disability benefits rather than wait to receive full 
retirement benefits, especially since early retirement benefits 
would be subject to further reductions. In addition, costs of 
other disability programs: Workers' compensation, employee 
pension programs, and unemployment compensation would also 
likely increase.
    More details on these effects and many others will be heard 
today from the experts who have joined us. I look forward to 
hearing their views on both the intended and unintended effects 
of raising the normal retirement age. In the interest of time, 
it is our practice to dispense with opening statements except 
from the Ranking Democrat Member. All Members are welcome to 
submit statements for the record. I yield such time as she may 
consume to Congresswoman Kennelly for any statement she wishes 
to make.
    Mrs. Kennelly. Thank you, Mr. Chairman, and I enjoyed 
listening to your presentation and the legislation that you're 
going to introduce, and I think it's fine that both of us agree 
so definitely on what should be done with the--so-called budget 
surplus.
    But I want to welcome the Commissioner here and make a 
brief statement. With today's hearing, we begin an important 
year in the discussion of Social Security reform. The President 
in his State of the Union Address challenged us to save Social 
Security first. I've recently introduced the legislation along 
with Ranking Member Charlie Rangel and other Members of the 
Ways and Means Committee which would implement the President's 
call. It would do so by creating a Save Social Security First 
Fund and reserve any budget surplus until action has been taken 
to strengthen Social Security for the 21st century. In my view, 
we need to keep old promises before we make new ones.
    Raising the Social Security retirement age is among the 
many proposals made to reduce Social Security outlays. Today's 
witnesses will lay out for us some of the policy considerations 
of lifting that age. Some people argue that raising the 
retirement age makes sense, because life expectancy has 
increased. Others argue that an increase in the retirement age 
would fall disproportionately on certain groups of people; for 
example, the people who are unable to continue working. This 
might include workers in heavy industry; workers subject to 
downsizing, and workers in poor health.
    We are lucky to have the Commissioner of Social Security 
with us today and a fine panel of witnesses to share the views 
that they have with us. I look forward to a full discussion on 
this issue. I thank you, Mr. Chairman.
    Chairman Bunning. Thank you, Barbara. First, we will hear 
from the Commissioner of the Social Security Administration, 
Kenneth Apfel. This is the first time a Commissioner has 
appeared before this Subcommittee during our hearing series on 
the future of Social Security. I am very pleased that you could 
join us and hope you will come back often. Mr. Apfel, would you 
like to begin?

   STATEMENT OF HON. KENNETH S. APFEL, COMMISSIONER, SOCIAL 
                    SECURITY ADMINISTRATION

    Mr. Apfel. Thank you, Mr. Chairman and Members of the 
Subcommittee for inviting me here today to discuss the future 
of Social Security for this generation and the next. I'm 
especially pleased that the topic of my first hearing as 
Commissioner for this Subcommittee and in the House is to 
discuss how to begin to strengthen Social Security for the 21st 
century. I can think of no issue more important for the 
country.
    As you know, President Clinton has made Social Security 
reform a top priority. The President proposed in his State of 
the Union Message that none of the surpluses should be used for 
tax cuts or additional spending until we address Social 
Security's long-range financing problem. He said that we must 
save Social Security first, and the reasons are quite clear. 
Since its creation in 1935, Social Security has become the most 
successful domestic government program in the nation's history 
and our most effective antipoverty program, especially for 
older Americans. More than 9 of 10 older Americans receive 
Social Security and about 40 percent are kept out of poverty by 
their monthly benefit payments.
    The importance of retirement income will only grow in the 
future. Today, there are 34 million older Americans; by 2030, 
that number will have more than doubled as the 76 million baby 
boomers move into retirement. At the same time, the growth in 
the number of senior citizens will outpace the number of 
workers. Today, there are 3.3 workers for each beneficiary; by 
2030, there will only be about 2. These demographic trends have 
large implications especially for the Social Security Program. 
These changes will place great strains on America's retirement 
system and raise serious long-range financial issues. If these 
issues are not addressed by the United States now, future 
generations of Americans will not be able to enjoy the same 
sense of economic security in retirement as have previous 
generations.
    The President wants the American people to become involved 
in determining the future of this venerable program. He's 
called for a year-long dialog on the issue of Social Security 
reform and has challenged every American to become involved. In 
December of this year, the President will convene a White House 
conference on the issue, and following that conference, he's 
called for bipartisan negotiations on long-term Social Security 
reform. I believe that the President's plan of national 
discussion and bipartisan political action provides a process 
for measured yet timely action.
    We now stand at the beginning of this process in which the 
options for reforming Social Security should be discussed, 
examined, and debated, but any option for change should also be 
considered within the context of total program reform. By that, 
I mean that any change in one area, such as retirement age, 
would affect a degree of change that is practicable or 
desirable in other areas.
    Let me now turn to the specific focus of this hearing: the 
retirement age. It's a complex issue and raises questions that 
are indicative of the tough choices facing this Nation. Too few 
Americans--as you pointed out, Mr. Chairman--are aware that the 
normal retirement age for Social Security is already scheduled 
to increase beginning in the year 2000 as a result of the 
amendments in 1983. Those amendments provided for a gradual 
increase in the age at which unreduced benefits are first paid 
from age 65 to 67. The increase will be phased in over a 22-
year period.
    Now, some individuals propose that the normal retirement 
age be raised beyond this already scheduled increase or raised 
faster than is now legislated or tied to increases in 
longevity. In general, the higher the age you set for full 
benefits, the greater the effect in improving the program's 
long-range financial condition, but asking future beneficiaries 
to work beyond the already legislated age of 67 is clearly 
imposing a sacrifice on future workers, and the American people 
have to weigh this option against the other options for 
improving the financial condition of Social Security.
    Let's look at some specific retirement age issues. Those 
who favor a further increase usually point first to longevity. 
The life expectancy for a 65-year old in 1940 was 12.5 years 
and today it is 17.5 years and rising. Proponents of raising 
the normal retirement age say that if the normal retirement age 
had been pegged to reflect longevity when the 1983 amendments 
were passed, the normal retirement age now would be 65 and 10 
months today and would reach age 68 in 2054. Had the normal 
retirement age been pegged to reflect increases in longevity 
since the program's inception, it would be over 70 today. 
Proponents also note that there are many indications that the 
health of older workers is improving. If these gains continue, 
the period of dependence, or ill health, sometimes associated 
with old age could be reduced. Improved health could herald 
longer periods of career productivity and with a declining 
birth rate, older workers could be in demand in the future.
    But others look at the notion of raising the retirement age 
differently. They say that there is little public support for a 
higher retirement age. Three out of four workers, today, take 
reduced Social Security benefits just so they can retire before 
age 65. Workers in heavy industry would be less able to work 
additional years because of the physical demands of their jobs, 
and even some people not working in physically demanding jobs 
will face pressures. I think of the kindergarten teacher--
that's certainly doesn't count as a physically demanding job--
but would all 67-year-old kindergarten teachers want to 
continue to be kindergarten teachers past age 67? I know from 
my experience, those are tough jobs. They certainly don't count 
as physically demanding jobs, but they have major workload 
implications for the individuals who provide that work.
    There's a pivotal difference between longer life expectancy 
and longer healthy life expectancy. A higher, full retirement 
age would drive up Social Security disability claims to some 
extent, and I think we'll talk about that today. Some 
individuals also point to concerns about the impact of raising 
the retirement age on American business practices. The effect 
of raising the retirement age on employer behavior would have 
to be considered. How might businesses change their employment 
and compensation policies in response to the aging population 
that wants to work? Will the labor market open up large numbers 
of jobs to older workers? These are important questions.
    Most importantly, we should remember this: While we can 
evaluate the merit and pitfalls of individual proposals such as 
increases in the retirement age, the eventual solution to the 
long-range financing problem will very likely involve many 
elements in a larger reform package. While we must understand 
the impact of each of those elements in isolation, we must also 
recognize that the elements will interact in a context of a 
broader reform package, and those interactions must be fully 
understood before any final conclusion can be reached. In the 
end, we need reforms that strengthen and protect Social 
Security for the 21st century while maintaining the 
universality, the fairness, and progressivity of the system.
    We're strongly committed to a system that maintains the 
basic public trust embodied in the Social Security system that 
provides a benefit that people can count on. The American 
public needs to understand a number of these complex issues if 
they are to eventually support reform measures. They need to 
understand that there are tough choices ahead. No option for 
resolving the long-term financing problems facing Social 
Security is perfect. Any proposal for making substantive 
changes in the current Social Security system, such as raising 
the retirement age, will need careful study and broad public 
discussion. The President, of course, has said that he wants 
just such discussion on the entire subject of Social Security 
reform throughout this year.
    The Social Security Administration will work to educate the 
public about what Social Security has achieved, how the program 
works, and the nature of the long-range solvency problem. We're 
committed to working closely with the Members of this 
Subcommittee and other Members of Congress in a bipartisan 
effort to save Social Security first. Thank you, and I'll be 
happy to answer any questions that you have.
    [The prepared statement follows:]

Statement of Hon. Kenneth S. Apfel, Commissioner, Social Security 
Administration

    Thank you for inviting me here today to discuss the 
``Future of Social Security for this Generation and the Next.'' 
I am especially pleased that the topic of my first hearing as 
Commissioner of Social Security before this Subcommittee, and 
in the House of Representatives, is to discuss how we begin to 
strengthen Social Security for the 21st Century. I can think of 
no issue more important than preserving the program for future 
generations of Americans. Mr. Chairman, you and Ms. Kennelly 
have already contributed a great deal of vital information to 
this important discussion. I commend you for the work you have 
done by holding this series of hearings.
    These hearings will help to make the national debate on the 
future of Social Security successful and informative. A full 
and honest discussion of the issues facing Social Security will 
allow Americans to understand and participate in the decisions 
that must be made in order to put Social Security on a sound 
financial footing. I strongly support the President's call for 
all Americans to be involved in the national dialogue on Social 
Security in the coming year.
    President Clinton's message on Social Security in the State 
of the Union was clear: Save Social Security first. Our fiscal 
house is now in order. For the first time in more than a 
generation, the Nation will enjoy a Federal budget surplus, not 
only in the coming year, but for many years to come. But the 
President has also stated that any budget surplus must be 
reserved pending Social Security reform. He has made it clear 
that he intends to work with Congress in a bipartisan effort to 
preserve and strengthen the program.
    I am very pleased to be here today to discuss the 
ramifications of proposals to raise the Social Security 
retirement age. Today I will review with you the President's 
process for reform, and in the spirit of that process, try to 
provide a full overview of the issues that must be addressed 
when we are asked to evaluate proposals to raise the retirement 
age.

                          President's Process

    President Clinton wants to use this year to raise the 
visibility of Social Security reform. He has challenged every 
American to attend a conference or forum on the issue--or to 
organize and host one if none are planned in the community. 
This national call to action must spread to every corner of the 
country.
    The President and Vice President will be actively 
involved--they will be attending several nonpartisan 
conferences convened jointly by the Concord Coalition and the 
AARP on Social Security reform. The first of these will take 
place on April 7, in Kansas City. They will also be 
participating in events organized by the Pew Charitable Trust, 
the first of which will take place March 21.
    In December of this year, the President will host a 
bipartisan White House conference on Social Security as a 
culmination of the various conferences, forums and discussions 
held throughout the year. The purpose of the White House 
conference is to bring together the lessons learned from the 
national dialogue.
    Following the White House conference in December, the 
President and his team will begin bipartisan negotiations with 
congressional leaders in early 1999. The President is firmly 
committed to strengthening Social Security for the 21st 
Century.

                Preserving the Successes of the Program

    As we begin this dialogue, we need to reflect on what 
features have led to Social Security's success. The dialogue 
will most certainly be about how to address the challenges 
facing Social Security in the future, but it will also be about 
how we preserve and protect the accomplishments of the program 
that has served this nation so well for over sixty years.
    First of all, Social Security is dependable. Social 
Security has been there each and every month. Millions of 
Americans count on the arrival of their Social Security 
benefit. Today, more than 90 percent of the elderly in this 
country receive Social Security. Americans of all ages must be 
able to count on Social Security in the future. We have an 
obligation to provide a dependable source of income that 
Americans can use to plan their financial future with 
confidence.
    In addition, Social Security is efficient. Less than one 
penny of every dollar collected is used for administering the 
Social Security program. It is a program that is portable and 
it is a program that provides benefits that are indexed to 
inflation.
    Social Security is also the greatest anti-poverty program 
ever created. Without Social Security, nearly 50 percent of 
today's elderly would be living in poverty. Social Security 
doesn't make people rich, but it gives Americans rightly 
deserved financial independence. This financial protection, 
however, is not just for the elderly. Social security also 
protects working families through disability and survivors 
insurance.
    Social Security ensures that all workers receive an 
equitable benefit through a progressive benefit formula. It is 
a program that is universal and fair. Proportionately larger 
benefits are provided to lower income workers who will need it 
most.
    Finally, Social Security is a public trust. Social Security 
spreads the risk associated with disability, premature death, 
and old age among the entire working population and provides a 
guaranteed benefit that is adequate and fair.
    During this discussion, we would do well to question 
whether changes to the program preserve and protect these 
important accomplishments: whether Social Security continues to 
be a benefit people can count on; whether the elderly, 
disabled, and survivors of workers are protected from financial 
hardship; whether the program is efficient; whether the program 
is universal and fair; and whether the program is maintained as 
a basic public trust. The dialogue about how we ensure the 
solvency of Social Security in the 21st century will need to 
include these critically important questions.

                         Need for Public Debate

    As President Clinton has said, we must inform Americans 
about Social Security and the issues confronting it. The 
President's proposal to conduct regional forums to raise public 
awareness of the problems facing Social Security acknowledges 
an important truth: the broad-based participation of the 
American public is critical to achieving a resolution of the 
long-term solvency issue. An accurate understanding of the 
facts is needed as the foundation for public discussion. We 
have been focusing our efforts on educating the public about 
Social Security programs to put them in the best possible 
position to be able to enter into public debate about options 
for the future of Social Security.
    Before having discussions about reform proposals, it is 
important that Americans understand the Social Security 
program. What do I believe Americans should understand about 
our Social Security program? What is it about this program that 
reduced to its essentials makes it of such importance to the 
American electorate?
    I want all Americans to understand what Social Security has 
meant to older Americans. The plight of older Americans used to 
be a disgrace. Now, Social Security provides them with a solid 
measure of economic security even if they outlive the actuarial 
tables, and their savings. It also provides many of them, and 
their children, the advantages that only living independently 
can offer.
    I want all Americans to know that Social Security is more 
than a retirement program. I want younger people to know that 
not only will Social Security be there for them in the future, 
it is there for them NOW. How many people know that 1 out of 
every 3 Social Security beneficiaries is not a retiree but a 
disabled worker, or a member of his or her family, or a 
survivor of a worker who has died? They need to know that.
    I want all Americans to know that Social Security was never 
intended to provide for all of a worker's retirement income 
needs. Pensions and personal savings have always been and 
should be part of a sound financial retirement plan.
    I want all Americans to understand that the changing 
demographics of the country are the primary driver of the need 
for change. There is an unalterable dynamic at work: by 2030, 
there will be nearly twice as many older Americans as there are 
today, putting great strains on our retirement system.
    I want all Americans to understand the economic facts about 
Social Security. Beginning in 2019, the trust funds will start 
declining and will be exhausted by 2029, if no changes are made 
to the current program. After the trust funds are exhausted, 
however, annual revenues will be able to pay three-quarters of 
current-law benefits.
    Finally, I want all Americans to understand one important 
fact: as attractive as any option for change might be, there 
are tradeoffs that must be accepted if we choose it. These are 
complex issues, and the advantages and disadvantages of each 
will have to be discussed and examined.
    SSA will play a vital role in helping to make 
understandable the elements that will lead us to long-range 
solvency. We have made strengthening the public's understanding 
of the Social Security programs one of our five strategic goals 
in our recently published Agency Strategic Plan. Through a 
comprehensive education campaign, Americans will better 
understand the value of Social Security, while recognizing that 
its benefits supplement savings, investments, and private 
pensions in planning for a comfortable retirement.

                          Demographic Changes

    As this Subcommittee is well aware, our population is 
changing. Americans are living longer and we are having fewer 
children. The number of older people--those over 65--is 
climbing. In fact, the population of the elderly, now 34.2 
million strong--will more than double by the year 2030, to 69.4 
million.
    The number of workers collecting Social Security is 
increasing much faster than the number of workers contributing 
to Social Security. Today, there are 3.3 covered workers for 
each beneficiary, but by 2030, there will be only about 2 
covered workers per beneficiary.
    Now is the time--when the economy is strong, the budget is 
balanced--to begin to address the economic security for future 
generations of retirees. Now is the time--when the program is 
not in crisis--to face the long-range solvency problem and to 
begin to deal with it. It is important that we address this 
problem sooner rather than later so that changes can be made 
gradually and that there will be time for people to adjust 
their retirement plans.
    The President's approach--to use this year for national 
discussion and debate; to bring our ideas together in a series 
of forums culminating in a White House conference this coming 
December--provides an ideal process for measured, yet timely 
action.

                         Raising Retirement Age

    And now to turn to the focus of this hearing: The issue of 
retirement age, whether it should be raised and how raising it 
would affect the millions of future retirees who will depend on 
Social Security, is a perfect example of the complex issues and 
the tough choices facing us as a Nation.
    As you know, the normal retirement age is already scheduled 
to increase, beginning in the year 2000, as a result of the 
Social Security Amendments of 1983. Those amendments provided 
for a gradual increase in the age at which unreduced benefits 
are first paid from 65 to 67. The increase in the retirement 
age will be phased in over a 22-year period, with an 11-year 
hiatus at which the retirement age will remain at 66.
    Some have proposed raising both the normal retirement age 
and the early retirement age beyond what it is under current 
law. The retirement age changes that are being proposed are 
intended to help address the long-range solvency problem facing 
Social Security. Some proposals would raise the full benefit 
retirement age past age 67 to 68 or even higher. In general, 
the higher the age is set for full benefits, the greater the 
effect on improving Social Security's long-range financial 
condition. Asking future beneficiaries to work beyond age 67 is 
clearly imposing a sacrifice on these workers, and the American 
people will have to weigh this option against the other options 
for improving the financial condition of Social Security.
    Another element in some retirement age proposals is the 
rate at which the increase in the full benefit retirement age 
is achieved. Some proposals would simply eliminate the present 
law ``hiatus,'' so that full benefits would still be paid at 
age 67, but about 11 years sooner than scheduled under current 
law. Other proposals go beyond age 67 and do so very gradually, 
or relatively quickly. In general, the faster the higher age is 
reached, the greater the impact on reducing the Social Security 
long-range deficit, but the shorter the period that people 
would have to plan for the new retirement age.

                          Longevity and Health

    Proponents of raising retirement age tell people that this 
change makes sense because Americans are living longer. When 
benefits were first paid in 1935, a 65-year old on average 
lived about 12.5 more years. Today, a 65-year old could expect 
to live about 17.5 more years and by 2070, life expectancy at 
age 65 is projected to be 20.5 years.
    Because of the improvements in longevity, some experts 
argue that it is reasonable to continue to adjust the 
retirement age to encourage people to work longer. They say it 
is appropriate for the ratio of years-of-work to years-of-
retirement to stay relatively constant from generation to 
generation. Had the normal retirement age been pegged to 
reflect increases in longevity when the 1983 Amendments were 
passed, the normal retirement age would be 65 and ten months 
today, and would reach 68 in 2054. Had the normal retirement 
age been pegged to reflect increases in longevity since the 
program's inception, it would be over 70 today. While it is 
quite clear that medical and technological breakthroughs have 
had the effect of extending life spans for many Americans, we 
do not know what proportion of those extra years are spent in 
good health and what portion reflects extra years of illness 
before death. I think we can all agree that, when we talk about 
raising the retirement age, there is a pivotal difference 
between longer life expectancy and longer healthy life 
expectancy.
    Some research suggests that the health of older Americans 
has increased through the 1980s and into the 1990s. Arguments 
have been made that these gains are likely to continue, and can 
be expected to have the effect of reducing the period of 
dependence or ill health sometimes associated with old age, at 
the same time that life expectancy is increasing. On the other 
hand, more research is needed to clarify whether gains in 
longevity and health would mean most workers could extend their 
worklives. Critics of raising the normal retirement age have 
pointed out that this could have a disproportionately large 
impact on older workers in physically demanding jobs. Many 
analysts suggest that even if the normal retirement age is 
increased, it may be important to continue to allow early 
retirement at age 62, with the appropriate actuarial adjustment 
to benefits, as I will discuss in a moment. While it is 
expected that there will be fewer physically demanding jobs in 
the future, these jobs will not disappear. One study released 
in 1986 looked into the issue of whether people would be able 
to extend their work careers in the future because of the 
decline in the number of jobs that would require physical 
strength and endurance. The study concluded that the proportion 
of jobs in physically demanding employment will decline 
slightly from about 11 percent in 1982 to 7-9 percent in 2020.
    Another consideration is the effect of raising the 
retirement age on employer behavior. How might firms' 
employment and compensation policies change in response to an 
aging population that wants to work? Older workers often earn 
higher wages, often accrue more expensive pension rights that a 
firm must honor, and can increase an employer's health 
insurance costs. On the other hand, in many respects the older 
worker is a prized commodity for potential employers. 
Knowledge, experience, and dependability are characteristics 
usually associated with the older worker.
    Some have raised concerns about whether the labor market 
can accommodate a steady increase in the supply of older 
workers. Many experts believe that the U.S. labor market has 
always expanded to accommodate large, sustained increases in 
the supply of workers--witness the expansion of jobs for women 
in the decades after World War II, and the increased employment 
opportunities that met the baby boomers' entry into the work 
force. However, as skeptics point out, the continued employment 
of older workers is not without problems. Skills can obsolesce 
and health often deteriorates. Firms often have financial 
incentives to substitute cheaper factors of production, 
including both younger workers and new equipment. We need to be 
aware of the potential problems and employment barriers some 
older workers might face if they attempt to remain in the labor 
market, as well as the potential contributions they can make.
    Another issue is how employer-provided pensions relate to 
Social Security. If the full benefit retirement age is raised 
for Social Security, how will this impact on private pension 
protection? We need to fully examine and discuss the 
interaction between employer-provided pensions and Social 
Security.

                             Changes to EEA

    Some have proposed to leave the ``earliest eligibility 
age,'' or EEA, at age 62 while raising the age at which full 
benefits are paid. EEA benefits are actuarially reduced to take 
account of the longer period over which they will be paid. 
Maintaining EEA at age 62 and raising full retirement age has 
the effect of stretching the interval over which benefits need 
to be actuarially adjusted, and the result is that the 
adjustment in benefits at age 62 would need to be greater to be 
actuarially fair.
    For any given couple, the decision to take a reduced 
benefit may be reasonable to that couple when they reach age 
62. The availability of benefits at 62 may make it possible to 
travel, pursue hobbies, and, in general, to reap the rewards of 
retirement. The cost of choosing early retirement, however, is 
an actuarially reduced benefit throughout their retirement 
years. Today, almost three out of four workers retire before 
reaching age 65--electing reduced benefits--showing a strong 
preference of the American people to retire earlier, rather 
than later.

        Relationship between Retirement and Disability Programs

    Many have noted that issues of raising retirement age 
necessarily include issues of health and ability to work. 
Raising the retirement age would have repercussions for the 
disability program. As the normal retirement age increases, 
there is an increased incentive for workers eligible for early 
retirement benefits to apply for disability benefits because, 
unless they are similarly reduced, the disability benefits will 
be more attractive to older workers.
    Opponents of raising retirement age emphasize that some of 
the savings from raising retirement age would be offset by 
increased costs under the disability program. Some proposals 
call for a reduction in disability benefits as a form of early 
retirement to avoid such an outcome.
    Another approach that has been suggested by some would be 
to make changes in the disability benefits program to take 
account of those older workers who are unable to extend their 
work lives for health reasons. This approach was suggested by 
the Greenspan Commission before the 1983 legislation to 
gradually raise the retirement age was enacted. As a majority 
of the Greenspan Commission noted:
    ``...because some workers, particularly those in physically 
demanding employment may not benefit from improvements in 
mortality and be able to work longer, we assume that the 
disability benefits program will be improved prior to 
implementation of this recommendation to take account of the 
special problems of those between age 62 and the normal 
retirement age who are unable to extend their working careers 
for health reasons.''
    While SSA regulations already provide more relaxed 
eligibility requirements for workers who become disabled after 
age 55 when vocational factors are taken into account, the 
question is raised as to whether this is sufficient. There is 
no easy answer here.

               Interactive Nature of Individual Elements

    This complicated relationship between retirement and 
disability brings me to my final point. That is, we can 
evaluate proposals as to their individual merits, but the final 
solution to the long-range solvency problem will very likely 
involve many elements comprising a larger package. While we 
must understand the ramifications of each of those elements in 
isolation, we also must recognize that the elements will 
interact in the context of the entire package, and that those 
interactions also must be fully understood before any final 
conclusions can be drawn.

                               Conclusion

    Raising the normal retirement age involves issues that need 
to be examined and discussed by all Americans. We must hear 
from the people, because Social Security is their program.
    Every one of us, young and old, needs to understand that 
there are tough choices ahead of us. No option for resolving 
the long-term financing problems facing Social Security is 
perfect, and, as we have seen today in this discussion of 
raising retirement age, every option involves tough choices.
    SSA will continue to take an active role in the process 
outlined by the President. We will continue to educate the 
public about Social Security; how it works, what is has 
achieved, and the nature of the long-range solvency problem. I 
look forward to working closely with members of this Committee 
in a bipartisan way to fashion solutions important to this 
Nation. I will be glad to answer any questions you may have.
      

                                <F-dash>

    Chairman Bunning. Thank you, Mr. Commissioner. Yesterday, I 
asked Treasury Deputy Secretary Summers about the President's 
proposal on Social Security, and as Commissioner of this vital 
program, I would like to hear your views as well. Would you 
please explain for me the President's proposal for the 
treatment of the budget surpluses and reform of Social 
Security?
    Mr. Apfel. The President has strongly suggested that we 
save Social Security first by reserving the budget surpluses 
pending Social Security reform and that we use our current 
budget rules to assure that those surpluses are not drained 
away through either tax cuts or other spending increases until 
we address the issue of Social Security reform. I should also 
indicate that our current budget projections show that the 
first surpluses will arrive at the end of fiscal year 1999, and 
it's our belief that we can get this whole issue completed, 
legislation enacted, before the end of fiscal year 1999, before 
those first budget surpluses start to come on stream. The 
President has not specifically proposed that the budget 
surpluses be provided to the Social Security Trust Fund at this 
time. We have not at all ruled out the possibility of a whole 
series of different ways the surpluses could be used to 
strengthen the Social Security system. But that's really what 
this year is about, how to assure the long-term future of 
Social Security and how those surpluses could be used to help 
strengthen Social Security.
    Chairman Bunning. In other words, in his proposed budget, 
there is nothing to change the current law as far as taking the 
FICA taxes and investing them in nonnegotiable bonds and then 
spending that money. There is nothing--no change.
    Mr. Apfel. There is no proposal to do that in this budget. 
We do not think it's necessary at this time given the fact that 
the surpluses will be coming on stream in 1999. I would note 
that you've indicated an interest in legislation to organize a 
form of an accounting mechanism to assure that those surpluses 
would be walled off. Mr. Rangel, Mrs. Kennelly, I believe, have 
a similar approach. We would be open to discussing those with 
the Congress. At this time, we haven't seen the need for 
legislation to do that because of our desire to complete action 
on this in 1999, but we're not at all opposed to discussing 
whether a specific mechanism, an accounting mechanism, should 
be created.
    Chairman Bunning. Certain members of the administration 
have discussed transferring a part of the surplus to the trust 
funds. In essence, this would mean a huge transfer of general 
tax receipts into the trust funds. In your view, should any tax 
receipts be used to fund Social Security? Should taxpayers feel 
any connection between the taxes they pay and the benefits they 
receive? And I'm speaking, then, in that tax receipt about FICA 
tax. The budget surplus is separate. Some members of your 
administration suggested that we transfer the surplus into the 
trust funds. I think there has to be a connection between the 
FICA tax and the benefits.
    Mr. Apfel. No members of the administration have proposed 
that the surpluses be transferred. One of the options that 
needs to be considered this year--and there's been internal 
discussion and there will be discussions all year--is this is 
one option that I think deserves considerations: Whether the 
surpluses would be transferred in whole or in part in some form 
to the Social Security Trust Fund. There are other options as 
well: Whether the surpluses would be invested in equities and 
provided to the trust fund. Another option that some have 
proposed is to use the trust fund balances and invest part of 
those balances in equities; not transferring new moneys into 
the Social Security Trust Fund, but, in effect, using some of 
the surpluses in equity investments which would also have the 
effect of using up part of the surpluses.
    Chairman Bunning. I want to--I don't mean to cut you off, 
but someone in the administration did suggest that, and it was 
Deputy Secretary Summers, and he argued with me in testimony 
yesterday, and before the Senate Finance Committee he said, 
that maybe when we get to $100 billion in surplus, maybe we 
could make a massive transfer to the trust funds.
    Mr. Apfel. I was at that hearing, sir--also testifying----
    Chairman Bunning. Well, but I'll go get you to the 
testimony if you'd like, and I don't want to argue about what 
he said.
    Mr. Apfel. One of the hypotheticals would be, if $100 
billion were transferred in, what would be the potential 
effect? But we've been very clear that we have not proposed any 
one of those solutions, and that's really what part of this 
debate is all about, sir.
    Chairman Bunning. Barbara.
    Mrs. Kennelly. Thank you, Mr. Chairman. Obviously, raising 
the retirement age is likely to fall the hardest on those with 
little or no pension benefits. Less than half of Americans 
working right now have pension benefits. If the retirement age 
is raised, what will happen to the half of America that doesn't 
have pension benefits and then wait longer for their Social 
Security? I'm sure you've thought about it, and how do you 
respond?
    Mr. Apfel. Well, it is true that about half of all Social 
Security recipients receive virtually no pension or asset 
income and are heavily, heavily relying on just Social 
Security. Any change in the benefit structure will fall most 
heavily on that group of individuals. A change in the 
retirement age has the effect of affecting all individuals, 
particularly those nearing retirement by reducing benefits for 
everyone at a given age. There are other alternatives, other 
benefit changes, that need to be weighed and considered with 
regard to their effect on low-income Americans.
    Mrs. Kennelly. Well, my concern is that an awful lot of 
those individuals are older, poor women with really very little 
to fall back on and living literally penny to penny to penny; 
watching every penny, and this is a concern because they just 
don't have any other alterative other than to be poor.
    Mr. Apfel. Women retire somewhat earlier, which means they 
have a somewhat deeper reduction in actual values in terms of 
their benefits from Social Security. They also, because of 
earnings, receive somewhat lower benefits, and they also, as 
you know, live considerably longer and, potentially----
    Mrs. Kennelly. And we haven't figured out any way for 
anybody else to have the baby, so they go in and out of the 
work force, and therefore have the zero earning years too. 
Everything's going against them.
    Mr. Apfel. So, there are a whole number of issues----
    Mrs. Kennelly. In Social Security.
    Mr. Apfel. That's right; that's right. But there's a whole 
series of issues about women that relate to retirement age and 
also any of the other proposals that are on the table. It's one 
of the reasons that we have to look at this change combined 
with any other changes that can be done in a system to 
determine how the entire package that is developed in the 
course of the months ahead will provide the strongest floor of 
protection in a progressive way for all workers, particularly 
those with lower incomes.
    Mrs. Kennelly. A lot of things have not changed. 
Generational relationships with more women working have but 
we've got a whole new group of single heads of households going 
into the work force, so we'll have many of the same problems 
with women who stayed at home.
    So, it's a problem that really has to continually be 
addressed and it's the reason we can't do anything else but 
address the whole future of the Social Security system, and no 
matter how erudite you get, you come back to that every time, 
so I have to mention it every time.
    Let me talk about another group. The Heritage Foundation 
has argued that the African-American men get a very bad deal 
from Social Security because of their shorter lifespan. In 
addition, those who oppose raising the retirement age point out 
that raising the retirement age would disadvantage people who 
have a shorter life. Now, that's obvious; that's very obvious, 
but as we do this, we have to keep remembering why we have 
Social Security, and how do you respond to that?
    Mr. Apfel. If I could comment on the Heritage study. The 
Social Security actuaries developed an analysis of the Heritage 
study on rates of return and indicated that there were some 
errors that were made in that study, and I would ask for the 
record if we could include the Social Security actuaries' 
response to the study. One of the conclusions was that there 
are significant negative rates of return which we don't think 
is correct----
    Chairman Bunning. Without objection, we'll let you put it 
in, and we also will put the Heritage's report in, so that 
there's a comparison.
    Mr. Apfel [continuing]. And if it's their rebuttal which I 
heard there was----
    Chairman Bunning. Well, we'll let them put their report in.
    Mr. Apfel. Great.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2247.025
    
    [GRAPHIC] [TIFF OMITTED] T2247.026
    
    [GRAPHIC] [TIFF OMITTED] T2247.027
    
    [GRAPHIC] [TIFF OMITTED] T2247.028
    
      

                                <F-dash>

[GRAPHIC] [TIFF OMITTED] T2247.029

[GRAPHIC] [TIFF OMITTED] T2247.030

[GRAPHIC] [TIFF OMITTED] T2247.031

[GRAPHIC] [TIFF OMITTED] T2247.032

[GRAPHIC] [TIFF OMITTED] T2247.033

[GRAPHIC] [TIFF OMITTED] T2247.034

[GRAPHIC] [TIFF OMITTED] T2247.035

[GRAPHIC] [TIFF OMITTED] T2247.036

[GRAPHIC] [TIFF OMITTED] T2247.037

[GRAPHIC] [TIFF OMITTED] T2247.038

      

                                <F-dash>

  Social Security's Rate of Return by William W. Beach and Gareth E. 
                                 Davis

No. 98-01 January 15, 1998

    What can Americans expect in future Social Security 
retirement benefits? A Heritage Foundation study reveals that 
the Social Security system's rate of return for most Americans 
will be vastly inferior to what they could expect from placing 
their payroll taxes in even the most conservative private 
investments. For the low-income African-American male age 38 or 
younger, the news is particularly grim: He is likely to pay 
more into the Social Security system than he can ever expect to 
receive in benefits after inflation and taxes. Staying in the 
current system will likely cost him up to $160,000 in lifetime 
income in 1997 dollars.
    If Americans were allowed to direct their payroll taxes 
into safe investment accounts similar to 401(k) plans, or even 
super-safe U.S. Treasury bills, they would accumulate far more 
money in savings for their retirement years than they are ever 
likely to receive from Social Security. For example:
    <bullet> Social Security pays a very low rate of return for 
two-income households with children.--Social Security's 
inflation-adjusted rate of return is only 1.23 percent for an 
average household of two 30-year-old earners with children in 
which each parent made just under $26,000 in 1996.\1\ Such 
couples will pay a total of about $320,000 in Social Security 
taxes over their lifetime (including employer payments) and can 
expect to receive benefits of about $450,000 (in 1997 dollars, 
before applicable taxes) after retiring at age 67, the 
retirement age when they are eligible for full Social Security 
Old-Age benefits.\2\ Had they placed that same amount of 
lifetime employee and employer tax contributions into 
conservative tax-deferred IRA-type investments-such as a mutual 
fund composed of 50 percent U.S. government Treasury bills and 
50 percent equities-they could expect a real rate of return of 
over 5 percent per year prior to the payment of taxes after 
retirement. In this latter case, the total amount of income 
accumulated by retirement would equal approximately $975,000 
(in 1997 dollars, before applicable taxes).
---------------------------------------------------------------------------
    \1\ This rate of return calculation assumes that both adults were 
born in 1967.
    \2\ Total taxes paid and benefits received are expressed in 1997 
inflation-adjusted dollars. Social Security taxes are defined as Old-
Age and Survivors Insurance (OASI) contributions, less (where 
applicable) an amount which would buy a life insurance policy 
equivalent to the value of the coverage provided by (pre-retirement) 
Survivors Insurance. In 1997, the tax rate for OASI is 10.7 percent of 
all wages and self-employment income less than $65,400, as of year-end 
1997. Unless stated otherwise, a discount rate is not applied to these 
amounts.
---------------------------------------------------------------------------
    <bullet> The rate of return for some ethnic minorities is 
negative.--Low-income, single African-American males born after 
1959 face a negative real rate of return from Social Security. 
For every dollar he has paid into Social Security, a low-
income, single African-American male in his mid-20s who earned 
about 50 percent of the average wage, or $12,862, in 1996 can 
expect to get back less than 88 cents. This negative rate of 
return translates into lifetime cash losses of $13,377 (in 1997 
dollars) on the taxes paid by the employer and employee.
    African-American females typically live longer than their 
male counterparts, yet even they have a rate of return lower 
than the general population. An African-American single mother 
21 years old who in 1996 made just under $19,000 (the average 
for African-American females) can look forward to a real rate 
of return on her Social Security taxes of only 1.2 percent. 
Under conservative assumptions, if she had saved those same tax 
dollars in a private investment account composed of government 
bonds, she would have received a real return of around 3 
percent per year. With a mixed portfolio of bonds and equities, 
she could expect a return on her investments of at least 4.35 
percent. This means that even with a low risk/low yield 
portfolio composed entirely of Treasury bills, this single 
mother could have generated at least $93,000 more in retirement 
income (in after-tax 1997 dollars) than she would enjoy under 
Social Security.\3\
---------------------------------------------------------------------------
    \3\ Assuming that upon retirement this single woman is able to 
annuitize the lump sum at retirement that she accumulated at a real 
interest rate of 2.7 percent over 15 years. The current federal income 
tax rates (with current rate structure, exemptions, tax bands, and 
deductions adjusted by inflation as mandated in current legislation) 
are applied against this annuity income.
---------------------------------------------------------------------------
    <bullet> The rate of return has a damaging impact on 
communities.--The cumulative effects of Social Security's 
dismal rates of return can be appreciated by considering a 
hypothetical community. Suppose there existed a city entirely 
of 50,000 young, married double-earner couples in their 
thirties, with each person earning the average wage, and each 
couple had two children. The cumulative amount such a community 
could save in a private pension plan by retirement with the 
same dollars they currently pay in Social Security taxes is 
over $26 billion greater than these couples will get in Social 
Security benefits. This amount is roughly equal to the amount 
the federal government currently spends on food stamps each 
year for the whole nation, and nearly as much as direct federal 
spending on education.\4\
---------------------------------------------------------------------------
    \4\ Scott A. Hodge, ed., Balancing America's Budget: Ending the Era 
of Big Government (Washington, D.C.: The Heritage Foundation, 1997). 
[GRAPHIC] [TIFF OMITTED] T2247.051

                       Why Rates of Return Matter

    The defenders of Social Security argue that rates of return 
are irrelevant to the Old-Age and Survivors Insurance (OASI) 
portions of the program. Social Security, they suggest, was 
intended to provide a basic but decent retirement income to 
beneficiaries and stop-gap incomes for surviving spouses. 
Future Social Security beneficiaries, they argue, should be 
saving now for additional retirement income to supplement 
benefits from the Old-Age and Survivors Insurance. Thus, they 
argue that comparing rates of return on private pension 
investments with those from a public program intended to pay 
out during retirement at least 35 percent of the wages an 
average worker earned prior to retirement is like comparing 
apples with oranges.\5\
---------------------------------------------------------------------------
    \5\ See Social Security Administration, ``Findings and 
Recommendations,'' 1997 Annual Report of the Board of Trustees of the 
Federal Old-Age and Survivors Insurance and Disability Insurance Trust 
Funds, Communication from the Board of Trustees of the Federal Old-Age 
and Survivors Insurance and Disability Insurance Trust Funds, House 
Doc. 104-228 (Washington, D.C.: U.S. Government Printing Office, 1997), 
Table R1, p. 36.
---------------------------------------------------------------------------
    This line of reasoning contains a fundamental flaw. If 
Social Security taxes were low enough to allow workers to save 
these additional dollars for their retirement, apologists for 
the system might conceivably be correct in characterizing 
Social Security as a pension program of last resort. But Social 
Security taxes are not low, and they are crowding out the 
ability of most low-and middle-income Americans to save for 
retirement. Thus, the rate of return on these taxes is very 
important, especially for those Americans for whom Social 
Security is their main retirement savings.
    Crowding Out Savings. As payroll taxes have risen, many 
more Americans have few dollars left over for supplemental 
retirement investment. Over the past 25 years, Congress and the 
President have increased Old-Age and Survivors benefits so 
often and so much that today the high payroll taxes needed to 
pay those current benefits crowd out private retirement 
investments.\6\ In 1972, the average worker (with his or her 
employer) paid 8.1 percent in Old-Age and Survivors payroll 
taxes on the first $9,000 of wages and salary (equivalent to 
about $21,500 in 1997 dollars);\7\ in 1997, that worker paid 
10.7 percent on the first $65,400 of ``earned'' income (or the 
first $27,340 in 1972 dollars).\8\ Moreover, between 2020 and 
2046, the Old-Age and Survivors tax rate will have to rise to 
14.4 percent from today's 10.7 percent if benefit costs are not 
cut.\9\
---------------------------------------------------------------------------
    \6\ See Martin Feldstein, ``The Missing Piece in Policy Analysis: 
Social Security Reform,'' A.E.A. Papers and Proceedings, May 1996, pp. 
1-14.
    \7\ Social Security Administration, 1997 Annual Report of the Board 
of Trustees, Table II.B1, pp. 34-35. The percentage of wages and 
salaries taxed to support the Old-Age and Survivors and Disability 
Insurance programs (Social Security taxes) equals the 50 percent paid 
directly by the employee plus the 50 percent paid by the employer on 
the employee's behalf. The employer's half comes from wages the family 
would have earned had there not been a payroll tax.
    \8\ Taxable threshold levels for 1972 and 1997 adjusted by the 
index value for the Consumer Price Index--All Urban Series. See 
Economic Report of the President (Washington, D.C.: U.S. Government 
Printing Office, 1997), Table B-58, p. 365.
    \9\ Heritage Foundation estimates based on data from the Social 
Security Administration's 1997 Annual Report of the Board of Trustees, 
Table II.F14, p. 112.
---------------------------------------------------------------------------
    Because of rising payroll taxes for retirement, increasing 
numbers of poor and middle-income workers do not have the 
after-tax funds needed to create private supplemental pension 
investments.\10\ In fact, Social Security taxes now consume as 
much of the average family's budget as do outlays for housing, 
and nearly three times more than annual health care 
expenses.\11\
---------------------------------------------------------------------------
    \10\ This is complicated by the decreasing number of firms that 
provide company pensions to their workers. Rising taxes of all kinds, 
costly regulations, and increasing pressures on the bottom line have 
led many firms away from the practice of providing pensions for long-
time employees.
    \11\ Data on average family consumption expenditures from U.S. 
Department of Labor, Bureau of Labor Statistics, ``Consumer 
Expenditures in 1995,'' June 1997, Table A. This report estimates 
average family income before taxes to be $36,918. Heritage analysts 
added $2,289 to reflect additional wages the average worker would 
receive if the employer's share of Social Security was converted to 
wages.
---------------------------------------------------------------------------
    Because of the long-term financial problems of the Social 
Security trust fund, calculations of the rate of return for 
Social Security are likely to prove optimistic. The fact is 
that Social Security will not be able to pay out old-age 
benefits to the ``Baby Boom'' generation without additional tax 
increases on workers or benefit cuts. These tax increases or 
benefit cuts will further reduce the Social Security rates of 
return for those workers currently in their twenties, members 
of the so-called Generation X, and their children. As Social 
Security's rates of return fall, the relevance of rates of 
return on private pensions rises. That is, members of 
Generation X are not simply going to ignore the decaying 
prospects for adequate income during their retirement years. 
Rather, they will insist increasingly on more opportunities for 
creating pensions to supplement Social Security's Old-Age 
benefits. Thus, comparing rates of return for private and 
public pensions will become even more important to each new 
generation.
    In addition, the rate of return is important because the 
crowding-out effects of high Social Security taxes on private 
savings for low-and middle-income workers affect the wealth 
that can be left to the next generation. Few aspects of Social 
Security are as unintended or as damaging to low-and middle-
income workers as the squeeze that high payroll taxes put on 
the formation of intergenerational wealth transfers. The 
inability of poor workers to accumulate enough savings to leave 
a nest egg to their children can mean that their children will 
be as dependent as their parents could be on their monthly 
Social Security check. It means that poor communities will not 
have as much ``home grown'' capital with which to create new 
jobs and sources of income. Without these new jobs and income, 
members of the next generation will be less able to save for 
retirement than they could be. Thus, by taxing away one 
generation's opportunity to help the next generation start 
earning at a higher level, the Social Security system acts as a 
drag on future generations.
    Cumulative Effect on Communities. Although a low rate of 
return on rising Social Security taxes reduces the potential 
retirement savings of individual households, it is important to 
appreciate the cumulative effect this has on communities. In 
both rich and poor communities, less money accumulated in each 
household for retirement years means less money in the 
community not just for living expenses, but also for new 
businesses, for sending children to college, and generally for 
giving the next generation a more secure financial foundation. 
In short, each succeeding generation in a community is weakened 
financially by a poor rate of return from Social Security.
    For a very rough picture of the cumulative impact on a 
community, consider a hypothetical small community of 200,000 
residents. In this imaginary community, there are 50,000 
families of four; all the parents are age 30; and both parents 
work, earning the average wage of $26,000 (in 1997 dollars). 
Assume that nobody migrates into or out of this neighborhood. 
In this greatly simplified hypothetical community, the 
difference between the lifetime amount of savings the parents 
would accumulate by placing their Social Security tax dollars 
in conservative portfolios and the amount actually obtained 
from Social Security would be approximately $26 billion in 1997 
dollars (based on family cases analyzed later in this study). 
This is the savings they must forego due to the failing Social 
Security tax system and, in effect, is money drained from their 
community during their working years.
    To be sure, this example is completely fictitious, and 
actual calculations for real communities would vary widely. But 
this example serves to illustrate that the deficiencies of 
Social Security for individual households imply a significant 
impact on the long-run financial health of American 
communities.
[GRAPHIC] [TIFF OMITTED] T2247.039

            Social Security's Rates of Return for Households

    The authors calculated Social Security's inflation-adjusted 
(or ``real'') rates of return for various segments of the 
population and compared these returns with the rates of return 
workers could receive if they were allowed to invest their 
Social Security taxes in safe, private retirement 
investments.\12\ These calculations show that families at all 
income levels receive dismal returns for the lifetime taxes 
they pay.
---------------------------------------------------------------------------
    \12\ Heritage analysts reduced all rates of return and related 
calculations presented in this paper by the annual inflation rates for 
the years between 1997 and 2040, as forecast by the Board of Trustees 
of the Social Security Old-Age and Survivors Insurance Trust Fund in 
their 1997 annual report. This adjustment to rates of return, Social 
Security benefits, and privately managed savings means that the reader 
is always shown sums and earnings ratios in terms of a dollar's 
purchasing power today. Thus, the statement ``Social Security will pay 
out an annual amount of $17,000 in the year 2040'' means that the 
program will pay enough to allow a beneficiary to purchase then what 
$17,000 will purchase now. In order for a beneficiary to have that much 
``purchasing power'' in the year 2040, as he has today, Social Security 
will actually have to send this person around $100,000 annually. The 
difference between the two amounts is explained by the effects of 
inflation on the dollar's value, or by what a dollar will buy in 2040 
after years of decreasing value due to inflation.
---------------------------------------------------------------------------
    Defenders of Social Security often argue that Old-Age and 
Survivors benefits help low-income workers especially. But do 
they? Does Social Security give low-income Americans a decent 
return on all of the taxes they pay into the system over their 
lifetime of work? \13\
---------------------------------------------------------------------------
    \13\ Generally speaking, a low-income earner is defined in Social 
Security Administration simulations as someone who earns 50 percent of 
the average wage. In 1996, a person defined as low-income earned 
approximately $12,862 per annum.
---------------------------------------------------------------------------
    As Chart 1 indicates, a low-income family will likely 
receive at best a mediocre and at worst a very poor real rate 
of return from Social Security, despite the fact that Social 
Security's formulae are designed expressly to redistribute 
income toward workers with low income. Single-earner low-income 
couples born before 1935, who have paid much lower lifetime 
payroll taxes, are better than do much younger workers. 
However, even the best-case rate of return (5.37 percent for a 
single-earner couple with children in which the worker was born 
in 1932) lies below 7 percent, a conservative estimate of what 
economists estimate to be the long-range real rate of 
[GRAPHIC] [TIFF OMITTED] T2247.040

return on equities.\14\ Every other low-income group lies below 
this rate of return, or well below the rates of return 
available to Americans who have opportunities to invest in 
stocks and bonds for the long term. Double-earner low-income 
families, as well as single low-income males and females, fare 
badly under Social Security. Low-income single males are hit 
particularly hard because of the lower male life expectancy and 
absence of spousal and survivor's benefits. The expected real 
rate of return from Social Security for low-income males falls 
from a high of 3.6 percent for those born in 1932 to 1.0 
percent for those born in 1976-well below what could be 
realized from a prudent private investment portfolio.
---------------------------------------------------------------------------
    \14\ Report of the 1994-1996 Advisory Council on Social Security, 
Vol. I: Findings and Recommendations, p. 35.
---------------------------------------------------------------------------
    Chart 2 shows rates of return for average-income 
families.\15\ All of the groups fare badly under Social 
Security relative to the return that they could receive from a 
conservative private investment portfolio. A married couple 
with two children and a single earner fare best, receiving 4.74 
percent if the earner was born in 1932. This expected rate of 
return falls gradually to less than 2.6 percent for those born 
in 1976. As in the low-income scenario, single males fare worst 
of all. An average-earning single male born after 1966 can 
expect to receive an annualized real rate of return of less 
than 0.5 percent (less than one-half of 1 percent) on lifetime 
payroll taxes.
---------------------------------------------------------------------------
    \15\ An average-income family is defined by the Social Security 
Administration as one in which the earners receive the average wage 
earned by all of those covered by Social Security. In 1996, earners in 
such families are estimated to have received $25,723.
[GRAPHIC] [TIFF OMITTED] T2247.041

    Table 1 shows selected Social Security rates of return for 
the general population, for African-Americans, and for 
Hispanic-Americans.
[GRAPHIC] [TIFF OMITTED] T2247.042

          What Do These Rates of Return Mean in Dollar Terms?

    Due to the power of compound interest, even what appears to 
be a relatively small difference in the real rate of return can 
have significant implications for a family's lifetime 
accumulated wealth. In order to analyze the dollar implications 
of Social Security's lower rate of return, the authors 
calculated the inflation-adjusted differences between Social 
Security's benefits and what a fairly conservative investor 
could accumulate by retirement from a portfolio split equally 
between long-term U.S. Treasury bills and broad market equity 
funds.
    A low-income single-earner couple with children whose wage 
earner is 41 years old in 1997 can expect to receive about 
$202,000 in Social Security benefits in return for a lifetime 
of payroll taxes. Those 31 and 21 years old in 1997 can expect 
to receive around $215,400 and $240,200, respectively, in 
benefits. However, by investing these same tax dollars in a 
portfolio made up of 50 percent U.S. Treasury bills and 50 
percent blue-chip equities, these three wage earners could 
accumulate by retirement an estimated $230,200, $241,000, and 
$249,000 in 1997 dollars, respectively.\16\
---------------------------------------------------------------------------
    \16\ These amounts reflect the buildup of retirement savings in 
tax-deferred IRA-type investment portfolios and are prior to the 
payment of any applicable income taxes.
---------------------------------------------------------------------------
    Hence, staying in the Social Security program means that 
low-income married couples will bear a cost of about $28,200, 
$25,600, and $8,800 for wage earners who were born in 1956, 
1966, and 1976, even though this group has the highest rate of 
return from Social Security. Indeed, these amounts are likely 
to underestimate the gain from a private retirement plan, since 
they do not include any of the interest a couple can expect to 
earn on the accumulated sum in the period after retirement.
    Social Security poses even greater costs for groups with 
lower rates of return than low-income single-earner couples. A 
single male earning what the Social Security Trustees call ``an 
average income'' (or $25,723 in 1996) is particularly hard-hit 
by Social Security's low returns. A 21-year-old single male 
making an average income throughout his lifetime can expect to 
lose $309,400 in potential retirement income by staying in 
Social Security when compared with what he would earn if he 
invested his payroll taxes in a safe, conservative private 
retirement fund made up of 50 percent equities and 50 percent 
government bonds. A 31-year-old single male who earns what the 
Social Security Trustees call an average income will lose 
$311,000 over the income a conservative private portfolio would 
likely yield, while a similar 41-year-old will forego $296,000 
(in 1997 dollars).
[GRAPHIC] [TIFF OMITTED] T2247.043

[GRAPHIC] [TIFF OMITTED] T2247.044

                 Social Security and African-Americans

    Due to generally lower life expectancies, African-Americans 
experience particularly poor rates of return from Social 
Security. This means, among other things, that Social Security 
taxes impede the intergenerational accumulation of capital 
among African-Americans, a group which has found it difficult 
to acquire capital. In fact, even under the most optimistic 
assumptions, Social Security taxes actually shrink the lifetime 
net earnings of some of the least advantaged members of the 
community.
    Despite efforts to transfer resources toward low-income 
individuals through Social Security, low-income African-
American males realize particularly dismal rates of return from 
Social Security, even under the most favorable assumptions. 
Chart 5 shows the real rate of return from Social Security for 
African-American males who earn what the Social Security 
Trustees call ``low-income'' annual earnings throughout their 
life-about $12,862 in 1996. Chart 5 also illustrates how the 
best intentions of Social Security's defenders to help low-
income minorities are frustrated by the program's dismal rates 
of return.\17\
---------------------------------------------------------------------------
    \17\ Indeed, life expectancy for this African-American male is 
likely to be lower than the one used. Life expectancy is closely 
related to earnings, and while the average African-American male worker 
in the last quarter of 1996 had earnings of 82.8 percent of the 
national average, the above worker has only earnings of 50 percent of 
the average. See footnote 11, supra.
[GRAPHIC] [TIFF OMITTED] T2247.045

    An African-American, low-income single male born in 1932 
and retiring today can expect a rate of return of approximately 
3.23 percent on his lifetime contributions. However, this rate 
of return falls for younger African-American males. Indeed, the 
expected rate of return from Social Security for those born 
after 1959 is negative. This means that a typical, low-income 
African-American male 38 years old or younger can expect to pay 
more into the Social Security system than he will likely 
receive after inflation and federal income taxes. Put another 
way, this person's lifetime purchasing power, or the ability to 
buy the same goods and services in retirement that he buys 
today, actually shrinks as a result of his participation in the 
Social Security program.
    To gauge how much of his purchasing power this future 
retiree may forego by staying in Social Security, the authors 
calculated the amount of money that a 25-year-old, low-income 
African-American male could accumulate by retirement if he 
invested his payroll taxes privately. This inflation-adjusted 
sum was compared with the amount he can expect to receive from 
Social Security, all in 1997 dollars.
    Three scenarios for alternative rates of return are 
presented in Chart 6. They examine the after-federal-income tax 
benefits, assuming the contributions were placed in a tax-
deferred IRA-type account.\18\ The first scenario assumes that 
the worker invests 50 percent of his taxes in U.S. Treasury 
bills and 50 percent in a broad equity index. The second 
scenario assumes that all payroll taxes are invested entirely 
in T-bills. The third scenario assumes the worst case: that the 
worker invests 50 percent in U.S. Treasury bills and loses all 
of the remaining half in bad investments.
---------------------------------------------------------------------------
    \18\ The amounts below assume that the worker pays out the amount 
he has accumulated in an annuity over his lifetime and receives an 
interest rate of 27 percent. The current federal income tax rates (with 
current rate structure, exemptions, tax bands, and deductions adjusted 
by inflation as mandated in current legislation) are applied against 
this annuity income.
---------------------------------------------------------------------------
    As Chart 6 shows, the current Social Security system can be 
expected to shrink this individual's net lifetime income by 
$13,377 in terms of 1997 dollars. He is likely to fare better, 
even if he were to lose half of his invested tax dollars 
completely, by an amount of $13,089, compared with Social 
Security's rate of return. 
[GRAPHIC] [TIFF OMITTED] T2247.046

    Moving beyond the extreme worst-case outcome, the results 
are even more striking. Under conservative assumptions, a 100 
percent T-bill portfolio will result in an increase in a 
lifetime income net of taxes of $79,846, while a 50 percent 
bond/50 percent equity portfolio will likely result in a net 
increase in post-tax lifetime income of $145,764.
    The nature of the current Social Security system also 
imposes a heavy burden on single-parent families. Chart 7 
illustrates some of the total lifetime costs experienced by two 
typical African-American single mothers of different ages but 
each earning an annual salary of $18,650 in 1996. The expected 
total Social Security benefits are presented in the chart, as 
well as the amount that each woman would have accumulated by 
retirement had she been able to invest her Social Security 
taxes under two sets of assumptions: (1) an ``ultra-
conservative'' portfolio in which all of her taxes were 
invested in U.S. Treasury bills, and (2) a portfolio in which 
50 percent was invested in Treasury bills and 50 percent in a 
broad equity fund.
[GRAPHIC] [TIFF OMITTED] T2247.047

    In return for a lifetime of contributions to Old-Age and 
Survivors Insurance, the 50-year-old single mother can expect 
to receive, on average, $155,903 in Social Security benefits 
while a 21-year-old can expect to receive $190,767. In each 
case, private strategies yield much higher returns than Social 
Security. An ultra-conservative investment program in which all 
of their savings are invested in long-term government bonds 
would yield post-tax lifetime amounts of $213,220 and $284,098 
for the 50-year-old and 21-year-old, respectively-a net gain 
over Social Security of $57,317 and $93,330.\19\
---------------------------------------------------------------------------
    \19\ The current federal income tax rates (with current rate 
structure, exemptions, tax bands, and deductions adjusted by inflation 
as mandated in current legislation) are applied against this annuity 
income.
---------------------------------------------------------------------------
    The gains from a prudently mixed portfolio of bonds and 
equities are even greater. Had their taxes been invested in a 
mixed portfolio of 50 percent bonds and 50 percent equities, 
the 50-year-old would receive at least $280,016 in lifetime 
post-tax income and the 21-year-old would receive $382,840 (in 
1997 dollars). This represents, respectively, $124,113 and 
$192,073 more than they could expect to receive from Social 
Security.

           Social Security and Upper-Middle-Income Americans

    Even for affluent groups, with their ability to supplement 
Social Security, the lifetime cost of the current Social 
Security system is by no means trivial in terms of economic 
well-being. Chart 8 shows the effects on the lifetime wealth 
and savings of an upper-middle-income, white married couple in 
New York who have two children and who, in 1996, each earned 
$77,166 (for a combined income of $154,332).
[GRAPHIC] [TIFF OMITTED] T2247.048

    For such couples, the lifetime inflation-adjusted Social 
Security tax burden will increase from $323,500 for those born 
in 1932 to just over $902,050 for those born in 1976. By 
contrast, this couple would likely gain enormously from private 
investment of their tax dollars. For couples born in 1932, 
1950, and 1976, investing their tax dollars in a broad market 
equity fund would generate $900,426, $2,304,370, and 
$3,104,259, respectively, in after-tax lifetime 1997 
dollars.\20\ This can be compared with their respective 
expected total lifetime Social Security benefits of $602,776, 
682,372, and $956,959.\21\
---------------------------------------------------------------------------
    \20\ The current federal income tax rates (with current rate 
structure, exemptions, tax bands, and deductions adjusted by inflation 
as mandated in current legislation) are applied against this annuity 
income.
    \21\ In line with upper-bound estimates of the effects of higher 
income on life expectancy, the remaining life expectancy of this couple 
is increased by 10.2 percent for the male and 8.2 percent for the 
female. See footnote 28, infra.
---------------------------------------------------------------------------
    The economic costs of the current system become even 
clearer when lost capital accumulation and income opportunities 
are assessed. Not only does Social Security reduce the income 
and the ability of these New York couples to save, but their 
reduced savings translate into less capital for expanding 
businesses, fewer jobs for others, and, ultimately, a lower 
standard of living for the entire community.
    Why would economic activity be lower if Social Security 
taxes come back to the community in the form of Social Security 
benefits? Most economists agree that savings and investment 
contribute more to economic growth than personal consumption 
spending. Newer and better machines make workers more 
productive than longer vacations and a new pair of exercise 
shoes. Even new savings invested in government bonds cause 
interest rates to fall and increase private investment. 
However, under the current pay-as-you-go system, Social 
Security taxes are consumed primarily in paying benefits to 
current retirees who spend nearly all of their income on 
personal consumption items. In a privatized system, these funds 
would be transformed into investments, adding to the capital 
stock of the nation and enhancing productivity and economic 
growth.
    If the upper-middle-income couple born in 1950 had been 
allowed to invest their tax dollars in U.S. Treasury bills, 
they would have accumulated $1.22 million in 1997 dollars by 
the date of retirement.\22\ A portfolio composed entirely of 
high-grade stocks would have created $2.58 million in new 
private capital by retirement. For a high-income couple born in 
1972 (25 years old today), the investment of their Social 
Security taxes in private equities would have created $3.65 
million in new capital by the date of retirement. By contrast, 
other than the relatively small surplus that is invested in the 
trust funds, the current pay-as-you-go Social Security system 
creates no new savings or capital.\23\
---------------------------------------------------------------------------
    \22\ These amounts differ from the amount a lifetime income 
investment of their savings will generate because they do not include 
interest on these amounts following retirement or the income taxes paid 
on them when they are drawn down by the retired couple.
    \23\ In 1996, a little under 14.5 percent of all OASDI tax and 
interest receipts was added to the OASDI trust funds. See Social 
Security Trustees Report, Table II, C1.
---------------------------------------------------------------------------

                               Conclusion

    When the Social Security system began, its aim was to help 
ordinary Americans and those in disadvantaged positions to have 
adequate financial security in their retirement years. However, 
as this analysis has shown, the current Social Security system 
may actually decrease the lifetime well-being of many 
socioeconomic groups, even under the most favorable 
assumptions. Among the groups who will lose out under the 
current system are single mothers, low-income single males, 
average-income married couples with children, and even affluent 
professionals. Indeed, many ordinary Americans already 
understand that the Social Security system is a bad deal. 
Recent surveys have shown that many workers expect to pay more, 
in real terms, into the system than they ever expect to receive 
in retirement benefits.\24\
---------------------------------------------------------------------------
    \24\ See Michael Tanner, ``Public Opinion and Social Security 
Privatization,'' Cato Project on Social Security Privatization S.S.P. 
No. 5, August 6, 1996.
---------------------------------------------------------------------------
    This analysis of the Social Security system almost 
certainly underestimates its total economic costs. It makes no 
attempt, for instance, to include the benefits from faster 
economic growth, higher wages, and increased employment 
generated by a retirement program in which individuals are 
allowed to invest their Social Security tax dollars and build 
the wealth necessary to sustain them in their old age.
    Although the debate on Social Security reform at times may 
focus on technical terms (such as the ``replacement ratio'' and 
the trust fund's ``long-range actuarial balance'') which mean 
little or nothing to ordinary American families, there is 
little doubt that the outcome of the debate will be profoundly 
important to them. For example, whether or not the current 
system will continue to exist--perhaps sustained by benefit 
cuts and tax increases--is a matter of great concern to the 21-
year-old African-American single mother described earlier. 
Under a system where she could invest her own tax dollars, this 
woman perhaps could accumulate enough to buy an annuity upon 
retirement that would pay about $28,800 a year after taxes,\25\ 
almost twice what she would receive from Social Security, or an 
annuity equal to her Social Security retirement benefits and 
pass on the remainder, around $200,000, to her children.
---------------------------------------------------------------------------
    \25\ Based on an interest rate of 2.7 percent and a lifetime 
expectancy of 15 years.
---------------------------------------------------------------------------
    But this debate is also a concern to the thirty-something 
married couple who earned a combined income of $52,000 in 1996 
and struggle to put away enough for retirement while paying 
over one-eighth of their income into a Social Security system 
that is likely to yield a real return of less than 1.7 percent 
on their contributions. Moreover, it will influence the life of 
people, perhaps not yet born, who quite possibly could become 
employed by a business that is created by the retirement 
investment of the young high-income New York couple.
    For almost every type of worker and family, retirement 
under Social Security means receiving fewer dollars in old age 
and passing on less wealth to the next generation than they 
could if allowed to place their current Social Security tax 
dollars in private retirement investments.
    --William W. Beach is John M. Olin Senior Fellow in 
Economics at The Heritage Foundation and Director of Heritage's 
Center for Data Analysis.
    --Gareth G. Davis is a Research Assistant at The Heritage 
Foundation.

                                Appendix

                   Basic Assumptions and Methodology

    The authors used The Heritage Foundation's Social Security Rate of 
Return Microsimulation Model to compare the benefits different types of 
families can expect to receive from the Old-Age and Survivors Insurance 
(OASI) with the Social Security taxes they pay during their working 
lives.
    The Heritage model treats taxes paid over a worker's lifetime as a 
series of investments. Social Security's rate of return is the rate of 
return on payroll taxes that would buy an annuity equal in value to the 
Social Security benefits payments. This yield is the difference between 
Old-Age and Survivors benefits payments (after subtracting any 
applicable income taxes) and the amounts paid to the Old-Age and 
Survivors Insurance trust fund through payroll taxes. Throughout the 
model and this paper, all amounts are adjusted for inflation and 
expressed in terms of 1997 purchasing power.
    The Heritage Foundation model includes both portions of Old-Age and 
Survivors Insurance taxes: the share paid by employers and the share 
paid directly by the employee. However, in calculating the return, an 
amount is removed from taxes paid that is equal to the premium on a 
term life insurance policy which has the same value as benefits that 
are paid to children of workers (and the spouse caring for their 
children) who die before retirement. This means the calculations do not 
unfairly include the cost of the spousal benefit when figuring the rate 
of return in terms of retirement income. Heritage analysts also assume 
that, from 2015, tax rates will increase by the amount that the Board 
of Trustees of the Social Security Administration consider to be 
necessary to finance the Old-Age and Survivors Insurance benefits 
contained in current law.
    The earnings to which OASI tax rates are applied are based on a 
proportion of the Social Security Administration's Average Wage Index. 
Average-income workers are assumed to earn 100 percent of this wage, 
and low-income workers are assumed to earn 50 percent of this wage. 
Past values of this wage are taken from historical data contained in 
the Board of Trustees' 1997 Annual Report, and future wage growth is 
based on the Trustees' best guess of what the rate of increase in the 
average wage will be. All workers are assumed to begin work on their 
21st birthday and to continue to work right up to the age on which they 
become entitled to Social Security's full Old-Age and Survivors 
benefit. For those retiring in 1997, this is age 65; but under current 
law, this retirement age is scheduled to increase gradually until 
reaching 67 for those born in 1960 and later.
    The model calculates post-retirement Old-Age and Survivors benefits 
to individuals according to formulae stipulated in current law and the 
``best guess'' economic assumptions contained in the 1997 Annual Report 
of the Board of Trustees, up to the date on which their life expectancy 
expires. Neither Disability Insurance taxes nor benefits are included 
in the model.
    The model uses life expectancies drawn from the National Center for 
Health Statistics' 1992 Life Tables for the United States.\26\ Heritage 
analysts adjusted these life tables for future changes in life 
expectancy, using the mid-range projections of the 1997 Trustees 
Report. For African-Americans, a ``convergence factor'' is included 
that assumes, in line with U.S. Census Bureau projections, that 
African-American life expectancy converges with that of the general 
U.S. population by 2070.\27\ Income itself plays a role in influencing 
life expectancy: For example, access to health care and nutrition 
improves as income rises. Heritage analysts incorporated this influence 
by increasing the life expectancy of both spouses in line with 
scientific evidence for workers who earned more than the average wage. 
However, they did not decrease life expectancy for workers who earned 
less than the average wage. The possible effect of decreased life 
expectancy due to poverty on the rates of return experienced by low-
income individuals can be seen in Chart 9.
---------------------------------------------------------------------------
    \26\ National Center for Health Statistics, Vital Statistics of the 
United States, 1992 Life Tables, Vol. II, Section 6, 1997.
    \27\ This estimate has been criticized as too optimistic. Analysts 
have pointed out that life expectancy data since the late 1980s have 
shown little evidence of racial convergence. Indeed, some claim that 
the gap is widening. See Paul E. Zopf, Jr., Mortality Patterns and 
Trends in the United States (Westport, Conn.: Greenwood Press, 1992).
[GRAPHIC] [TIFF OMITTED] T2247.049

    Statistical studies \28\ have estimated that for males who earn 50 
percent of the average income, their remaining life expectancy is 
lowered by a factor of between 5.6 percent and 12.8 percent. Even if 
the most conservative assumption (5.6 percent) is used to adjust the 
life expectancy of a low-income single male, the result would be a 
substantial reduction in his rate of return from Social Security.\29\
---------------------------------------------------------------------------
    \28\ For an analysis of the effects of income on life expectancy, 
see E. Rogot, P. Sorlie, and N. Johnson, ``Life Expectancy by 
Employment Status, Income, and Education in the National Longitudinal 
Mortality Study,'' Public Health Reports 107CH, July-August 1992, pp. 
457-461, and J. Duggan, R. Gillingham, and J. Greenless, ``The Returns 
Paid to Early Social Security Cohorts,'' U.S. Treasury Department, 
Office of the Assistant Secretary for Economic Policy, 1993.
    \29\ As well as an undermining of the ``progressivity'' of the 
current system.
---------------------------------------------------------------------------
    Throughout this study, comparisons are made between what families 
could accumulate during their working lives if they were able to invest 
their Social Security Old-Age and Survivors taxes (less the life 
insurance premium equal to the value of pre-retirement Survivors 
Insurance benefits) and what they can expect to receive, on average, in 
Old-Age and Survivors benefits. Different assumptions are entertained 
regarding the composition of the worker's portfolio of private 
investments. For years prior to 1997, the historical inflation-adjusted 
rates of return on long-term U.S. Treasury bills \30\ and U.S. equities 
\31\ are used to determine, respectively, the rate of return on bonds 
and the rate of return on equities. For the period 1997 onwards, 
Heritage analysts used forecasts of the real rates of return on 30-year 
long-term U.S. Treasury bonds to estimate returns on bond investments. 
These forecasts were made by WEFA, Inc., an economics consulting firm, 
and published in its Long-Term Macroeconomic Forecast for October 
1997.\32\ The eventual long-run average of these forecasts is a 2.8 
percent real rate of return. The annualized real rate of return on 
equities is assumed to be 5.7 percent, which lies at the lower boundary 
of professional estimates of the long-run returns to equities.\33\
---------------------------------------------------------------------------
    \30\ Based on the real rate of return for long-term U.S. Treasury 
bills. The Federal Reserve Board's 10-to 15-year Treasury Bond Index is 
used from 1950 to 1975; the 20-year Treasury Bond is used in 1976. From 
1977 on, the 30-year bond is used.
    \31\ Based on the real rate of return for the Standard and Poors' 
500 Equity Index.
    \32\ WEFA, Inc., formerly known as Wharton Econometric Forecasting 
Associates, is an internationally recognized economics consulting firm. 
Fortune 500 companies and prominent government agencies use WEFA's 
forecasts and consulting products.
    \33\ The 1994-1996 Social Security Advisory Committee, for example, 
found that a long-run real rate of return on equities of 7 percent 
existed. Report of the 1994-1996 Advisory Council on Social Security, 
Vol. I: Findings and Recommendations, p. 35.
---------------------------------------------------------------------------

The Heritage Foundation Social Security Rate of Return Microsimulation 
                                 Model

    The Heritage Foundation Social Security Rate of Return 
Microsimulation Model computes the expected annualized rate of 
return from Social Security on the basis of the taxes that 
individuals or couples are projected to pay and the benefits 
they can expect to receive during their lifetime. The focus of 
the model is not to provide estimates of the ``average'' rates 
of return to existing populations, but rather to use data to 
construct representative individual and family types and to 
estimate the rates of return that those representative types 
can expect to receive.

Internal Rate of Return

    The internal rate of return is defined as the rate which 
will set the expected discounted value of the stream of Social 
Security Old-Age and Survivors Insurance tax payments (i.e., 
taxes [T<INF>i</INF>]) equal to the expected discounted stream 
of income from the system (i.e., benefits [B<INF>i</INF>]).

Discount Rate:

[GRAPHIC] [TIFF OMITTED] T2247.050


Taxes:

    The taxes paid by an individual are calculated by 
multiplying the individual's taxable earnings and self-
employment income in a given year by the Old-Age and Survivors 
Insurance (OASI) tax rate in that year. Each individual is 
assumed to begin work on his or her 21st birthday and to cease 
working on the date on which he or she is entitled by law to 
collect the full Social Security Old-Age benefit. The OASI tax 
rate is taken from current law until the year 2015, after which 
tax rates are adjusted annually so that income and expenditures 
of the Old-Age and Survivors Insurance program are equal.\34\
---------------------------------------------------------------------------
    \34\ These tax rates are calculated using the intermediate 
assumptions in the 1997 Annual Report of the Board of Trustees of the 
Federal Old-Age and Survivors Insurance and Disability Insurance Trust 
Fund.
---------------------------------------------------------------------------
    The tax revenue in a given year is calculated by means of 
multiplying the earnings for that person by the OASI tax rate
    T<INF>i</INF> = x<INF>i</INF>*W<INF>i</INF>-L<INF>i
    </INF>where x is the OASI tax rate for year i, W<INF>i</INF> 
is the total taxable wage, salary, and self-employment income 
for year i; and L<INF>i</INF> is an amount equivalent to the 
value of a life insurance premium equal to the actuarial value 
of pre-retirement Survivors Insurance coverage.

Earnings

    The individual's annual earnings are assumed to be a fixed 
proportion of Social Security's ``Average Wage Index'' \35\ for 
employed and self-employed workers.
---------------------------------------------------------------------------
    \35\ As defined in the 1997 Annual Report of the Board of Trustees 
of the Federal Old-Age and Survivors Insurance and Disability Insurance 
Trust Fund, p. 208.
---------------------------------------------------------------------------
    ``Average-income'' individuals are assumed to earn 100 
percent of the average wage index during their lifetime; ``low-
income'' individuals are assumed to earn 50 percent of the 
population's average wage; and ``high-income'' individuals are 
assumed to earn 300 percent of the average wage. In 1996, the 
value of these amounts was estimated to be, respectively, 
$12,862, $25,723, and $77,169.\36\
---------------------------------------------------------------------------
    \36\ Ibid., Table II.E.2.
---------------------------------------------------------------------------
    For periods subsequent to 1996, the average wage index is 
assumed to grow at the rate assumed under the ``intermediate'' 
projections made by the Social Security Board of Trustees in 
their 1997 Annual Report.\37\ In the case of the ``Single-
Earner Married Couple'' scenario, it is assumed that one spouse 
pays no OASI taxes during his or her lifetime. In the case of 
the ``Double-Earner Married'' couple scenario, each earner is 
assumed to pay OASI taxes.
---------------------------------------------------------------------------
    \37\ Ibid.

---------------------------------------------------------------------------
Post-Retirement Old-Age and Survivors Benefits

    OASI benefits are calculated on the basis of the ``bend 
point'' formulae--the earnings levels from which benefit 
amounts are calculated--as specified under current law. For 
example, in order to calculate the monthly benefit amount for 
an individual who first becomes eligible for full Social 
Security Old-Age Benefits in 1995, the individual's Average 
Indexed Monthly Earnings (AIME) is calculated according to the 
formulae contained in current law. Individuals receiving 
benefits for the first time in 1997 are paid 90 percent of 
their AIME up to the $437 bend point, 32 percent of any 
earnings between the $437 and $2,635 bend points, and 15 
percent of any amount in excess of $2,635 (up to the maximum 
amount of earnings which are taxable). For years after 1997, 
these bend points are indexed at rates in the ``intermediate'' 
range projections made in the 1997 Trustee's Report.
    Benefits are paid up to the point of the individual's life 
expectancy. These tables are adjusted to fully incorporate the 
effect of changes in life expectancy that are estimated by the 
Trustees of the Social Security Trust Funds to occur over the 
period 1993-2070.

Survivors Insurance

    For married couples, the value of pre-retirement Survivors 
Insurance--paid to children of deceased covered workers and the 
spouse taking care of them--is approximated by subtracting from 
taxes (T<INF>i</INF>) the premium required to buy an equivalent 
term life insurance policy. Covered individuals are assumed to 
carry two 10-year term life insurance policies over 20 years 
between the ages of 35 and 55. For each covered worker turning 
35 in 1997 who has two children and earns an average wage, the 
Survivors Insurance policy is estimated to be equivalent to a 
10-year term life insurance policy worth $295,000. For each 
average-wage covered worker with two children who turns 45 in 
1997, the Survivors Insurance policy is assumed to be 
equivalent to a 10-year term life insurance policy worth 
$194,700. The market insurance annual premiums required to buy 
every $250,000 worth of insurance (in 1997) were estimated, 
respectively, to be $167 and $345 for a male and $150 and $230 
for a female.\38\ The estimates of the life insurance component 
are indexed to changes in the earner's Primary Insurance 
Amount, \39\ which is used to calculate the worker's retirement 
benefit.
---------------------------------------------------------------------------
    \38\ Based on lowest quotes available for contract from 
Budgetlife's World Wide Web page, www.budgetlife.com, on September 24, 
1997.
    \39\ As defined in the Annual Report of the Board of Trustees of 
the Federal Old-Age and Survivors Insurance and Disability Insurance 
Trust Fund, p. 216.
---------------------------------------------------------------------------
    In the case of the single-earner married couple, each 
spouse is assumed to be the same age. After retirement, the 
couple is paid 150 percent of the benefit amount payable to a 
single beneficiary during the lifetime of the husband. During 
the period between the death of the husband and the death of 
the wife, the wife is paid 100 percent of the benefit amount 
payable to a single recipient.\40\
---------------------------------------------------------------------------
    \40\ All life expectancy data used in this paper show that women 
have longer life expectancies than men.

---------------------------------------------------------------------------
Life Expectancy

    Life expectancy by worker's age in 1992 is estimated based 
on data contained in the National Center for Health Statistics' 
1992 Life Tables.\41\ However these estimates reflect only the 
demographic conditions that prevailed in 1992 and do not 
reflect the long-term secular upwards trend in life expectancy 
that improved health care and better nutritional standards will 
cause.
---------------------------------------------------------------------------
    \41\ National Center for Health Statistics, Vital Statistics of the 
United States, 1992 Life Tables, Vol. II, Section 6, 1997.
---------------------------------------------------------------------------
    The Board of Trustees of the Social Security Trust Fund, 
for example, estimates that between 1997 and 2070 life 
expectancy at birth will increase by 5.8 years for males and 
4.6 years for females, and that life expectancy at age 65 will 
increase by 3 years for females and 2.9 years for males.\42\ In 
order to create life expectancy projections that embody these 
projected trends, it is necessary to adjust the 1992 Life 
Tables.
---------------------------------------------------------------------------
    \42\ Ibid.
---------------------------------------------------------------------------
    First, Heritage analysts made a slight adjustment in the 
1992 Life Tables by applying to them an age-weighted index that 
adjusts for the estimated increase in life expectancy over 
1992-1997:
    Q = E + J,
    and J = ((O/65)*S + ((65-O)/65)*X)
    where
    Q = 1997 ``adjusted'' static life expectancy;
    J = age-weighted increase in life expectancy age between 
1992 and 1997;
    E = life expectancy based on 1992 ``static life tables'';
    O = age in 1992 (ranges from 16 to 60); and
    S and X = respectively, the increase in life expectancy at 
birth and age 65 over 1992-1997.
    Second, Heritage analysts recognized that the gains in life 
expectancy in the post-1997 period will not be uniform across 
the age distribution. The Social Security Administration 
estimates that life expectancy at birth will increase much 
faster than life expectancy at age 65. In order to calculate 
the gain in life expectancy for individuals between these two 
points (birth and 65), an age-weighted index is used:
    G = (A/73)*B + ((65-A)/73)*x'
    where
    G = overall gain in life expectancy for a particular age 
group over 1992-2070;
    A = age in 1997 (ranges in model from 21 to 65);
    B = gain in life expectancy at birth between 1997 and 2070; 
and
    x' = gain in life expectancy at age 65 between 1997 and 
2070.
    G can be used to construct a projected life table for the 
single year 2070, where L is life expectancy for each age group 
in 1997 and G is the gain in life expectancy expected to occur 
for that particular age between 1997 and 2070:
    L = Q + G.
    However, this projection must also take into account the 
fact that life expectancy gains will be distributed over time 
as well as across the age distribution. The gains in life 
expectancy projected to occur will be spread across a period 
between now and 2070. The later a cohort is born, the greater 
the proportion of this increased longevity will be from where 
the cohorts can be assumed to benefit. In order to estimate the 
degree to which a given cohort will benefit from this increase 
in life expectancy, the following linear weighting equations 
were used:
    ``Dynamic'' Life Expectancy = Y+ R*(G)
    where
    Y = Q, or life expectancy in 1997;
    R = ((2070-V)/73); and where
    V = year in which the individual's life expectancy expires.
    For African-Americans, Heritage analysts added a 
convergence factor. It is assumed in the model, in accordance 
with U.S. Census Bureau \43\ projections, that African-American 
life expectancy at birth converges with white life expectancy 
at birth between 1989 and 2070. This assumption is incorporated 
by assuming that the gap between African-American and white 
life expectancy closes by a fixed fraction each year between 
1989 and 2080. This convergence factor is assumed to increase 
with the year in which an individual is born. The gap between 
African-American and general population life expectancy at 
birth is assumed to diminish by a factor of 1/154th (or 0.6494 
percent) for each birth year between 1927 and 2080. Hence, for 
each African-American born in 1932, the current gap between 
life expectancy and general life expectancy is assumed to 
diminish by 3.25 percent; and for an African-American born in 
2080, it is assumed to diminish by 100 percent.
---------------------------------------------------------------------------
    \43\ Zopf, Mortality Patterns, op. cit.
---------------------------------------------------------------------------
    The authors are grateful to Bruce Schobel (Fellow of the 
Society of Actuaries and formerly with the Social Security 
Administration) for his valuable suggestions on an early 
version of this study.
      

                                <F-dash>

    Mr. Apfel. But the issue of African-Americans receiving a 
lower rate of return which is one of the conclusions of the 
report is inaccurate, and part of that is the methodology that 
was used in developing the report. Also, disability benefits 
were not taken into account. If we look at African-Americans, 
there is a shorter life expectancy of about 2 years compared to 
whites. There are also somewhat lower earnings. There is also 
higher disability program participation as well as survivors 
benefits.
    African-Americans make up about 12 percent of the 
population and receive about 20 percent of survivors and 
disability benefits. There is a relationship between income and 
disability, and this is the case with African-Americans, so 
when you take into account survivors and disability insurance, 
when you look at the whole floor of protection as well as the 
progressive nature of the benefit structure, it makes up for 
the lower life expectancy, so I would like to include this 
report in the record.
    Mrs. Kennelly. I have another thought, but will follow up 
in the future. Thank you, sir.
    Chairman Bunning. Mr. Weller.
    Mr. Weller. Thank you, Mr. Chairman, and good afternoon, 
Commissioner. Good to have you here.
    Mr. Apfel. Great to be here.
    Mr. Weller. I represent a fairly diverse district. I 
represent part of the City of Chicago and the south suburbs in 
Illinois and also a lot of rural areas, so I always look for 
the things that are consistent when I'm listening and learning 
concerns in town meetings. And the questions I always get 
asked--of course, we all remember that very visual photo of the 
President drawing the zero on that piece of cardboard when he 
unveiled his new budget proposal for this year. And, of course, 
part of that--one the significant things about the zero is it 
means there's no surplus in his budget to set aside for Social 
Security. And at the same time, the President unveiled a whole 
new list of new spending initiatives, and what do they total? 
The new spending initiatives above and beyond what we've funded 
this past year.
    Mr. Apfel. I'll have to get that.
    Mr. Weller. About $70 billion?
    Mr. Apfel. I'll have to get that for the record for you, 
sir.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2247.002
    
      

                                <F-dash>

    Mr. Apfel. As for the Social Security piece--I've got the 
Social Security piece; I don't have the other pieces on the top 
of my head, but there were a significant number of very 
important proposals, all paid for through offsets. One of the 
things that the President did indicate when he put out his 
budget request was that--again, given the traditional PAY-GO 
rules that you operate under here in the Congress--which are 
appropriate--that any new spending activity be offset through 
either reductions in spending or increases in revenues, and the 
President's proposal was consistent with that in terms of 
living within the budget rules by funding new activities 
through other offsets.
    Mr. Weller. Now, some might argue that one way of creating 
a surplus to save Social Security would be to spend less money 
on new spending initiatives, and as the Social Security 
Administrator, would you suggest that Congress look at that as 
an approach? You know, make these new spending initiatives a 
secondary priority to saving Social Security and creating that 
surplus that we can then use long term to save Social Security. 
Which is a bigger priority, the new spending initiatives or 
saving Social Security?
    Mr. Apfel. Well, the President said--and it's something 
that I strongly support--to take all budget surpluses that are 
projected and reserve them pending Social Security reform. We 
anticipate next year to be in a position to, working with this 
Subcommittee, come up with a proposal to ensure the long-term 
security of Social Security.
    He also proposed a series of activities that were paid for 
throughout the budget that seem to me to be a legitimate part 
of government to find ways to pay for new activities by 
reductions or decreases in other parts----
    Mr. Weller. But these pay-fors that create revenues that 
are used to offset new spending, if we would take less of those 
pay-fors to offset new spending and use those pay-fors that, 
perhaps, the President's suggesting to save Social Security, 
which is a higher priority for you? Is it a higher priority to 
save Social Security or spend on new initiatives?
    Mr. Apfel. Well, I think the budget proposal does both, and 
I think that's an appropriate activity. One, it creates the 
framework, working with the Congress, to reserve the surpluses 
to create a major incentive to come around the table and save 
Social Security next year. Two, it also--as every budget always 
does--reallocates moneys within the budget for different 
activities which is the tradition of budgeting for years and 
years, so I think both----
    Mr. Weller. One of the frustrations I hear whether I'm with 
seniors or 20-year-olds just starting in the work force who are 
wondering whether or not their contract with Social Security is 
going to be honored. Is there concern about this time honored 
tradition that President and Congress have had in the past, and 
the President does it in his budget this year where they use 
the surplus in the Social Security Trust Fund to offset new 
spending. How much--in the President's budget, how much of his 
new spending is paid for offsets from the Social Security Trust 
Fund?
    Mr. Apfel. How much of the new spending?
    Mr. Weller. Well, how much of the Social Security Trust 
Fund surplus is used as part of his budget?
    Mr. Apfel. If we look over the course of the last 10 and 15 
years when we were running significant budget deficits in this 
country, we were in a hole in economic terms. As of next year, 
we are now in a position for the first time to finally start 
digging out from underneath that significant debt problem. That 
puts us in a much stronger position to take on the Social 
Security reform issue now in this nation.
    Mr. Weller. If the President's budget did not use the 
surplus in the Social Security Trust Fund to produce on paper a 
balanced budget, how large would the deficit be?
    Mr. Apfel. The Social Security surpluses in the Social 
Security Trust Fund are larger than--like this year, the Social 
Security Trust Fund----
    Mr. Weller. Seven billion dollars? A hundred billion 
dollars?
    Mr. Apfel. The Social Security Trust Fund surplus is 
projected at almost $100 billion; money comes into the system 
in terms of both added payroll revenues as well as interest 
coming into the fund.
    Mr. Weller. So, if you were to remove that $100 billion 
surplus, we would have a $100 billion deficit in the 
President's budget.
    Mr. Apfel. Well, that would be the--that's the 
hypothetical. That's correct, sir. The point is that it's one 
of the reasons why we have argued very strongly about reserving 
those surpluses. We are now, for the first time, in a position 
where we're moving into the surplus world where we can, for the 
first time, start to dig out from the economic problems that 
we've had in the past several years. We believe that this sets 
the stage by reserving those surpluses rather than having them 
go to tax cuts or for added spending that would put us in a 
deeper hole for dealing with the long-term Social Security 
issue. So, we believe it's very important that those surpluses 
be reserved pending the Social Security action that we intend--
--
    Chairman Bunning. The gentleman's time has expired.
    Mr. Weller. Thank you, Mr. Chairman.
    Chairman Bunning. Mr. Neal.
    Mr. Neal. Thank you, Mr. Chairman. Commissioner, I was 
delighted when you, in your opening statement, noted the fact 
once again, that oftentimes is lost around here, that beginning 
in 1935 with the inauguration of Social Security that we 
present this today as the most successful domestic initiative 
that has ever been undertaken and, indeed, on a contractual 
basis from generation to generation it gives us a sense of 
community, and it does tie us together as members of the 
American family, but--and I also speak to this with some 
personal experience which we could, perhaps, save for a later 
day--but I went to college on Social Security. People forget 
that, and I've never lost contact or respect for this 
initiative that has given many of us in this nation a chance, 
sometimes against serious odds.
    And the point that I make is that I've been involved with 
the savings coalition here because I do, indeed, think we can 
do a better job of educating the American people as to how they 
prepare for retirement. I think we lose sight of the fact in 
this debate just what Social Security has accomplished, and I'm 
troubled by that generation just a bit behind me that looks at 
Social Security, and they do, obviously, raise questions about 
whether or not it's going to be there for them. That's 
understandable, but I also think they, for a variety of 
reasons, perhaps, have not zeroed in on what Social Security 
did for millions and millions and millions of Americans and how 
they've enjoyed their retirement years.
    All of us go out campaigning to one religious stop and 
that's the senior center, and when we go into the senior center 
I dare say there aren't many of us who say that we ought to 
curtail Social Security benefits and that we ought to cut back 
on Social Security initiatives, and we don't engage the grand 
debate in that room about the merits of Social Security. We 
subscribe to a basic fact and that is that Social Security has 
been an extraordinary success, and the people in that room 
always know it.
    But my point is as we begin these discussions about Social 
Security--and I wish to be part of them--how would you, if you 
were to suggest things because I'm sure you've had discussions 
about it--how would you talk about establishing a higher 
retirement age? How would you begin that process? What would 
you say if you were drafting the parameters of that discussion? 
How would you point out to the American people that because of 
life expectancy and a host of other things that people do, 
indeed, live longer? How would you frame that discussion?
    Mr. Apfel. Before answering the retirement age question, I 
want to comment on your opening remarks which I think are very, 
very powerful. One of things that we need to educate the 
American public about this year is the importance of Social 
Security in our lives. Back in 1935, the plight of older 
Americans was a national disgrace, and Social Security provided 
an enormous platform for older Americans. It's true for young 
Americans today that there is a serious concern out there. I 
think one of the ways that we address the retirement age issue 
and many of the other issues that we face is by acknowledging 
that we have a long-term demographic issue that we need to 
confront in this country and how it will create great strains 
on our social insurance system.
    And the question for young people is will Social Security 
be there in the future? And the answer is, absolutely, it's 
going to be there in the future, but it's going to have to go 
through some changes. We're going to have to make some changes. 
As you pointed out about going to college, my wife, when she 
was a little girl her father died leaving her mother and three 
sisters with a Social Security check. It is part of the 
foundation of American life. It's part of our fabric. So for 
young Americans, it's not only a question of whether Social 
Security is going to be there 30 and 40 years from now, it's 
also a question of whether it is there now? And it is, but 
given those demographic issues--those long-term demographic 
issues--we've got some tough choices to make to assure that we 
will have a foundation of support for all Americans in the 
future.
    And one of the issues that's got to be discussed as part of 
that is whether--given the fact that life expectancy has 
increased--whether people should be working longer. As the 
Chairman said, I think eloquently, there are tradeoffs to every 
one of the options that we confront, and on the retirement age, 
there's a whole series of them that have to be thought through 
very carefully: Whether there will be jobs for older Americans; 
whether the people who are working in physically demanding jobs 
will be able to continue to work; what the implications for the 
disability system will be. Those are some of the issues that 
we'll have to think through, but is raising the retirement age 
one of the legitimate issues that we've got to think through to 
assure that we can have in the 21st century this foundation of 
support? I think the answer is yes, and this will be one of the 
ones that we'll have to talk through very carefully.
    Mr. Neal. For my family, for my sisters and I, it was $119 
a month, but it was the difference between that and an 
orphanage. We lose sight of that here.
    Mr. Apfel. Very powerful.
    Mr. Neal. I would also like to close on this comment--I 
thank the Chairman for the time--I think William Buckley, that 
sage of liberal thought, summed up the best when he said 
conservatives hate the new deal; they just don't want to give 
it up.
    Mr. Apfel. Thank you, sir.
    Chairman Bunning. Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman. Commissioner, you're 
right, there are a lot of people in--Mr. Neal, you're right--
there are a lot of people who have benefited greatly from the 
Social Security Program, and it's one that will be here for, I 
assume, as long as we have a Republic. There will have to be 
changes made to it. I'm very much concerned of the fact that 
some people would like to extend the age for retirement. It's 
kind of like moving the goal line once the game has begun, so I 
have great concerns over that.
    I have a little bit of a difference of opinion as to how 
the Social Security actually came about. It was during the time 
of the Depression, before my time, but both of my parents lived 
during that time, and we're trying to raise families. But, to 
me, it was a payroll tax sold under the disguise of an old-age 
pension program. Had it been a true old-age pension program, I 
think a lot of those contributions to the fund would have drawn 
some type of return, such as a compounded interest or some type 
of return on the investment, rather than just being put into 
the pool, and the government use those funds at will, and then 
made the benefits when the time came of eligibility. So I 
differ somewhat with why and how Social Security came about.
    That's the reason I think a lot of our young people today 
are very much interested in seeing a change that would allow 
the funds that they contribute to be able to have a return to 
them based on that vested interest of that money that's 
deducted. It would be compound interest on a daily basis 
through interest. So I think there are a lot of changes and a 
lot of things that we're going to be looking at over the next 
few months or a couple of years when it comes to Social 
Security.
    In 1995, the President was at Warm Springs, Georgia, the 
country home or the little White House of Franklin Delano 
Roosevelt, and he and I were standing there in the little White 
House having a farewell discussion, and we had been together 
for a couple of hours that day, and as he was going to fly back 
to Washington, I was going to stay there in my district. And I 
told him, I said, ``Mr. President, I want to leave you with 
thought, and that is, Social Security is my old-age pension.'' 
And I say it again, Social Security is my old-age pension. I 
turned down the congressional pension. My small business 
doesn't have a pension program. I have an IRA, and Social 
Security is my old-age pension.
    But, really, Social Security has been a payroll tax on me 
for a number of years--with only the return based on the 
benefits that Congress will set, not what it drew based on my 
deposits, and a return on those deposits, or how my family 
would benefit from those deposits based on the return on those 
deposits.
    Thank you for your time.
    Chairman Bunning. Mr. Levin.
    Mr. Levin. Welcome. I'm sorry I missed your testimony, but 
I did have a chance to read it, Mr. Apfel. Your career has been 
an outstanding one, and we're glad you're where you are.
    Mr. Collins--I wasn't going to raise this, but just so the 
record's clear. Isn't it correct, Mr. Apfel, that for those who 
have retired up until now who have been drawing benefits, they 
by and large have been receiving back far more than they put 
into the fund?
    Mr. Apfel. Yes, that's true.
    Mr. Collins. Will the gentleman yield on that?
    Mr. Levin. Yes.
    Mr. Collins. But is it not also true that, as time has 
changed and the rate of taxes changed, it will also take longer 
for those who are young today to receive their benefits back?
    Mr. Apfel. That is true also. The early years of the 
social----
    Mr. Collins. We understand where you're coming from, but it 
does not take away from my view that it was a payroll tax and 
not a true pension program from the beginning, and I thank you 
for yielding.
    Mr. Levin. Except it was an insurance program that has paid 
back recipients up to this point on the average considerably 
more than they put in, even if you would add a compounding 
factor. And the problem we face now is what Mr. Apfel has 
pointed out and the President has pointed out: That people are 
living much longer, and we're facing a problem ahead from the 
baby boomers, and those who are younger ask the question: Are 
they going to not receive a pension, and Social Security? Under 
any circumstances a considerable portion of their benefit would 
be there, but whether all of the benefit could be there, plus 
essentially a growth factor, as has been true for most of those 
who have received Social Security up until now, is the issue 
confronting us. They've had a growth factor, haven't they?
    Mr. Apfel. Yes.
    Mr. Levin. And that's the dilemma that we face and that we 
need to solve, it seems to me, together. And I think, isn't it 
true, Mr. Apfel, that's one reason the President has suggested 
that we not expend any surplus coming from Social Security 
until we solve the long-range problem? Isn't that exactly 
what's motivating the President?
    Mr. Apfel. That is absolutely what's motivating the 
President. This is the most important government program in the 
nation's history. There is no crisis today, but we do face a 
long-term issue that we need to confront, and that this 
Subcommittee has been in the leadership position. This is your 
eighth hearing, my first before you, but there will be many 
opportunities, I'm sure, in the future. We've got to take 
actions in the future to assure the long-term security of the 
Social Security system.
    The goal of the President, by reserving the surpluses, 
calling for the year of discussion, and then bipartisan 
negotiations next January, is aimed at resolving this issue 
next year, to increase public confidence that Social Security 
will be there for future generations by those actions.
    Chairman Bunning. Sandy, would you yield just a minute?
    Mr. Levin. Yes.
    Chairman Bunning. So there's no misunderstanding what you 
asked and what you said, you didn't say the surpluses in Social 
Security, as I heard you say; you didn't mean that?
    Mr. Levin. No.
    Chairman Bunning. You meant the surpluses, if there is any, 
in the overall budget.
    Mr. Levin. I think what I said was, the surplus that has 
come from Social Security. Part of the reason the deficit 
surplus issue would be different, if one did not take into 
account the present surplus in Social Security, more coming in 
than paid out----
    Chairman Bunning. That's correct.
    Mr. Levin [continuing]. What the President has been saying, 
as I understand it, is the budget, the overall budget, is 
affected by the present surplus coming from Social Security. 
It's projected we would not have one if it weren't for that 
surplus, we wouldn't have an overall surplus in the unified 
budget. We should not take any of that proposed surplus and 
spend it on other programs until we have a long-term solution 
to Social Security. Isn't that what the President is saying?
    Mr. Apfel. Yes, sir. The----
    Chairman Bunning. No, I can't believe that because--and I 
don't want to get into a three-way discussion with you--for the 
simple reason it's all recycled into new debt, every penny that 
comes in in the Social Security Trust Fund is recycled by 
selling out bonds into new debt in the Uniform Budget.
    I think the President's statement was the exact opposite. 
He said, when we get to a surplus in the overall budget--we're 
in a surplus; we've been in one in the Social Security Trust 
Fund for years. It's about $700 billion.
    Mr. Levin. And that's exactly what I said, Mr. Chairman. 
That's exactly what I said--that the surplus in the Unified 
Budget exists, when it comes, it will exist, reflecting the 
surplus in Social Security, and therefore, before we spend any 
of the surplus in the Unified Budget on any other programs, we 
ought to solve the long-term problem for Social Security. Isn't 
that----
    Mr. Apfel. And there may be uses for that surplus at that 
point in time for Social Security, but that's really what part 
of the debate is about over the course of this next year.
    Chairman Bunning. Sandy, I'll give you as much time as you 
want, but the fact of the matter is that when we bring money 
into the trust funds now, the law requires us to buy 
nonnegotiable bonds, which in turn are used for spending under 
the budget right now.
    Mr. Levin. I'm not saying----
    Chairman Bunning. No, no, no, but----
    Mr. Levin [continuing]. Anything different.
    Chairman Bunning [continuing]. The surplus that the 
President talked about was the surplus in the overall budget--
--
    Mr. Apfel. The Unified Budget.
    Mr. Levin. Right.
    Chairman Bunning. And so he didn't propose any changes. I 
asked you earlier--any changes in the law as far as the FICA 
tax. We're going to still spend that money.
    Mr. Apfel. We do not think that there is, as I said, a need 
for a law change right now----
    Chairman Bunning. Yes, until we get to a surplus.
    Mr. Apfel. Well, because we're not going to see that 
surplus right now projected until the end of next fiscal year--
--
    Chairman Bunning. Well, that's debatable----
    Mr. Apfel [continuing]. And by that time----
    Chairman Bunning [continuing]. Also, but I'm not going to 
get into that debate with you, either, because, according to 
which scorekeeper you get, Congressional Budget Office or 
Office of Management and Budget, you get different numbers. So 
we shouldn't debate that because we'll find out.
    Mr. Levin. But whatever the number is, I think the fact 
remains that the Unified Budget, to the extent there's a 
surplus, reflects the surplus coming in through Social 
Security, and the President is saying, solve the long-term 
problem before we use that surplus for any other purpose.
    Chairman Bunning. Mr. Portman.
    Mr. Portman. Mr. Commissioner, thank you for being here 
today, and I'd like to nominate Sandy Levin for President 
because I think he has explained this problem in a way that the 
American people need to hear it, and that's not what I heard 
the President say, incidentally, at the State of the Union, nor 
in his follow-up press conferences and other communications, 
either from Director Raines or from Deputy Secretary Summers 
yesterday. I think Sandy Levin has it just right, which is, in 
fact, there is not only a pay-as-you-go system, and we need to 
explain that to the American people, but there's also a trust 
fund which is being borrowed against every day, and without 
that trust fund surplus, we would have no balanced budget this 
year, should we have one.
    So I think your formulation is exactly right, but that's 
not what I've heard our President say to the American people, 
nor, when you talk, as we did yesterday, and Jim Bunning asked 
the question to the administration--in this case it was the 
Deputy Secretary of the Treasury--you know, they still haven't, 
frankly, figured out what he means in terms of the mechanics of 
it. Save Social Security first is very popular, and I think all 
of us would agree with it, but the question is: Do you do it 
through the Unified Budget or do you do it somehow with the 
trust fund? I'm sort of intrigued by what I infer from what 
you're saying, Mr. Levin, which is that maybe we should focus 
more on that trust fund and look at it in the way it, in fact, 
does operate, which is to say that, without it, we would have 
no budget surplus this year. In fact, we're in a deficit 
position, if it was properly accounted for, and maybe we ought 
to look at the surplus, whether it's the $70 billion or whether 
it's the $90 billion that we'll accumulate this year alone, and 
start working through that as our vehicle to save Social 
Security.
    Mr. Levin. Would the gentleman yield?
    Mr. Portman. So I'd be happy to yield. I do have a couple 
of questions for the Commissioners, but sure.
    Mr. Levin. I think that's what the President is saying, 
that while there is a present surplus when you look out over a 
number of years, a surplus in Social Security, that gets eaten 
up. So you don't want to use that surplus until you make the 
long-term decisions on financing Social Security.
    Mr. Portman. Again, reclaiming my time, maybe I haven't 
been as attentive as others in this room have been, but I 
certainly have not heard our President talk in those terms, and 
I wish he would, because honestly I think that the top priority 
right now is to educate the American people as to what the 
reality is with Social Security. And part of it, as I said 
earlier, is that it's a pay-as-you-go system, and with the 
demographic shift, you're going to have a problem, and the 
train wreck can be avoided if we begin to take steps now. I 
wish he had said that in the State of the Union.
    The second part is the trust fund that you've just 
explained, which I think is the reality, again, that at least 
my constituents aren't aware of, and I think the President 
could play an important role there.
    Let me ask you a specific question on that, I, 
unfortunately, was not able to be here for your testimony also, 
and I apologize. Unlike Mr. Levin, I didn't read it in advance, 
but I did skim it when I got here, and it's very good. And you 
talk about these conferences the President's holding around the 
country with AARP, the Concord Coalition. We're doing one in my 
district that I'm involved with--I think probably every 
congressional district. And we have the White House Conference, 
as you talk about, and you mentioned some other potential 
forums where the President would be talking about this issue, 
including a White House Conference with the Congress sometime 
in early 1999.
    Is the Social Security Administration involved in these 
conferences around the country? Are you directly involved in 
giving input to the White House as we go through this process?
    Mr. Apfel. Yes. In terms of the conferences, directly 
involved with both the AARP and Concord Coalition, because 
those forums are going to be theirs. I've also been in contact 
with Pew Charitable Trusts. As you know, the Pew Charitable 
Trusts is going to be doing several forums around the country. 
I'll be attending several of those as well.
    The Social Security Administration will be part of this 
debate. I have been actively involved through the last 4 or 5 
months, since my confirmation. I've been around the country 
many times already. I intend to be involved over the course of 
this year. The Social Security Administration as a whole will 
also be involved actively with our public affairs offices in 
the public discussions. We want to be able to talk to the 
American people about the importance of Social Security, the 
fact that there are the long-term issues that we need to 
confront, and that we need to move forward on them. It's one of 
the roles and responsibilities that I view as central to the 
Social Security Administration.
    Mr. Portman. So you will have a specific role in these 
regional conferences as a participant?
    Mr. Apfel. I don't know about each and every one, but I 
know many of them. I'll be traveling outside more than I would 
like, in terms of going around the country and being away from 
my family, for them, but I think it's very important that I be 
centrally involved.
    Mr. Portman. I think it's essential that Social Security is 
directly involved.
    Let me ask one other specific question, because I see my 
time is running out, and that is with regard to the earnings 
limit. As I looked through your testimony--and perhaps I missed 
some earlier dialog on this--I didn't see it touch on the 
question of the earnings limit. In my view, it's directly 
related to all questions about Social Security, because I think 
the earnings limit has a perverse effect on our economy and on 
our seniors.
    But, specifically, to the age issue, because, as I 
understand the way the earnings limit works, once you're over 
the age of 70, it would no longer apply. If we're talking about 
raising the age on Social Security, and as you point out in 
your testimony, of course, it's already being raised 
incrementally in a steady, but slow fashion, what is your 
recommendation with regard to the earnings limit? I suppose if 
you raise the age to 70, there would be no earnings limit, to 
take it out logically to the logical extension, but should the 
earnings limit be changed as you change the age limit, either 
as under current law or in a more aggressive fashion?
    Mr. Apfel. If I could back up first and indicate, again, on 
the President's proposal, I believe he has been very clear that 
we would preserve those surpluses pending Social Security 
reform----
    Mr. Portman. Which surpluses?
    Mr. Apfel. The Unified Budget surpluses pending----
    Mr. Portman. OK, that's what I've heard, too.
    Mr. Apfel [continuing]. Pending Social Security reform; 
that the decision as to the particular use of those surpluses 
within the Social Security system is one that needs to be 
debated this year. Some have proposed investing some of those 
surpluses in equities. Some have proposed providing them to the 
Social Security Trust Fund. Some have proposed individual 
accounts. These are all things that need to be debated this 
year. So I think the policy is very clear, and we do hope on a 
bipartisan basis to work together to develop what I think is a 
very important thing for the American public, which is next 
year a proposal to assure long-term security for Social 
Security.
    On the earnings limit issue, I think it is an important 
one. The administration worked with the Congress to raise the 
earnings limit to $30,000 by the year 2002.
    One of the issues that would have to be addressed in terms 
of raising it further or eliminating it altogether is the 
short-term cost. The cost of that would be about $4 or $5 
billion a year. There are not long-term costs for eliminating 
the earnings limit cap, because of the way that the delayed 
retirement credit works, but there are short-term costs that 
would have to be taken into account. So is it something that 
should be considered as part of the overall reform efforts? I 
would say that it absolutely should be considered. The 
administration does not have a position one way or the other on 
it, again, because we want to see the entire package, working 
with the Congress, to see how each of the individual pieces 
would fit in together.
    Mr. Portman. My time's up, but the point I was making was 
the interaction between the age issue, so you might want to----
    Chairman Bunning. Thank you, Mr. Portman. Your time has 
expired.
    Mr. Portman. Thank you, Mr. Chairman.
    Chairman Bunning. Thank you, Commissioner. I have no more 
questions for you. I don't know if anybody else does.
    Mr. Neal. Do you want to go through again what the 
President said once more? [Laughter.]
    Chairman Bunning. I think he said it very clearly, what he 
said in his last statement.
    Thank you very much.
    Mr. Apfel. It's an honor to be here, sir.
    Chairman Bunning. Commissioner, we may be submitting 
additional questions in writing for you to answer for the 
record. We appreciate your testifying.
    [Questions were submitted by Chairman Bunning to Mr. Apfel. 
The questions and responses follow:]

    1. You mention in your testimony that the Greenspan Commission (who 
made their recommendations 15 years ago) suggested that changes should 
be made in the disability benefits program to take account of those 
older workers who are unable to extend their worklives for health 
reasons. What research have you completed on this issue. Are you 
prepared to submit a legislative remedy?
    Much of the SSA research that addresses the general issue of 
raising the retirement age (see question 4) seeks to estimate the size 
of the group whose health problems make further work difficult or to 
better understand the relationship between ill health and retirement.
    While SSA has not conducted separate studies of how particular 
changes in the disability insurance program might interact with 
retirement age increases, SSA has undertaken the collection and 
development of information to support analyses of disability program 
modifications. For example, SSA has created a microsimulation model of 
the Social Security (OASDI) program, with an initial focus on the 
disability program. (The model is based on a linkage of Social Security 
records to the Survey of Income and Program Participation.) Estimates 
from the project show that a substantial minority (17-30 percent 
depending on the indicator) of OASI beneficiaries aged 62-64 report 
significant health problems. When completed, the model will give SSA 
the capability to analyze distributional and behavioral effects of the 
current program and proposed alternatives.
    SSA is also designing the Disability Evaluation Study (DES), which 
combines survey reports, clinical examinations, and medical evidence of 
record so that we can make accurate determinations of disability rates 
throughout the general population. The DES is carefully designed to 
include workers up to age 69 so that we can assess alternative 
retirement ages and alternative disability standards for specific age 
groups. Also underway is a literature review and analysis of vocational 
factors of age, education, and work experience; results of that project 
will help frame the problem of older workers unable to extend their 
working lives. SSA also supported the special disability data 
collection of the Health Interview Survey and supports the Health and 
Retirement Survey. Both of these databases allow study of disabilities 
and health problems of older workers.
    Changes to the disability program to take account of increases in 
the retirement age need to be consolidated in the context of Social 
Security reform. As with any possible element of a solvency solution, 
such changes must be developed in a bipartisan manner and reflect, 
insofar as is possible, a consensus of the American people. To this 
end, this year has been dedicated to a national dialogue on Social 
Security solvency. The Agency has participated in over 5,000 events and 
media opportunities, including town hall meetings and other public 
events. The ideas that flow from this process should equip the 
Administration and the Congress with a firm foundation on which to 
build together a bipartisan legislative agreement. Without the benefit 
of this debate on these critical issues, it would be premature to 
submit legislative remedies.
    2. Your testimony mentioned nothing about the senior earnings 
limit, the amount of wages seniors can earn before their benefits are 
offset. Have you thought about the effects of increasing the retirement 
age on the earnings limit? Do we continue to need to penalize seniors 
for trying to be productive?
    As you know, present law provides two different earnings tests, one 
for beneficiaries who have reached normal retirement age and another 
for those who have not.
    The Administration supported the 1996 legislation which roughly 
tripled the earnings test to $30,000, by 2002, the amount that 
beneficiaries who have reached normal retirement age can earn before 
their benefits are reduced. In doing so, the Administration noted that 
``Raising the earnings test will increase the standard of living of the 
elderly and help the Nation's economy by increasing the supply of 
workers to the labor force.'' One of the issues that needs to be 
considered as part of the solvency debate is whether further changes 
are warranted.
    As normal retirement age increases, the number of beneficiaries 
subject to the earnings test that applies before normal retirement age 
will increase. However, there are issues that need to be considered 
with regard to liberalizing the earnings test for beneficiaries who 
have not yet reached normal retirement age. Doing so could encourage 
workers to file at age 62, even though they are still working (i.e., 
when they may not be as dependent on Social Security benefits) and 
receive permanently reduced benefits. These permanently reduced 
benefits may be inadequate to support them in later years when they are 
unable to work.
    Today, workers retiring at age 62 have their benefits reduced by 20 
percent. The amount of this reduction will increase as normal 
retirement age increases, reaching 30 percent when normal retirement 
age reaches age 67.
    3. You say you want Americans to understand the facts about Social 
Security, that the trust funds will start declining in 2021 and will be 
depleted by 2029. What about the fact that outgo exceeds revenues in 
2013? Shouldn't Americans understand that as of 2013 the government is 
going to have to begin paying back the money it owes the trust funds 
and what that will mean to the federal budget?
    I agree that the 2013 date is also very important. In 2013, OASDI 
expenditures will begin to exceed annual tax revenues. At that time, 
some of the interest income on the trust funds will be needed to pay 
benefits. It is correct that using trust fund interest income to pay 
benefits, rather than to purchase Treasury securities, will have a 
negative impact on the federal budget.
    However, in the President's Budget, which was submitted in 
February, the Office of Management and Budget projects that the 
operating budget--that is, the budget not including Social Security--
will be in surplus by 2007, six years ahead of the 2013 date. As a 
result, by the time the trust funds need to use interest income for 
benefit payments, the rest of the budget will no longer be reliant on 
those trust funds. This is why it is so important to continue to pursue 
a course of fiscal discipline. By doing so, we will be better able to 
respond to the challenges associated with the retirement of the Baby 
Boomer generation.
    4. What research has the Social Security Administration completed 
on the issue of raising the retirement age?
    The work and retirement decisions of older workers have been 
extensively studied. A considerable amount of this research (listed 
below) was conducted at the Social Security Administration, or was 
funded by the Agency. Retirement research has carefully documented 
long-term trends in the American work force, identified many of the 
likely determinants of those trends, and estimated the size of the 
effects of specific causal factors. The retirement literature was 
reviewed and summarized in a 1996 Social Security Bulletin article 
(Vol. 59, No. 4, Pp. 2950).
    The labor force participation rates of men aged 55 or older 
steadily declined from the early 1940s until the mid-1980s. During the 
past decade participation rates have risen slightly (i.e., 1-3 
percentage points) for some age groups, particularly among men 65 and 
older. The rate of decline in propensity to work at older ages was 
particularly pronounced during the 1970s and early 1980s. The main 
impetus appears to have been the increased ability of older men to 
afford to retire at earlier ages. Growth in lifetime real incomes has 
enabled men to finance increased consumption of goods and services and 
earlier retirements. Much research has shown that the availability of 
Social Security benefits and private pensions have been important 
influences in the trend for men to retire at younger ages.
    Many of the retirement studies have focused on the specific 
retirement incentives associated with Social Security and private 
pensions. To the extent that Social Security has caused individuals to 
accumulate more assets to finance retirement than they would have saved 
in the absence of the program, then Social Security has been at least 
partly responsible for the trend to earlier retirement. The best 
evidence suggests that Social Security benefit levels have been 
responsible for no more than a quarter of the decline in older men's 
labor force participation rates.
    Nearly all retirement research has studied the behavior of men. 
Much less is known about women's retirement decisions. The labor market 
activity of older married women appears to respond positively to 
earnings opportunities, but is less responsive to the availability of 
unearned income and wealth than is the case for older men. Their 
retirement decisions appear to be very much influenced by the 
retirement status of their husbands. The labor supply of unmarried 
older women is responsive to financial incentives such as wage offers, 
unearned income, and wealth, including increases in Social Security 
wealth through additional earnings. Because of the large changes over 
time in the extent of women's lifetime labor force attachment, these 
findings should be confirmed with data on more recent retirees.
    Research has examined specific administrative features of the 
retirement program to discern which Social Security elements might be 
responsible for particular features of observed retirement patterns 
(e.g., the popularity of retirement at ages 62 and 65). Benefit 
amounts, the retirement test, the delayed retirement credit, and the 
early and normal retirement ages have all been scrutinized. The general 
conclusion has been that the overall effect of Social Security on the 
average age of retirement is small relative to other factors that 
influence older workers' labor supply such as pensions, income levels, 
earnings opportunities, and health. In particular, the influence of 
Social Security's Normal Retirement Age (NRA) has been estimated to be 
modest. The evidence from several of the best studies suggests that 
increasing the NRA by 2 years would, other things equal, probably 
result in a 2-5 month increase in the average age of retirement.
    Until the 1970s, researchers generally believed that health 
problems caused most retirements. Since then, the view has evolved that 
most retirements are voluntary and that individuals respond primarily 
to economic incentives, although health plays a role in inducing some 
retirements, particularly early ones. Poor health can cause retirement 
via three links: 1) it can make work more arduous and increase 
preferences for retirement, 2) it can lower wage offers that the 
individual can command, and 3) it can decrease life expectancy. The 
prevalence of work-limiting health conditions among the older 
population is not well-known, in part because of data limitations.
    There is some evidence that health status and capacity to work have 
been gradually improving since the early 1980s for individuals in their 
50s and 60s. This improvement probably reflects many factors including 
long-term effects of healthier lifestyles adopted by an increasing 
number of Americans since the1950s, improvements in medical practice, 
and the lessened physical requirements of many jobs. A large majority 
of retirees are probably physically capable of working somewhat longer 
than they have been in recent years. Nonetheless, many individuals--but 
a distinct minority--have health-related work limitations that will 
contribute to some hardship if either Social Security's NRA or early 
retirement age is increased. Much research remains to be done to 
identify and count this subset of the population, to ascertain the 
nature of their impairments, (particularly as these health conditions 
relate to their education levels and work experience), and to determine 
their socioeconomic and demographic characteristics.
    Most of the best retirement research has used data from the 
Retirement History Study (RHS), a database sponsored by the Social 
Security Administration beginning in 1969. Thus, much of what we know 
about retirement is heavily dependent on the retirement behavior of 
cohorts who retired a couple of decades ago and are currently in their 
late 80s. To the extent that these cohorts experienced unique 
circumstances during their lives (surviving the great depression, 
coming of age during World War II, receiving large real transfers of 
wealth from the start-up phase of the Social Security system), it is 
possible that later birth cohorts will react differently to changing 
circumstances. Therefore, further study of retirement using more recent 
data on current retirement such as the Health and Retirement Survey 
(HRS) is greatly needed. In the next several years researchers will 
have an opportunity to verify many of the findings from the earlier 
RHS. One key question to address will be whether these later birth 
cohorts appear to respond to financial incentives any differently than 
the RHS cohorts. We enter this new phase of retirement research with a 
provisional view that the effects of Social Security provisions in 
retirement patterns are probably not very large.
    The following bibliography lists internal research and literature 
reviews and summaries of SSA-funded research on the retirement age and 
issues surrounding a retirement age increase.

                           Completed Studies

Internal Research and Reviews

    Chapman, Steven H., M. LaPlante, and G. Wilensky. 1986. ``Life 
Expectancy and Health Status of the Aged,'' Social Security Bulletin, 
Vol. 49, No. 10, pp. 24-48.
    Holden, Karen C. 1988. ``Physically Demanding Occupations, Health, 
and Work after Retirement: Findings from the New Beneficiary Survey,'' 
Social Security Bulletin, Vol. 51, No. 11, pp. 3-15.
    Leonesio, Michael V. 1993. ``Social Security and Older Workers,'' 
Social Security Bulletin, Vol. 56, No. 2, pp. 47-57.
    Leonesio, Michael V. 1996. ``The Economics of Retirement: A 
Nontechnical Guide,'' Social Security Bulletin, Vol. 59, No. 4, pp. 29-
50.
    McMillen, Marilyn M. 1984. ``Sex-Specific Equivalent Retirement 
Ages: 1940-2050,'' Social Security Bulletin, Vol. 47, No. 3, pp. 3-10.
    Packard, Michael D. and V. Reno. 1989. ``A Look at Very Early 
Retirees,'' Social Security Bulletin, Vol. 52, No. 3, pp. 16-29.
    Program Analysis Staff. 1982. ``Mortality and Early Retirement,'' 
Social Security Bulletin, Vol. 45, No. 12, pp. 3-10.
    Sammartino, Frank J. 1987. ``The Effect of Health on Retirement,'' 
Social Security Bulletin, Vol. 50, No. 2, pp. 31-47.
    Straka, John W. 1992. ``The Demand for Older Workers: The Neglected 
Side of a Labor Market,'' Studies in Income Distribution, No. 15. 43 
pages.
    U.S. Department of Health and Human Services. 1986. ``Increasing 
the Social Security Retirement Age: Older Workers in Physically 
Demanding Occupations or Ill Health,'' Social Security Bulletin, Vol. 
49, No. 10, pp. 5-23.
    Weaver, David A. 1994. ``The Work and Retirement Decisions of Older 
Women: A Literature Review,'' Social Security Bulletin, Vol. 57, No. 1, 
pp. 3-24.
    Weaver, David A. 1993. Review of ``As the Workforce Ages: Costs, 
Benefits, and Policy Changes,'' Social Security Bulletin, Vol. 56, No. 
3, pp. 100-103.
    Ycas, Martynas A. 1987. ``Recent Trends in Health Near the Age of 
Retirement: New Findings from the Health Interview Survey,'' Social 
Security Bulletin, Vol. 50, No. 2, pp. 5-30.

Extramural Research Reports and Summaries

    Anderson, Patricia, A. Gustman, and T. Steinmeier. 1994. ``Trends 
in Labor-Force Participation and Retirement: A Nontechnical Summary of 
a Final Report to the Social Security Administration, September 1994.'' 
Social Security Bulletin, Vol. 57, No. 4, pp. 55-58.
    Clark, Robert and A. McDermed. 1989. ``Determinants of Retirement 
by Married Women,'' Social Security Bulletin, Vol 52, No. 1, pp. 33-35.
    Crimmons, Eileen M. and S. Reynolds. 1997. ``Trends and Differences 
in Health and Ability to Work,'' Social Security Bulletin, Vol. 60, No. 
3, pp. 50-52.
    Gustman, Alan L. and T. Steinmeier, 1991. ``The Effects of 
Disability Insurance, Health Status, Mortality and Physically Demanding 
Occupations on Labor Force Activity and Retirement: Estimation and 
Policy Simulation with an Econometric Model,'' Final Report. Photocopy.
    Hurd, Michael. 1989. ``The Joint Retirement Decisions of Husbands 
and Wives,'' Social Security Bulletin, Vol. 52, No. 1, pp. 29-32.
    Nestel, Gilbert. 1989. ``Functional Capacities of Older Men for 
Extended Work Lives,'' Final Report. Photocopy.
    Peracchi, Franco and F. Welch. 1995. ``Research Summary: Trends in 
Labor-Force Behavior of Older Americans,'' Social Security Bulletin, 
Vol. 58, No. 4, pp. 133-138.
    Tolley, H. Dennis and K. Manton.1996. ``Disability Adjusted Cost 
Savings for Changes in Normal Retirement Age,'' Social Security 
Bulletin, Vol 59, No. 4, pp. 71-74.

                      Research Underway or Planned

    Several simulation models are being developed to 
investigate distributional effects of retirement age changes. 
The models will also simulate effects of simultaneous changes 
in other program features.
    It is expected that the new Retirement Research Consortium 
will produce short policy analysis papers on the impact of 
retirement-age increases on the disability program and other 
critical reform topics. (For the Consortium, cooperative 
agreements with two universities will be in place by the end of 
the year.)
    The impacts of changes in the early and normal retirement 
age and the ability of people to work longer given later 
retirement ages will be assessed. For example, planned studies 
include the likely effects of raising the early retirement age, 
focusing on financial asset levels and health and disability 
patterns of affected workers. Effects on labor supply will also 
be examined.
    Several data development efforts are continuing which 
provide essential data for analysis of reform proposals. They 
include the Health and Retirement Survey, the National 
Longitudinal Surveys of Women, the Survey of Income and Program 
Participation, and the Survey of Asset and Health Dynamics of 
the Oldest Old.
    Related projects include study of labor force transitions 
of older workers, projections of the types of Social Security 
benefits that baby boomer women will receive, and analysis of 
health status, beneficiary status and employment of persons in 
their sixties.
      

                                <F-dash>

    Chairman Bunning. Testifying on the second panel today are 
Dr. Robert J. Myers, the former Chief Actuary and former Deputy 
Commissioner, and the institutional memory on Social Security 
here in the Congress of the United States.
    Merton Bernstein is Coles professor of law, emeritus, at 
Washington University in St. Louis, Missouri.
    Dr. Richard Burkhauser is from the Center for Policy 
Research at Syracuse University in New York.
    Ron Gebhardtsbauer is the senior pension fellow at the 
American Academy of Actuaries.
    Dr. Myers, would you please be our first to start? Pull it 
right over [referring to the microphone] and let it rip.

  STATEMENT OF HON. ROBERT J. MYERS, FORMER CHIEF ACTUARY AND 
FORMER DEPUTY COMMISSIONER, SOCIAL SECURITY ADMINISTRATION; AND 
   FORMER EXECUTIVE DIRECTOR, NATIONAL COMMISSION ON SOCIAL 
                        SECURITY REFORM

    Mr. Myers. Thank you, Mr. Chairman. I'd like to begin by 
discussing the definition of ``old age.'' For at least the past 
half century, this definition in the United States has almost 
universally been that people age 65 and over are classified as 
being in old age. The reason for this is that age 65 is the so-
called normal retirement age under the Social Security Program 
as it was originally established, and has been maintained 
static over the years of operation of the program, although, as 
you pointed out, in the future, under present law, it is 
scheduled to rise slowly to age 67 for people reaching that age 
in 2027.
    In my view, the definition of old age should not be a 
static one, but rather it should reflect changes in longevity, 
taking into account also work ability and availability of 
employment. Age 65 was originally selected as the normal 
retirement age just as a rather arbitrary thing. Age 60 was too 
low; age 70 seemed too high, and 65 was a nice round figure. I 
think, as it has worked out, that was a quite good choice. For 
some people, even particularly back in the early days, age 65 
might have been too high an age because of their ability to go 
on working, but on the whole I think it was a good choice.
    However, I think that a mistake in the original planning of 
the system was that this age would not be indexed in some way 
or another to increasing longevity. The effect of increasing 
longevity and continued work ability, of course, is very slow 
and gradual, but it accumulates to a considerable amount. I 
believe that, in future years, if longevity rises, so too 
should the normal retirement age, assuming that work ability 
also keeps pace, as I believe that it should.
    Now if we say that age 65 was right in the beginning, and 
we say, assuming that were the case, what should it be 
currently? If we examine for a group of young workers entering 
the labor force at age 20 and compute based on 1940 mortality 
what the retirement life expectancy is on the average, and also 
what the working life expectancy is on the average, and say 
that the relationship of those two should remain constant, then 
retirement expectancy is about 21 percent of the worklife 
expectancy. If that were done based on 1990 mortality, the 
normal retirement age would now be about 70\1/2\, and 
projecting it ahead a little for today's mortality, that normal 
retirement age would be 71. So you can see how significant is 
these slow, gradual increases in longevity.
    I think that it may be a case of which comes first, the 
chicken or the egg, but I think that the fact that the normal 
retirement age is 65 has had an effect on when people desire to 
retire, and also on the labor market and on employers' 
attitudes toward employing older workers. If we had had a 
gradual increase in the normal retirement age in the past, I 
think things would look quite a bit different now as far as 
work ability and work availability are concerned.
    The actual schedule for increasing the normal retirement 
age that was adopted in 1983 was only a small step, in the 
right direction, but it was very difficult to achieve at that 
time, and it was done in the right way. It was done on a 
deferred basis and gradually, and anything that is done about 
changing the normal retirement age should be something that is 
gradual, and also something that does not happen too quickly, 
because it is not fair to people to suddenly change the rules 
of the game as to when they may retire in the next decade or 
so.
    Very simply, Mr. Chairman, my proposal is that the normal 
retirement age should be increased, beginning in 2003, just as 
under present law, by 2 months a year for each year-of-birth 
cohort. Instead of leveling it off at 66 for 11 years, and then 
only going to 67, I would increase it indefinitely into the 
future.
    Now this will come perhaps as quite a shock to some people, 
when I point out what this will do. This means the normal 
retirement age would reach 70 in the year 2037 and 75 in the 
year 2074. But I believe that if people are shocked by these 
ages, it is because they are considering it in a static manner 
of today's economy and today's demography, and I think that in 
the future these ages will be reasonable; in fact, they'll 
probably be less than age 65 was relatively in 1940.
    This proposal would reduce the long-range actuarial deficit 
of the program by approximately two-thirds. The remaining third 
can be obtained by several minor, relatively noncontroversial 
amendments, so that the system could be made secure for the 
future.
    Thus, in summary, Mr. Chairman, I believe that the 
demographic problem of increasing longevity, which causes most 
of the long-range actuarial deficit, should be solved by 
demographic means, significantly raising the normal retirement 
age in a gradual manner over the long run.
    Thank you, Mr. Chairman.
    [The prepared statement follows:]

Statement of Hon. Robert J. Myers, Former Chief Actuary and Former 
Deputy Commissioner, Social Security Administration; and Former 
Executive Director, National Commission on Social Security Reform

    Mr. Chairman and Members of the Subcommittee: My name is 
Robert J. Myers. I served in various actuarial capacities with 
the Social Security Administration and its predecessor agencies 
during 1934-70; being Chief Actuary for the last 23 of those 
years. In 1981-82, I was Deputy Commissioner of Social 
Security, and in 1982-83, I was Executive Director of the 
National Commission on Social Security Reform (Greenspan 
Commission).

                   Meaning of Concept of ``Old-Age''

    Commonly, the concept of ``old-age'' in the United States 
is considered as involving all persons aged 65 and over. 
However, this static basis is not really meaningful over the 
long run. Certainly, several centuries ago, it would have 
involved far fewer persons than would have been reasonable. 
Actually, the concept should be based on longevity and work 
ability, and thus it should be dynamic over time.
    The element of longevity is relatively easy to measure, but 
this is not the case as to work ability. The latter depends on 
the ever-changing nature of the labor market and the extent to 
which employers will adapt their employment practices to the 
changing abilities of persons as they become older. I believe 
that, over the years. The possibility of efficient employment 
of older workers, considering the offsetting effect of long 
experience as against possibly declining physical ability, will 
keep pace with increasing longevity. Or, in other words, as 
people live longer, they should:--and will--be able to work 
longer. Thus, the definition of where ``old-age'' is first 
applicable should be a dynamic one.

       Why Age 65 Was Initially Selected As The Normal Retirement

    The Normal Retirement Age (NRA) under the Social Security 
program was established as 65 in the original Social Security 
Act (1935). The NRA, which is sometimes referred to as ``the 
full-benefits retirement age,'' is the youngest age at which 
reduced benefits are first available. Some persons believe that 
age 65 was selected because Bismarck used this age at the 
initiation of the German national pension plan in the late 
1880s, the first such program in the world. However, this was 
not the case, because such age was 70.
    Instead, the NRA was set at age 65 in 1935 as a matter of 
compromise. The Townsend Plan, which would have provided $200 
per month to all retired persons (and was really economically 
unsupportable), had an NRA of 60, and had strong public 
support. Some private pension plans had a NRA of 65, while 
others, generally in the railroad industry, had a NRA of 70. 
So, the ``natural'' compromise of the round figure of 65 seemed 
logical for the new Social Security program.

                Increase In NRA Made By 1983 Amendments

    In 1982-83, the Social Security program had serious 
financing problems, both short-range and long-range. Among the 
benefit and financing changes made by the 1983 Amendments to 
solve these problems was a deferred, gradual increase in the 
NRA, which in fact was the final, balancing change. As a 
result, under present law, the NRA increases by 2 months for 
those who attain age 65 in 2003 and by an additional 2 months 
for each successive year-of-birth cohort until it reaches age 
66 for those who attain that age in 2009. It then remains at 
age 66 until rising by 2 months for those attaining age 66 in 
2021. Then, there are successive 2-month increases for each 
further year-of-birth cohort until it reaches age 67 for those 
who attain that age in 2027.
    It may be noted that the plateau at age 66 for those 
attaining age 66 in 2009-20 resulted from the circumstance that 
the change in the NRA was supposed to produce exact estimated 
long-range actuarial balance for the total package of changes. 
If the NRA had ``logically'' moved up steadily beginning in 
2003, by 2 months per year, until reaching age 67 in 2016, a 
small actuarial surplus would have been shown. Thus, the goal 
of a close estimated actuarial balance could only be achieved 
by deferring for a few years the increase in the NRA beyond age 
66.
    Much opposition was present with regard to even this small 
increase in the NRA, even though it was deferred and gradual. 
Many persons viewed retirement at age 65 (or even a few years 
earlier) as a basic right, regardless of work ability or 
employment availability. In my view, from the standpoint of the 
nation's well-being, the definition of ``old-age'' should not 
have been kept static over the years as longevity increased. By 
doing so, we have had a hidden continual liberalization of the 
program. Instead, we should have maintained the NRA at a level 
equivalent to what it was at the start. Specifically, the 
relationship between the retirement-life expectancy for a 
person aged 20 and the working-life expectancy of such a person 
should have remained about the same over the years.
    Based on mortality rates in 1940, the retirement-life 
expectancy of a person aged 20 was 8.36 years for a NRA of 65, 
or 20.8 percent of the working-life expectancy of such a person 
(40.18 years). Using mortality rates of 1990, such a 20.8-
percent relationship would be achieved with a NRA of 70.6 
years. Thus, the increasing schedule of NRAs legislated by the 
1983 Amendments was well below the NRAs equivalent to the 
relationship between the retirement-life expectancy and the 
working-life expectancy for a person aged 20 with a NRA of 65 
at the inception of the program would have produced by 1990, 
let alone by 2027.

                 My Proposal For The NRA In The Future

    I believe that the NRA should begin to increase for those 
who attain age 65 in 2003, as in present law, but when it 
reaches age 66, it should continue to increase by 2 months for 
each year-of-birth cohort indefinitely into the future, rather 
than remaining at that age for 12 years and then rising only to 
age 67. Thus, the NRA would become age 70 for those who attain 
that age in 2037 and age 75 for those who attain that age in 
2072. At first glance, these rises might appear to be extreme, 
but it should be kept in mind that, with increasing longevity 
and accompanying work ability, the resulting NRAs will be well 
below the equivalent NRAs comparable to a NRA of 65 in 1940 
certainly for many years to come and perhaps always so. In 
other words, if the NRA had originally been indexed to 
longevity, it would have been higher than would arise under my 
proposal to revise present law.
    In the event that the proposed schedule of NRAs will, after 
many years, apparently exceed the NRAs equivalent to what age 
65 was in 1940, this will be determinable well in advance. 
Appropriate action can then be taken to slow down or eliminate 
future scheduled increases, and this can easily be done both 
actuarially and politically.
    As to the Early Retirement Age (age 62 in present law), I 
believe that it should remain at age 62 until the NRA reaches 
age 67, and then it too should rise, always being 5 years lower 
than the NRA. My proposal would have a significant effect on 
the estimated long-range financial status of the program. The 
long-range actuarial deficit of 2.2 percent of payroll 
according to the intermediate-cost estimate would be reduced by 
about two-thirds. The remaining deficit could easily be handled 
by such small and relatively non-controversial changes as 
covering all new state and local government employees, making 
the provisions for income-taxing benefits the same as are 
applicable to private pensions, and correcting the Consumer 
Price Index.

                Proposals To Index The NRA To Longevity

    Proposals have been made to index, beginning in some future 
year, the NRA based on changes in retirement-life expectancy. 
In theory, this is an excellent approach, but it cannot be 
applied in a satisfactory manner. If the increase in the NRA is 
made shortly after the increase in life expectancy has been 
determined to have occurred as measured in some recent past 
year, the beneficiaries will not have had sufficient advance 
notice so that they can plan accordingly. On the other hand, if 
the indicated increase in the NRA is deferred and graded in for 
many years, the change will not have been sufficiently cost 
effective. Of course, it may be said that my proposal does 
involve indexing as a limiting factor that the Executive Branch 
and Congress would undoubtedly consider continuously over the 
years, so as to make ad hoc changes when indicated as being 
necessary.

                              Conclusions

    The Social Security program has, according to the 
intermediate-cost estimate, a serious long-range financial 
problem. This has been due, to a considerable extent, to 
increased longevity--both in the past and very likely over the 
long-run future--coupled with maintaining a static NRA in the 
past and with only small increases therein scheduled for the 
future.
    The demographic problem involved should be solved by 
demographic means--namely, a continuous small annual increase 
in the NRA in all future years. If this results, at some 
distant time, in the NRA becoming too high as measured by 
conditions then or relative to what age 65 was at the start of 
the program, it will be a relatively easy matter both 
actuarially and politically to slow down or cease the rises in 
the NRA. But it should be realized that the NRA should be on a 
dynamic basis so as to keep pace with increasing retirement-
life expectancy, considering also work ability.
      

                                <F-dash>

    Chairman Bunning. Go right ahead.

   STATEMENT OF MERTON C. BERNSTEIN, COLES PROFESSOR OF LAW, 
   EMERITUS, WASHINGTON UNIVERSITY, ST. LOUIS, MISSOURI; AND 
FORMER PRINCIPAL CONSULTANT TO THE 1983 NATIONAL COMMISSION ON 
                     SOCIAL SECURITY REFORM

    Mr. Bernstein. Thank you, Mr. Chairman. I want to 
congratulate this Subcommittee for launching these hearings. 
There's no domestic issue of greater importance to all 
generations than securing the future of Social Security. And 
I'm very much encouraged by what I've been hearing.
    Certainly, there's been a tremendous amount of interest in 
normal retirement age. But the interest in it is exceeded only 
by the extent to which it is misunderstood. Most people seem to 
think that Social Security normal retirement age means the age 
at which most people retire. That is not the case. Most people 
retire before age 65, the current age.
    Raising normal retirement age means simply cutting 
benefits--cutting benefits for everyone who retires after the 
effective date of the change. Now that is something that people 
don't understand. They don't understand that it cuts periodic 
benefits, no matter at what age they begin benefits. They don't 
understand that raising normal retirement age means cutting 
lifetime benefits for everyone who retires, who becomes 
eligible to retire after the effective date. This issue is 
primarily an issue with the baby boomers and their children. 
And they ought to understand what's involved, that it's their 
benefits that would be cut, and cut substantially, roughly 5 
percent a year--5 percent for each year of raising the normal 
retirement age. We can't have an intelligent discussion of this 
issue until we know what it means.
    I think it's a very radical thing to do. The long-term 
shortfall of Social Security is quite manageable without taking 
such radical steps.
    Economists frequently talk about retirement age as if it is 
wholly or primarily a matter of choice. Well, for some people, 
happily, it is a matter of choice. But for tremendous numbers 
of people it is not a matter of choice. We have just gone 
through the wrenching years of downsizing, and they're not 
over. We have lost whole industries that were great employers.
    For many people the reality frequently is that they're at 
work; they get an announcement that there will be downsizing of 
``X'' number, ``X'' hundred or thousand of employees. That is 
coupled with what's called an early retirement incentive 
program. What's the early incentive program? It says retire 
early; you have one chance to elect to do so, and we'll carry 
you along until Social Security kicks in.
    Those programs, which have been used again and again 
throughout American industry and business, put people to the 
test. They know that if they don't elect the early retirement 
option, they're likely to be laid off. So they take it. That's 
not a choice in my book.
    Mr. Bunning, yesterday, you may have noticed the Philip 
Morris Co. announced just such a program for it plants in 
Richmond and Louisville. You've got several hundred people who 
are facing just that choice right now. Are they choosing to 
retire, if they elect to go out at age 57, 58, 59? I don't 
think so.
    Further, rather than talking solely in terms of people 
choosing, we ought to be looking at the impediments to 
continued employment of older people. One is higher pay. 
Employers, personnel directors, managers know that frequently 
it costs more to continue to employ an older worker than a 
younger worker.
    What happens? Well, frequently, that higher pay provides 
employers with an incentive which is, unfortunately, acted 
upon. Another major disincentive to the employment of older 
people is health care costs. Any health insurer will charge 
more for older people on the payroll than for younger people. 
Again, personnel managers don't have to be rocket scientists to 
know that when they do hiring. And although discrimination 
based on age in employment is illegal, the law is very hard--
very hard--to enforce.
    I do urge upon you to consider the very many other quite 
appropriate measures that can be taken to assure Social 
Security solvency without resorting to this quite radical step.
    [The prepared statement and attachments follow:]

Statement of Merton C. Bernstein, Coles Professor of Law, Emeritus, 
Washington University, St. Louis, Missouri; and Former Principal 
Consultant to the 1983 National Commission on Social Security Reform

    Some advocate raising Social Security's normal retirement 
age so as to trim program costs. Few proposals are as 
misunderstood. Many think it means that people will work 
longer. But, most studies show that increases, if any, would be 
measured in weeks or months, not years. In fact, raising the 
normal retirement age would:
    (1) Reduce periodic benefits--throughout retirement--for 
the baby boomers
    (2) Produce program savings by reducing benefits for all 
future retirees
    (3) Increase Social Security Disability insurance outlays
    (4) Provide little or no net program income gain; higher 
benefits for those working longer would offset additional 
payroll tax
    (5) Cut benefits disproportionally for the low paid
    (6) Bear most heavily on those already out of the work 
force: those who are ill, lack currently needed skills, worked 
in obsolete industries, are stranded by shutdowns
    (7) Increase employer pension costs
    (8) Work at cross purposes with private pension provisions 
and practices that permit and encourage earlier retirement
    (9) Ignore disincentives to employing older workers--their 
higher pay and health insurance costs
    Many working people do not have the choices some advocates 
of change assume. Backers of higher NRA seem to ignore that 
labor participation rates leveled off in the mid-1980s. The 
focus on changing Social Security ignores the probably more 
powerful effect of employer-sponsored plans.

1. Higher Normal Retirement Age Cuts Social Security Benefits For Baby 
                                Boomers

    Raising normal retirement age means raising the age at 
which full benefits become payable. The effect is to reduce the 
periodic and life time benefits of all who retire thereafter. 
It is an issue that affects those still working
    Lifetime benefits begun either before or after normal 
retirement age equal, on average, benefits begun at normal 
retirement age. With a higher normal retirement age, periodic 
benefits (the amount received each month), are reduced compared 
with those payable at a lower normal retirement age.
    Currently, full benefits become payable to those who start 
benefit receipt at normal retirement age of 65. A person 
beginning benefits at age 62, the earliest age of eligibility 
for Social Security retirement benefits, receives 80% of a full 
benefit, with proportional reductions for those beginning 
benefit receipt in any month prior to age 65.
    When normal retirement age becomes age 66 in the next 
decade, a full benefit becomes payable to those starting 
receipt at that age. Benefits begun at age 65 will be 95% of a 
full benefit. Those begun at age 62 will equal 75% of a full 
benefit. When normal retirement age becomes 67, the benefits 
begun at 62 become 70% of a full benefit. Under the 1983 
amendments, the deferred retirement credit (an increase for 
delaying benefit receipt beyond normal retirement age) moves up 
slowly until, in 2009, it becomes the full actuarial equivalent 
of starting benefits at normal retirement age. From that date 
onward, retirements delayed past the normal retirement age 
would produce no savings for the program.
    When normal retirement age gets raised, all benefits begun 
thereafter, no matter at what age, are 5% less for each year of 
increase. Those reductions continue throughout retirement.

             2. Program ``Savings'' Come from Benefit Cuts

    When normal retirement age goes up, benefit cuts are a 
certainty. Reported ``savings'' derive primarily from the 
described benefit reductions. Indeed, the ``savings'' to the 
program reported by the Social Security Administration's Office 
of the Actuary consist almost wholly of such benefit 
reductions. (See the attached 1984 memo from the Office of the 
Actuary projecting program savings from the 1983 amendments 
raising normal retirement age in the next century. No later 
comparable analysis exists because the Actuary assumes almost 
all of the program gain derives from benefit reductions.)
    But many suppose that the system would obtain more revenue 
through people working longer and therefore paying more FICA 
(payroll tax). Whether any significant number would do so is 
speculative. Simulation studies project that additional work, 
if any, would be measured in weeks or months, not years. 
Whatever the sums so derived, they would produce little or no 
net gain to the Social Security program.

  3. Higher Normal Retirement Age Boosts Disability Insurance Outlays

    As the attached analysis by the Social Security 
Administration's Office of the Actuary shows, increased Social 
Security Disability Insurance (DI) benefit payments would 
cancel some of the ``gain.'' DI benefits, which are not reduced 
because of the age at which they start, become regular 
retirement benefits when an individual on DI reaches that age. 
When that normal retirement age goes up, more of those already 
on DI will continue on those rolls and more possible eligibles 
will seek them.

 4. Continued Work Does Not Improve Program Income; Additional Payroll 
Tax Yield Offset by Deferred Retirement Credit and Higher Benefits from 
                          Additional Earnings

    Whether a significant number of people would feel impelled 
by the benefit cuts to continue at work is wholly speculative. 
But their numbers do not matter greatly because that additional 
work would not yield a significant net gain to the program. The 
deferred retirement credit confers an actuarial benefit 
increase for each month of delayed retirement. On average, 
lifetime benefits are the same, regardless of when people start 
to collect benefits; and higher credited earnings may increase 
the benefits due, thereby offsetting higher FICA payroll tax 
receipt.
    Each month an individual works after the earliest age of 
benefit eligibility, now 62, improves his/her benefits by about 
5% a year . The delay raises periodic benefits to their 
actuarial equivalent. That means that the program, on average, 
pays out an equal amount over the beneficiary's lifetime no 
matter at what age he/she starts receipt of benefits. In sum, 
no matter how long an individual delays the receipt of 
benefits, the program, on average, pays out the same amount 
over that individual's lifetime.
    Further, that additional work may boost the average of 
lifetime earnings on which his/her benefit computation is 
based. Such increased credited pay would boost benefits, 
thereby canceling some portion of the additional FICA tax paid 
on the additional months of work.
    These factors explain why the attached analysis by the 
Social Security Administration's Office of the Actuary 
attribute almost all of the savings from the 1983 amendments 
boosting normal retirement to benefit reductions.

            5. Cuts Bear Disproportionally on the Lower Paid

    One justification claimed for raising normal retirement age 
is that we are living longer, are healthier and can work 
longer. Further, it is claimed, the benefit reductions produced 
by raising the normal retirement age will be offset by longer 
periods of retirement and hence longer periods of benefit 
payment. On average, that's true.
    But that analysis does not hold up for low-pay people, 
especially minority men, who tend to die earlier than the 
statistical average. The low paid have higher mortality rates 
and have the least chance of getting average lifetime benefits.
    In any event, reductions in current benefits bear most 
heavily on low-income people because a proportionally larger 
part of their income goes for essential expenditures--for food, 
clothing, and shelter. Indeed, it is for that very reason that 
the Social Security benefit formula is weighted in favor of 
low-income earners.
    From the program's point of view, total payout is not 
affected by how long people work. Whenever benefit payments 
begin, on average, they total the same over a lifetime. But, 
from the individual's point of view, it is the amount of 
current benefits that determine one's living standard. That is 
especially true for those most heavily dependent on their 
Social Security benefits--people who earned low or modest pay.

  6. The Hardest Hit: The Lowest Paid, Those Already Out of the Work 
   Force, Those Lacking Currently-Needed Skills; Those Who Worked in 
  Obsolete Industries; Those Who Cannot Work Due to Illness or Family 
                             Circumstances

    Program data show that almost all working people start 
Social Security benefit receipt before age 65, many at the 
earliest possible moment. Many such takers were out of work for 
six months or longer before beginning benefits. In reality, 
many such people are already out of the work force for good. 
Plant and other unit shutdowns, downsizing, former employment 
in obsolete industries, obsolete skills and illness account for 
many who begin benefit receipt at the earliest age of 
eligibility or soon thereafter because they are the least able 
to get work.

      7. Raising Retirement Ages Will Boost Employer Pension Costs

    Early retirement incentive programs that seek to induce 
employees to retire early typically offer bridging benefits 
until employees become eligible for Social Security benefits. 
Delaying that time by raising the age of earliest eligibility 
for retirement obviously will require employers to pay bridging 
benefits for a longer time. Reducing early retirement benefits 
by raising normal retirement age probably would have the same 
effect. When I testified in 1980 before Representative Ferraro 
on this subject, John Fibiger, representing the American 
Council of Life Insurance declared that employer costs would go 
up to offset the reduction in periodic benefits caused by 
boosting normal retirement age. (Hearings about Social Security 
retirement age before the U.S. House Committee on Aging (p. 81, 
1980).)

 8. Raising Normal Retirement Age Works at Cross Purposes with Private 
   Pension Provisions and Practices That Permit and Encourage Early 
                               Retirement

    For decades, private and state and local government pension 
plans have provided for retirement at much earlier ages than 
Social Security does. It is common for private plans to permit, 
even encourage, retirement--with full benefits--as early as age 
62, 60, 58 and even 55. This indicates that employers find it 
desirable to facilitate employee retirement before Social 
Security provides full benefits or even reduced benefits.
    Remember, too, that private pension plans receive tax 
favorable treatment. Why have we never heard proposals to 
withhold favorable tax treatment to plans with early retirement 
provisions?
    Bear in mind also that private plans tend to be 
concentrated among the better-paid portion of the population. 
Professor Burkhauser's article and editorial (``Who Takes Early 
Social Security Benefits,'' 36 Gerontology, No. 6, pp. 789 and 
726 (1996) found that more than 6 out of 10 who take Social 
Security early retirement also received employer pensions; 2 
out of 3 early retirees (at age 62) lived in households 
receiving an employer pension. From this he argues that 
depriving them of Social Security prior to age 65 would not 
cause hardship.
    Isn't it curious that those who propose radical changes in 
Social Security retirement age so as to discourage early 
retirement make no such proposal for employer-sponsored plans? 
Do we really want policies that facilitate early retirement for 
high-pay employees but cut benefits to all others so as to 
discourage their retirement?

  9. Older Workers' Higher Pay and Health Insurance Costs Discourage 
                            Their Employment

    Currently, employers pay higher health insurance premiums 
for older workers and frequently higher compensation as well. 
Despite the ban on discrimination in employment based on age, 
these factors give employers strong incentives to minimize the 
employment of older workers.
    One reported mass separation illustrates how powerfully 
these disincentives operate to curtail the employment of older 
people. Despite some 3,000 unfilled teaching jobs in New York 
City, the Board of Education implemented its second ``buy-out'' 
(that is, early retirement incentive plan) so as to trim higher 
paid teachers from the payroll. It seemingly did not matter 
that this move aggravated an existing shortage of math and 
science teachers. (New York Times, July 29, 1996, page B1 
(national edition).
    Moreover, the law requires employers providing health 
insurance to offer those eligible for Medicare the choice of 
making the employer's plan primary and Medicare secondary. I 
have not seen any study of either employer or employee conduct 
in the light of that requirement enacted to reduce Medicare 
costs. But surely some employers, knowing of the possible 
employee election of the employer's plan, will find them more 
expensive, less attractive employees. And, as if that's not bad 
enough, the law also requires that dependents eligible for 
Medicare be given the same choice. You might wonder why 
employees and dependents would elect the employer's plan. The 
answer: many private plans cover prescription drugs and 
Medicare does not.
    It seems both prudent and fair to remove health-care cost 
and Medicare election requirements, clearly impediments to 
continued employment, before trying to force people to work 
longer by cutting their Social Security benefits.

         Many Do Not Choose to Retire; They are Made to Retire

    Much of the discussion about retirement age assumes that 
almost all people choose to retire. That's a decidedly 
questionable assumption to make in the era of downsizing--which 
isn't over yet.
    Just ask the people living in the cities and towns once 
populated by the aircraft, clothing, electronics, farm 
equipment, hat, photographic, shoe, steel, and textile 
industries, just ask the mayors of cities whose downtowns have 
died, whether employees chose to give up their jobs. For 
example, Missouri was the last bastion of the domestic shoe 
manufacturing industry. One by one the shoe plants, strung 
along Interstate 44 in small towns, shut down. Their former 
employees didn't have many choices, certainly not where they 
lived.
    Read any story about downsizings and you will see that they 
feature early retirement incentive plans. When many large 
companies announce plans to trim hundreds or thousands of jobs, 
they offer older employees the choice of retiring early with a 
payment to bridge the time until Social Security kicks in. 
Employees know that if too few ``choose'' to retire, the 
necessary number will be fired. Such offers usually get 
accepted and often are oversubscribed.
    It is no secret that older separated employees have a tough 
time finding employment, let alone obtaining jobs as good as 
the ones they lost. Two studies of major layoffs showed that 
about half of each group numbering in the hundreds of thousands 
got no job or ones inferior to the jobs they lost. Older 
employees especially suffered economic demotion.
    Many economists talk about the factors that affect employee 
``choice'' whether or not to retire. Those discussions and 
analyses make some daunting assumptions--that people know what 
their pension plans provide, how much in benefits they can 
expect under varying retirement age scenarios, and what Social 
Security provides at differing ages. And how many people know 
and understand Social Security's retirement test and can do the 
math to show the interaction of earnings and benefits as well 
as apply the differing formulas for those aged 62-64 and those 
65 and older?
    Most people start Social Security benefit receipt well 
before age 65--despite the fact that Medicare does not become 
available to them until age 65. That seems to argue that the 
inadequacy of benefits does not discourage retirement. And how 
many know that the courts allow employers to cancel their 
promise to pay for retiree health insurance?
    I suggest, the rational choice picture drawn by economists 
is highly questionable--certainly for the mass of the 
population.
    Some employed people may have sufficient knowledge about 
their pension plans and Social Security benefits to make a 
rational choice about what their income would be if they 
retired. Even if they do, can we expect that reducing periodic 
benefits by 5% or even 10% will shape their decision?
    On top of that, to have a choice, older employees must have 
the prospect of continuing in a job or getting a new one. 
Often, that's the rub.

 Raising Age of Earliest Eligibility--a Disaster for the Low Paid, Low 
  Skilled and Ill; Program Savings, Little or Nothing; Economic Gains 
                          Speculative at Best

    Some advocate not only raising the normal retirement age, 
but also raising the age of earliest eligibility--with quite 
questionable reasoning.
    The employees who have no choice but to retire tend to be 
the people with ill health, obsolete skills, and those marooned 
in communities in which the major employer has disappeared. We 
know that people with low income are the people who rely most 
heavily on their Social Security benefits. Making them wait 
until age 65 could be disastrous.
    What also makes this proposal questionable is the structure 
of Social Security benefits. If benefits begin at age 65, they 
will be larger than they would be at age 62--their total, on 
average, should be equal actuarially over the beneficiaries' 
lifetime. Put another way, changing the age of earliest 
retirement would not save Social Security any money on average, 
because the deferred retirement credit purposely makes average 
life-time benefits equal no matter at what age a person begins 
drawing benefits.
    Professor Burkhauser reasons that more people at work will 
produce more goods and services, more for all of us to share. 
That surely is a worthy goal. We ought to pursue that enlarged 
pie by removing impediments to employment of older people, by 
providing fuller opportunities for education and training at 
all ages. But bludgeoning some people to work--primarily those 
without second pensions--seems a very distasteful way to go 
about creating a larger pie.
    Moreover, labor participation rates leveled off in the mid-
1980's. So, the proposal to rectify the trend to earlier 
retirement is a bit like the Maginot Line. It's designed for 
the last war.
    Before making any radical changes in Social Security, we 
should turn our attention to the costs and benefits and roles 
of employer-provided pensions, especially when their coverage 
is shrinking, having fallen below half of the full-time work 
force.

             Let's Keep an Eye on Death Rates and Longevity

    A funny thing happened to the death rate in 1993--it went 
up. Concomitantly, life expectancy dropped for both males and 
females, both at birth and at age 65, not by very much, to be 
sure. (See attached Table II. D2 from the 1997 Annual Report of 
the OASDI Trustees, page 63). While the death rate dropped 
again in 1994, it was above the 1992 rate, with no longevity 
improvement at age 65 for women.
    Missouri health officials speculated that the increased 
death rate might reflect the greater use of living wills. A 
later survey elsewhere noted that health care providers tend to 
ignore patient wishes on terminating life. Heightened interest 
in this subject could lead to more self-determination about 
when to end one's own life. Just where that movement will go, 
can hardly be foretold just now. But, it could lead to much 
more such decision making.
    Were that to develop, earlier deaths would have only slight 
effect on Social Security outlays but probably a more 
substantial effect on Medicare expenditures. Moderating that 
program's costs would make meeting Social Security's 
obligations more manageable.

Summary--Raising Social Security Normal Retirement Age and Earliest Age 
             of Eligibility Make Questionable Public Policy

    Raising Social Security's normal retirement age has an 
initial plausibility. But, when the public discovers that 
raising normal retirement age would reduce benefits to all 
qualifying for retirement thereafter, that option becomes less 
attractive. The chilly public reception given to raising the 
age of eligibility for Medicare suggests that changing normal 
retirement age will be greeted skeptically, at best.
    As we explore ways to assure Social Security solvency, as 
the media and public become better acquainted with the modest 
measures capable of achieving that desirable goal, more radical 
measures like changing normal retirement age will appear less 
urgent and that much more undesirable.
      

                                <F-dash>

[GRAPHIC] [TIFF OMITTED] T2247.003

[GRAPHIC] [TIFF OMITTED] T2247.004

      

                                <F-dash>

    Chairman Bunning. Thank you, sir.
    Dr. Richard Burkhauser.

STATEMENT OF RICHARD V. BURKHAUSER, SYRACUSE UNIVERSITY, CENTER 
            FOR POLICY RESEARCH, SYRACUSE, NEW YORK

    Mr. Burkhauser. Thank you, Chairman Bunning.
    I'd like to agree with Mr. Neal that our Social Security 
system was the best system the government could have devised to 
protect older persons in the thirties. It met the needs of a 
country in which average life expectancy was about age 60, and 
little of value to society was expected from those lucky enough 
to reach age 65 and beyond.
    Furthermore, the Great Depression had shaken the belief 
that our economy could grow enough jobs for those who wanted to 
work. Under the circumstances, setting a retirement age at 65 
and penalizing those who worked beyond that age through lost 
benefits made some policy sense. Two major changes have 
occurred in our society since the thirties that make it 
painfully obvious that the norms of that long ago period do not 
describe our country as we approach the 21st century.
    The first is life expectancy. Life expectancy is now 
approaching age 80. And even more important, most Americans can 
expect to be free of severe work impairments well into their 
seventies. We are a much healthier society, measured either by 
morbidity or mortality, and society has much to gain by 
encouraging older persons to continue to work.
    Second, our economy has proven to be the job creation 
marvel of the world. Those who argued that the great 
transformation, for instance, of women into the work force 
would displace men have been grossly proven wrong. Today, 
unemployment rates are lower than they have been since the 
sixties.
    The issues for the 21st century will revolve more around 
how to retain highly skilled and healthy members of the aging 
baby boom generation, of which, by the way, I'm the oldest 
member, than figuring out how to force older people out of the 
labor force, which was much of what the early Social Security 
retirement benefit program was about.
    The good news is that policy changes already made in the 
1983 amendments to the Social Security Act are working. The 
trend toward earlier and earlier retirement is over. If you 
look at Tables 2 and figures 1 and 4 in my formal statement, 
you'll see that the labor force participation rates of men aged 
60 and 64 and 65 to 69 between 1985 and 1996 are far above what 
straightline projections, based on the previous 25 years of 
experience, would have predicted. The same is true for older 
women.
    Raising both early and normal retirement ages will even 
further increase work at these ages, and as our healthy 
lifespans increase, it makes sense to do so, both from a social 
and a financial perspective.
    Now will there be hardships? Yes. This will cause hardships 
for some. However, we have great data--the Health and 
Retirement Study which the Congress has financed since 1990 
through its appropriations to the National Institute on Aging. 
This study follows the latest group of people moving toward 
early retirement age, so we can actually see what the 
characteristics of people who are taking early Social Security 
benefits are.
    In tables 3 and 4 of my formal statement, I look at the 
current cohort of men and women who first took Social Security 
benefits at age 62 in 1992-94, and compare them with those who 
postponed benefits. The big story is, on average, early takers 
are as healthy and as wealthy as postponers. The stereotype of 
an early taker, unable to work and lacking private pension 
protection, does not fit most early takers. On average, men who 
take early Social Security benefits at age 62 appear to be 
nearly as well off financially and as healthy as men who 
postpone acceptance. Overall, women who take early Social 
Security benefits at age 62 are better off financially, but 
less healthy than women postponers.
    If you look at the typical male early Social Security 
taker, black or white, that person is also eligible to receive 
employer pensions. Among white males, 66 percent of early 
takers have employer pensions. Among black males, 61 percent 
have employer pensions.
    The typical male taker, black or white, has no health 
condition that affects his ability to work. Few male takers, 
black or white, fit the stereotype of being both in poor health 
and dependent on Social Security as their only source of 
pension income. I estimate about 7 percent of white males and 
11 percent of black males fit this stereotype.
    These results from the Health and Retirement Study suggest 
that the majority of men who take early Social Security 
benefits at age 62 are also eligible to receive an employer 
pension, are in good health, and have assets similar to those 
who postpone Social Security benefits. It's the rare male taker 
who is both in poor health and dependent on Social Security.
    Most older workers who retire early do so because they are 
financially able to. For such workers, raising the early 
retirement age will not cause major hardships and will increase 
overall productivity.
    The 1935 Rolls Royce was undoubtedly the greatest car made 
up to that time, but no one would argue that the 1935 Rolls 
Royce is the car that we ought to be driving around in today. 
There have been changes in society and changes in technology 
that make this obvious. When I argue for changes in the Social 
Security system I am not arguing that the system has failed; 
rather, I am arguing that our society has changed and the 
Social Security system should change with it.
    Thank you.
    [The prepared statement follows. Additional materials are 
being retained in the Committee files.]

Statement of Richard V. Burkhauser, Syracuse University, Center for 
Policy Research, Syracuse, New York

    The Report of the 1994-1996 Advisory Council on Social 
Security (1997) finds a deterioration in the long range 
financial condition of Social Security and urges that 
concentrated action be taken promptly to reverse this trend. 
Raising both the normal retirement age and the earliest age of 
retirement is one method of accomplishing this result.
    In contemplating such increases in the retirement ages for 
Social Security, two issues arise: (1) would a larger number of 
people stay in the work force past age 62? (2) would this cause 
serious and widespread economic hardship to a large number of 
people who would still not work past age 62? Preliminary 
evidence suggests the answers are yes and no respectively. 
Thus, I favor raising the retirement age as one method of 
adjusting Social Security policy to the improved health and 
life expectancy of the baby boom generation.

 I. Would Raising the Earliest Retirement Age to 65 Increase Work? \1\

    Table 1 shows the labor force participation rate of older 
males from 1940 through 1996. There is now general agreement 
that disincentives to work at older ages contained in both 
Social Security and employer pension plans played an important 
role in the dramatic drop in retirement age from 1950 through 
1985 as shown in this Table. (See Quinn and Burkhauser 1994 for 
a review of the literature.) Nonetheless, skepticism exists 
over the ability of policy changes to both stop this trend and 
increase work at older ages. In my view, not only is it 
possible for social policy to encourage workers to stay in the 
work force longer, but changes in public policy already set in 
motion by the 1983 Amendment to the Social Security Act, 
together with a strong economy, have already ended the trend 
toward early retirement. Figures 1 through 4 in Burkhauser and 
Quinn (1997) show how profoundly the trends in labor force 
participation rates have changed for older men and women since 
1985. The figures show the labor force participation rates of 
older men (aged 60 to 64, aged 65 to 69) and older women (aged 
55 to 59, aged 60 to 64) from 1964 through 1996, and use a 
linear time trend based on the 1964 to 1985 data to project 
labor force participation rates from 1986 through 1996. In all 
cases, projected rates are far below actual rates. Table 2 from 
Burkhauser and Quinn (1997) plots these differences and finds 
that over two million more older men and women in these age 
ranges are in the labor force than would have been predicted 
based on past trends. While it is difficult to disentangle the 
relative importance of specific policy changes from 
macroeconomic factors and changes in personal characteristics 
that occurred
---------------------------------------------------------------------------
    \1\ The discussion in this section of my talk is based on 
Burkhauser and Quinn (1997).
[GRAPHIC] [TIFF OMITTED] T2247.019

[GRAPHIC] [TIFF OMITTED] T2247.023

[GRAPHIC] [TIFF OMITTED] T2247.024

over the period, it is possible to say from Table 2 that the 
long post-World War II trend toward early retirement is over.
    Removing disincentives to work or constructing incentives 
to work would have no impact on the labor force participation 
of older persons if they had no desire to work longer. But this 
is not the case, as McNaught, Barth, and Henderson (1989) 
report using Harris poll information. This survey evidence 
suggests that many older Americans would like to work more than 
they do. Quinn and Burkhauser (1994) analyzed the subsample of 
this survey who were still employed and found that a 
substantial minority--over one million--expected to stop work 
before they wanted to. Many more older workers preferred part-
time work than had it. These are the ``unexpected'' older men 
and women workers captured in Table 2.
    Returning the Social Security earliest retirement age to 
its 1960 level of age 65 as the normal retirement age is 
increased to 67 or higher over the next two decades would send 
an important market signal to employees and employers that 
additional work at older ages is expected. In my view such a 
change in Social Security policy would have a substantial 
impact on employment at those ages. But additional research is 
necessary to more accurately determine the size of this change. 
Fortunately a major new data set--the Health and Retirement 
Study--will allow researchers to make such estimates.

 II. Would Raising the Earliest Retirement Age to 65 Cause Widespread 
                         Economic Hardship \2\

    Raising both the normal and earliest age of eligibility for 
Social Security benefits would increase employment among older 
people and delay acceptance of Social Security benefits.\3\ 
This would both reduce the future liabilities of the Social 
Security system and increase general economic production. But 
these advantages of returning the first age of eligibility for 
benefits to 65 must be weighed against the negative impact on 
economic security it would cause at ages 62 through 64, 
especially for those who are limited in their ability to work 
because of health or who have no employer pension plan to 
cushion their transition out of the labor force and into 
retirement.
---------------------------------------------------------------------------
    \2\ The discussion in this section of my talk is based on 
Burkhauser and Phillips (1997).
    \3\ Under current Social Security rules, the normal retirement age 
will gradually increase to age 67 over the first part of the 21st 
century, but the earliest age of benefit eligibility will remain age 
62. Burkhauser and Quinn (1994) review the economic literature and 
conclude that, unless major changes take place in employer pensions, 
these changes alone will have only a minor effect on employment.
[GRAPHIC] [TIFF OMITTED] T2247.020

    Policymakers considering an increase in the minimum age for 
early Social Security benefits need to know how workers 
currently transition into retirement and to understand the 
circumstances surrounding this important life event. If early 
beneficiaries were in good health and could work, or could rely 
on employer pension income to support their decision to retire 
earlier than age 65, then such a change, while painful, would 
be unlikely to have serious economic consequences. However, for 
early beneficiaries who are limited in their ability to work 
because of health or are not eligible for employer pensions, 
raising the early Social Security retirement age to 65 could 
---------------------------------------------------------------------------
cause serious hardship.

Evidence from the Health and Retirement Study (HRS)

    The HRS is currently following a cohort of men and women 
who were aged 51 to 61 in 1992 when they were first surveyed. 
The second wave of data, which contains information on these 
same people in 1994, provides a first look at the 
characteristics of early Social Security retirees. Using data 
from the HRS, Table 3 looks at men and women who turned age 62 
between wave 1 and wave 2 and compares the employer pension 
eligibility, net assets, health, and household pension receipt 
of those who took Social Security benefits at age 62 (takers) 
to those who did not (postponers). This is done for the entire 
population and by race and gender groups. (This table is an 
extension of work first developed in Burkhauser, Couch, and 
Phillips 1996.)

Key Points of Table 3

    <bullet> On average, men who take early Social Security 
benefits at age 62 appear to be as well off financially and as 
healthy as men who postpone acceptance.
    <bullet> Overall, women who take early Social Security 
benefits at age 62 are better off financially but less healthy 
than women postponers.
    <bullet> There are clear differences between racial groups. 
Black men this age have substantially less wealth and poorer 
health than white men. Black male takers are wealthier but in 
poorer health than black male postponers. Black women have 
substantially less wealth than white women. Black women takers 
are wealthier and healthier than black women postponers.
    Table 4 separates takers and postponers based on employer 
pension and health status within race and gender groups.

Key Points of Table 4

    <bullet> The typical male early Social Security taker 
(black or white) also is eligible to receive an employer 
pension--white males 66 percent, black males 61 percent.
    <bullet> The typical male taker (black or white) has no 
health condition that affects his ability to work--white males 
(79 percent), black males (72 percent).
    <bullet> Few male takers (black or white) are both in poor 
health and dependent on Social Security as their only source of 
pension income--white males (7 percent), black males (11 
percent).
    <bullet> Women takers (black or white) are less likely to 
have an employer pension than male takers and more likely to be 
in poor health.
    These results from the HRS suggest that the majority of men 
who take early Social Security benefits at age 62 are also 
eligible to receive an employer pension, are in good health, 
and have net assets similar to those who postpone Social 
Security acceptance. It is the rare male taker who is both in 
poor health and dependent on Social Security benefits as his 
sole source of pension income--7 percent for white males, with 
only a slight increase to 11 percent for black males.
    These results do not suggest that raising the earliest 
retirement age would be painless or that some workers would not 
suffer major losses in economic well-being. But it does suggest 
that in 1994, the typical male worker taking Social Security 
benefits at age 62 was physically able to continue working or 
was eligible to receive an employer pension benefit and thus 
unlikely to be devastated financially by legislation raising 
the earliest age of eligibility for Social Security retirement 
benefits.
[GRAPHIC] [TIFF OMITTED] T2247.021

[GRAPHIC] [TIFF OMITTED] T2247.022

                            Future Research

    These early results from the HRS only begin to reveal the 
health and economic characteristics of today's older workers as 
they make the transition between work and retirement. As 
additional waves of data become available and are linked to 
previous data waves, as well as to Social Security records, 
researchers will be able to more fully explore the transition 
into early retirement from a multi-period perspective. This 
will allow researchers to see better how the economic well-
being of this cohort changes and to measure the degree to which 
our retirement system protects older people from dramatic drops 
in economic well-being, or even from a fall into poverty.
    More importantly, these results begin to identify the 
critical variables that influence the work to retirement 
transition. While these results suggest that the majority of 
workers who retire early do not have work-limiting health 
conditions and are not significantly worse off financially or 
from a health perspective from those who postpone early Social 
Security acceptance, more sophisticated analysis is necessary 
to estimate the importance of health, employment conditions, 
and government policy on the retirement decision of older 
workers.
    Disentangling the importance of policy variables from 
changes in health is the critical unresolved behavioral 
question with respect to the retirement decision. Aggregate 
data in Table 1 and in the figures show that the trend toward 
earlier retirement that characterized the American labor market 
from the end of World War II through 1985 has ended. The labor 
force participation rates of both older men and women are 
higher than straight line trends predict. Some of this increase 
is the result of policy changes which have reduced the anti-
work aspects of Social Security. The HRS data will enable 
researchers to more fully unravel the factors behind the 
retirement decision by looking at how public policy variables, 
such as Social Security and employer pension benefit levels, 
and changes in these levels based on additional work years, 
interact with health and general economic conditions, which are 
less affected by public policy, on the retirement decision.

                               References

    Advisory Council on Social Security. 1997. ``Report of the 1994-
1996 Advisory Council on Social Security.'' Washington, DC: Social 
Security Administration, January.
    Burkhauser, Richard V., Kenneth A. Couch, and John W. Phillips. 
1996. ``Who Takes Early Social Security Benefits: The Economic and 
Health Characteristics of Early Beneficiaries,'' The Gerontologist, 
36(6) (December): 789-799.
    Burkhauser, Richard V. and John W. Phillips. 1997. ``Who Takes 
Early Social Security Benefits: Results from the Health and Retirement 
Study,'' Center for Policy Research, Research Note, The Maxwell School. 
Syracuse, NY: Syracuse University.
    Burkhauser, Richard V. and Joseph F. Quinn. 1994. ``Retirement and 
Labor Force Behavior of the Elderly.'' In Linda Martin and Samuel 
Preston (eds.), Demography of Aging. Washington, DC: National Academy 
of Science, pp. 50-101.
    Burkhauser, Richard V. and Joseph F. Quinn. 1997. ``Pro-Work Policy 
Proposals for Older Americans in the 21st Century,'' Center for Policy 
Research Policy Brief No. 9, The Maxwell School. Syracuse, NY: Syracuse 
University.
    McNaught, W., M.C. Barth, and P.H. Henderson. 1989. ``The Human 
Resource Potential of Americans over 50,'' Human Resource Management, 
28: 455-473.
    Phillips, John W. 1997. ``Essays on the Accumulation and Transfer 
of Wealth at Older Ages,'' Ph.D. dissertation, Department of Economics, 
Syracuse University. Syracuse, NY, April.
    Quinn, Joseph F. 1997. ``Retirement Trends and Patterns in the 
1990s: The End of an Era?'' The Public Policy and Aging Report 
(Summer): 10-14.
    U.S. Department of Health and Human Services. 1996. Annual 
Supplement to the Social Security Bulletin. Washington, DC: U.S. 
Government Printing Office.
      

                                <F-dash>

    Chairman Bunning. You got that all in in less than 5 
minutes. Congratulations.
    I messed up your name the first time. So I'm going to call 
you ``Mr. G.''

    STATEMENT OF RON GEBHARDTSBAUER, SENIOR PENSION FELLOW, 
                 AMERICAN ACADEMY OF ACTUARIES

    Mr. Gebhardtsbauer. That's what my Dad was called.
    Good afternoon, Mr. Chairman, Members of the Subcommittee. 
My name is Ron Gebhardtsbauer, and I'm the senior pension 
fellow with the American Academy of Actuaries. The Academy is 
the nonpartisan organization for actuaries in the United 
States, and as such, we don't endorse legislation. Rather, we 
analyze it for its advantages and disadvantages.
    We're here today to talk about raising the normal 
retirement age because we're living a lot longer, and it seems 
like the logical solution to solving Social Security's 
financial problems. But it has many complex interactions, as 
you mentioned, Mr. Chairman, with other programs and difficult 
effects on various subgroups.
    As my written testimony shows, I can get into a lot of 
those issues, but I'd like to save time to avoid the red light 
and move on, focusing on, what are some of the options that we 
can use in order to make some of these ideas of raising the 
retirement age more workable. For instance, using Social 
Security to enable people to phase into retirement and go into 
part-time employment, and get a part-time Social Security 
benefit.
    But before I get into that, let me first talk about some of 
the concerns. First of all, it was mentioned earlier that 
raising the Social Security normal retirement age decreases 
everybody's benefits, but one advantage of increasing the 
normal retirement age is it doesn't decrease everybody's 
benefit; it doesn't decrease the benefits for disabled people. 
They will still get 100 percent of their benefit.
    One other concern is that, by increasing the normal 
retirement age, benefits at age 62 become smaller and smaller, 
and could become inadequate for some people with low incomes. 
There are some options here that maybe you might want to 
consider, and of course one of them is to not give a benefit 
age 62 anymore, to increase the age at which you can get your 
benefit at the earliest age. Another idea, another option, is 
to maybe guarantee a benefit equal to the poverty level, a 
minimum benefit of that amount.
    Of course, these options not only have advantages, they 
also have disadvantages. For example, not having benefits at 62 
anymore would be a special difficulty for people who have more 
strenuous jobs, who often retire early, or people who are 
partially disabled and can't get a disability benefit because 
they're not disabled enough. For those people, they won't be 
able to get a Social Security benefit, and they may have a hard 
time finding a job.
    Also, there's concerns for people who are minorities and 
people with low incomes who don't live as long, but as we 
discussed a little bit earlier, Social Security is not a 
regressive system. The tilt in the benefit formula (and the 
survivor and disability benefits) make it progressive, even for 
minorities who don't live as long.
    Another thing we need to think about before we raise the 
retirement age are these two questions: Can we work past 67? 
And as discussed already, not only are we living longer, but 
we're also healthier at older ages, and in fact these studies 
indicate that someone age 70 now is more healthy than someone 
age 65 back around when Social Security was created.
    Another question is, will employers keep us beyond age 67? 
And the evidence is there that employers are less likely to 
hire older employees, and one of the reasons is because older 
workers, as mentioned earlier, do cost more. Their health 
insurance, for instance, is more expensive. (However, their 
pension and post-retirement health costs can be lowered, when 
they work longer.)
    So let's talk about the effects on employers of raising the 
normal retirement age. While increasing the normal retirement 
age will keep the employer's FICA taxes down, it may shift the 
cost of retirement to the employers instead. They may end up 
with older work forces, and their benefit costs will go up. If 
the employers decide that they want to encourage the employees 
to retire at a younger age, they could do it by increasing 
their pension benefits, but then that will also cost a lot.
    We want employers to buy into this idea, too. Maybe we have 
an option here. How can we get employers and employees to buy 
into this? Well, I've got a chart over here on my left that I'd 
like you to look at, and it illustrates something that would be 
helpful. If you look at this chart, it shows the average annual 
increases in the labor force, and back in the sixties and the 
seventies, because of all the women coming into the work force 
and the baby boomers, increases in the labor force were big. 
It's now plummeting, though, and in fact when you reach the 
year 2008, the increase in the work force will be less than the 
increases in the population--for the first time in 50 years, 
since 1960.
    So that may change our thinking. Employers may want to 
rethink their retirement strategies. Instead of pushing 
employees out when they reach a certain age, they may want to 
encourage employees to stay.
    Well, there are ways in which Congress can help on this. If 
Congress, for instance, lets people choose when they want to 
retire and how to phase in their retirement, instead of having 
Social Security determine when you retire by using this 
earnings test, as we discussed earlier, then there's more 
choice involved, but also it gives employers the chance to 
continue employing their workers, maybe at a part-time level, 
but also not have as high payroll costs, due to the payment of 
a partial Social Security benefit. This could encourage 
employees to work longer (although part time), rather than the 
earnings test which discourages work.
    Also, it's already being done. The Federal Employee 
Retirement System already pays part-time benefits to part-time 
retirees that have already retired. And you may want to give 
this option to employers to allow them to phase-in retirement 
for their employees by giving them part of their pension at an 
age.
    This has some advantages, as I mentioned before, but it 
also has a disadvantage that was mentioned earlier. If you 
eliminate the earnings test, you end up having cash problems 
now, but in the long run it does not lose Social Security 
money. So that's another option that we might want to think 
about.
    And I see my red light came on, so I'd better stop here.
    [The prepared statement and attachments follow:]

Statement of Ron Gebhardtsbauer, Senior Pension Fellow, American 
Academy of Actuaries

    The American Academy of Actuaries is the public policy 
organization for actuaries of all specialties within the United 
States. In addition to setting qualification standards and 
standards of actuarial practice, a major purpose of the Academy 
is to act as the public information organization for the 
profession. The Academy is nonpartisan and assists the public 
policy process through the presentation of clear, objective 
analysis. The Academy regularly prepares testimony for 
Congress, provides information to federal elected officials and 
congressional staff, comments on proposed federal regulations, 
and works closely with state officials on issues related to 
insurance.
    Chairman Bunning, committee members, staff, and fellow 
panelists, Good Afternoon. My name is Ron Gebhardtsbauer and I 
am the Senior Pension Fellow at the American Academy of 
Actuaries. The Academy is the nonpartisan public policy 
organization for actuaries in the United States and does not 
endorse or propose legislation. Instead, we analyze the 
potential effects of legislation and evaluate its advantages 
and disadvantages relative to current law.
    In the interest of time, I have provided the subcommittee 
with copies of my full testimony on this subject, so that I can 
focus on the most important points at this hearing, namely:
    (1) What effects would an increase in the Normal Retirement 
Age have on individuals, employers, and the Social Security 
system?
    (2) If Congress decides to increase the Normal Retirement 
Age, what should it be?

       Effects of an Increase in the Normal Retirement Age (NRA)

    Many proposals to solve Social Security's financial 
problems have suggested that the retirement age should be 
increased, because our life expectancies are much higher today 
than they were when Social Security was created. Currently, the 
Normal Retirement Age, or age for full retirement benefits, is 
65, the same as it was at the beginning of Social Security. It 
starts to gradually increase to age 67 in just 2 years (the 
year 2000) at which point the Normal Retirement Age will become 
65 and 2 months for people born in 1938. If these people still 
retire at age 65, their retirement benefits will be about 1% 
lower \1\ than if the Normal Retirement Age had remained at 65. 
If the NRA had increased to age 66 all in one year, benefits 
would have dropped immediately by about 7%. This large decrease 
would be similar to the notch baby benefit decreases which 
caused much alarm among the elderly in the 1980's. Phasing in 
the increase in retirement age over 6 years from 2000 to 2005 
avoids this problem. Eventually the NRA reaches age 67 in 2022 
for people born in 1960 and later. (A chart in my attachments 
provides these changes in detail, along with the retirement 
ages proposed by the Advisory Council.)
---------------------------------------------------------------------------
    \1\ Since people born in 1938 get their wages indexed one more year 
than people born in 1937 (and one less COLA), there is little 
likelihood that a notch will occur (assuming the wage index for 1997 
wages will be more than the COLA in 1999). Even a 4 year phase-in would 
probably not create a noticeable notch.
---------------------------------------------------------------------------

                         Effects on Individuals

    Thus, any proposal to gradually increase the normal 
retirement age by 1 year is similar to a proposal to gradually 
decrease the benefit formula by about 7% for people who still 
desire to retire at the same age.\2\ Because we are living 
longer (on average), some contend that this is not a decrease 
in benefits at all--it is keeping total lifetime benefits the 
same. These people argue that keeping the retirement age frozen 
at 65 is actually a benefit increase, because benefits are 
gradually being paid for more years. However, if you look at it 
from the point of view of money's worth calculations, you will 
see that the return for future beneficiaries will not be as 
good as the returns received by current beneficiaries (but that 
is also because of other factors).
---------------------------------------------------------------------------
    \2\ Increasing the retirement age by 3 years from 67 to 70 would be 
similar to a proposal decreasing retirement benefits by about 21%.
---------------------------------------------------------------------------
    Disabled beneficiaries will not be hurt. Raising the NRA 
will not seem like a good idea for someone who cannot work any 
longer. If they qualify for a disability benefit, however, 
there is good news. Disability benefits will not be reduced by 
an increase in the retirement age. Disabled individuals will 
still get 100% of their full benefit (or Primary Insurance 
Amount), no matter how young they are at disablement (and they 
will get the benefit as long as they are disabled). This will 
encourage more people around age 65 to file for disability 
benefits (thus offsetting some of the savings of the higher 
NRA), and the actuaries at Social Security have taken this into 
account in their cost projections for the current system and 
the various proposals.
    Current beneficiaries and some future dependents and 
survivors won't be hurt. Other people who will not be affected 
by an increase in the retirement age are current beneficiaries 
(due to the prospective phase-in), survivors that are age 60 or 
younger on entitlement \3\, children, and parents (or 
grandparents) caring for eligible children. Of course, this 
means that increasing the retirement age doesn't save quite as 
much as an across the board 7% decrease in benefits, but that 
is intentional, and not a surprise. \4\
---------------------------------------------------------------------------
    \3\ The early retirement reduction for spousal survivors at age 60 
is frozen at 71.5% of the PIA by law.
    \4\ Disability benefits can be decreased too, if so desired. The 
PSA proposal suggested decreasing disability benefits by the same 
percent as retirement benefits payable at age 65. This would save 0.5% 
of covered payroll or almost 1/4th of Social Security's total financial 
problem. However, in 2083 when the NRA reaches 70, this proposal would 
reduce disability benefits by 30% from what someone retiring at age 70 
would get.
---------------------------------------------------------------------------
    Inadequate Benefits: A concern with raising the Normal 
Retirement Age is that it could create inadequate benefits at 
age 62. For example, if the normal retirement age becomes 70, 
then the age 62 benefit will be only 55% of the age 70 benefit. 
Some people who opted for the age 62 benefit might use up their 
savings quickly and need public assistance (thus costing the 
government more elsewhere). This could be happening at the same 
time that employers are reducing their post-retirement medical 
plans, and government may have to cut back on Medicare and 
Medicaid. Thus, retirees would need more income, not less. The 
Gramlich Individual Account proposal addressed this concern by 
decreasing benefits by 7% but only for benefits above the first 
bendpoint. Proposals to raise the NRA can also resolve this 
through minimum benefits, or by increasing the earliest 
retirement age (i.e., the Earliest Eligibility Age), or people 
could work longer.
    Minimum Benefits: A minimum benefit equal to the poverty 
level (or some percent of poverty) might resolve this concern 
about inadequate benefits. However, it would have to be 
implemented carefully, since there are numerous concerns, such 
as:
    (1) Cost,
    (2) Who is eligible for it? (i.e., should someone who 
worked only 10 years under Social Security get the minimum 
benefit?)
    (3) Would it be phased in (i.e., Should someone who worked 
15 years get as much as someone with 40?)
    (4) Once someone qualifies for a year of work or becomes 
eligible for it, there is no more incentive to report income or 
pay the tax.
    (5) Would it be reduced for early retirement?
    (6) Would disabled beneficiaries get it? Receipt might 
discourage rehabilitation and going back to work.
    Increase the Earliest Retirement Age: Another solution for 
inadequate benefits at age 62 is to increase the earliest 
retirement age when increasing the normal retirement age. This 
would be a revenue raiser, and it would solve 10% of Social 
Security's actuarial imbalance. However, some people (such as 
blue-collar employees who commonly retire at a younger age) may 
need Social Security income to start at age 62. The reason the 
earliest eligibility age was lowered to age 62 in 1961 (1956 
for women) was due to a lack of jobs and the large number of 
unemployed. A response might be that people need income only if 
they can't work, and the disability benefit is for that 
purpose. But some older people may not be able to get jobs if 
unemployment levels are high \5\ or if they are disabled, but 
not quite enough for Disability Benefits. Finally, if 
proponents of keeping age 62 are correct, then they would be 
just as correct about some people needing the income at age 60. 
Should the eligibility age be lowered to 60 or 55 then? That 
would be expensive, and the benefits at age 55 would be very 
low.
---------------------------------------------------------------------------
    \5\ Unemployment levels may be low now, but what happens when they 
go back up? Could the eligibility age be indexed to unemployment levels 
for older workers?
---------------------------------------------------------------------------
    Blue Collar Workers: As noted above, there is a concern for 
blue-collar workers (and others with strenuous jobs) who are 
often retired or laid off early. Increasing the retirement age 
affects these workers (and their employers) disproportionately. 
For example, if the NRA became 70, they would need their 
employer-sponsored pension plan to pay pension supplements for 
5 more years. Employers will resist this due to the larger 
expense entailed. If pensions become much more expensive for 
these workers, employers may speed up the automation of their 
jobs. Alternatively, blue collar workers may need retraining to 
obtain another (and very different) job to tide them over that 
extra 5 years until they can get a full Social Security 
benefit. Getting a new job at an advanced age is quite 
difficult though, especially if your prior job was very 
different.
    Low Income Workers: There is also a concern for lower 
income workers who often don't save (or can't save) and who 
have little or no pension from their employer. For them, Social 
Security is their primary (and sometimes only) source of income 
in retirement. If they still retire at a young age, their 
Social Security benefits will be much lower, which makes it 
much more likely that their income will be below poverty 
levels. Establishing a minimum benefit will help them. 
Otherwise, they will have to work longer or resort to SSI (thus 
increasing Federal and State costs). This may not be as bad as 
it seems, since there are job opportunities for elderly 
workers, but they are more likely to be at low wages.
    Minorities: There is also a concern for minorities that 
have lower life expectancies. This may actually be more a 
function of income level, and would apply to blue-collar 
workers too. They often do not live as long as white collar and 
higher income workers. This reduces the return on the 
contributions they made into the system. Some people say the 
benefits are regressive because of this. However, studies by 
Robert L. Brown at the University of Waterloo and other 
actuaries show that the progressive tilt in the Social Security 
formula (along with the disability and survivor benefits) more 
than offsets their shorter life spans. This would still apply 
after the change in retirement ages. A guaranteed minimum 
benefit could also help allay this concern.
    Partially Disabled Older Workers. Another group of concern 
is the older person whose health is poor, but not poor enough 
to satisfy the disability definition. They will have a 
difficult time getting a job. Currently, if they are age 65 or 
older, they get a full benefit. In the future, that will not be 
so. Of course, determining whether someone is disabled is not 
easy, especially at older ages. But Social Security already has 
a more lenient rule for determining disablement at older ages 
in regulation Sec. 404.1563, which may address this concern to 
some extent.
    Finally, the number of unhealthy people at older ages is 
much less than the number of healthy people. Should they drive 
the retirement age policy for everyone? Maybe not, but we have 
to answer 3 questions:
    (1) Can we work past age 67?
    (2) Will we work past age 67? and
    (3) Will employers keep us past age 67?
    Can we work past age 67? Currently about 20% of men age 70 
work. In 1940 (before Social Security), the workforce 
participation rate for males age 70 was almost 50% (see chart). 
If we are healthier now and jobs are less strenuous and 
unemployment is down, then maybe more than 50% could work now.
    Older People are More Healthy Now than in the Past: Recent 
studies show that not only are we living longer, but we are 
healthier (physically and mentally) at older ages than people 
in the past. Rates of impairment among the aged are down.\6\ 
Indeed, the average person age 70 now is probably healthier 
than the average person age 65 when Social Security was 
created. In addition, health issues can affect the retirement 
decision in different ways. The onset of a disability will 
induce us to retire, since we can't work any longer. 
Alternatively, if we are just healthy enough to work, there are 
incentives to work until we can get Medicare (or until we can 
get Post-Retirement Medical coverage through our employer plan, 
if sooner). If we can't get Medicare until age 70, it may 
encourage some of us to work until then.
---------------------------------------------------------------------------
    \6\ See Chronic disability trends in elderly US populations: 1982-
1994 by Manton, Corder, & Stallard. In 1982, 14.1% of elderly between 
65 and 74 were IADL (Instrumental Activities of Daily Living) or ADL 
impaired or institutionalized. In 1994 this decreased to 11.5%. For 
ages 75 to 84, it dropped from 31.9% to 26.9%.
---------------------------------------------------------------------------
    Will We Work Past Age 67? Even if we can work past age 67, 
will we? We may just prefer to retire earlier. Retirement is 
not just a decision regarding our health, nor is it just a 
decision regarding our preference for leisure over work. It is 
also a financial decision. Many people don't have the finances 
to retire when they want. For example, work force participation 
rates in 1940 were high because the income was needed. In the 
1960s, work force participation rates for men dropped 
dramatically because they could get a Social Security benefit 
at 62 (enacted in 1961 for men and 1956 for women) and Medicare 
was available (enacted in 1965). Employer Pensions and Post-
Retirement Medical plans also help us retire early.
    Do Later Retirements Increase National Productivity? 
Earlier retirements, of course, means the nation loses out on 
some of the productivity that our seniors could have given us. 
On the other hand, some productivity of a younger person could 
be lost, when unemployment levels are high. When someone 
retires, it opens up the possibilities of getting more 
productivity from younger people. Not only can the younger 
employee be more productive, by having the job (or a better 
job), but now they won't need to worry about supporting their 
parents.
    Can We Be Encouraged to Work Longer? (and How?) Recently, 
however, work force participation rates have increased at age 
70, possibly due to a relaxation of the Social Security 
earnings or retirement test.\7\ At least some of us can work at 
age 70. Completely eliminating the retirement test after age 65 
would encourage even more work. An attached chart shows that 
many older people have jobs that pay at the earnings limit. 
These people would probably work more, produce more, and pay 
more taxes if the limit were removed. While this proposal will 
increase current cash outlays (because some benefits would no 
longer be reduced), it doesn't hurt Social Security's long 
range financial problems.\8\ That is because getting benefits 
sooner reduces future benefits (since they get less of an 
actuarial increase) and it would increase FICA tax income.
---------------------------------------------------------------------------
    \7\ Workers over 70 can now earn a wage and not have their Social 
Security benefit reduced.
    \8\ See page 236 of Volume I of the 1994-1996 Advisory Council 
report--Item F.6.
---------------------------------------------------------------------------
    Smaller pensions from our employers may also cause us to 
work longer. For example, 401(k) plans don't subsidize pensions 
at younger ages, like traditional retirement plans. If you want 
to retire early, you will have to suffer the full actuarial 
reduction. This may force many people to work longer.
    Higher retirement ages (for Social Security and Medicare) 
may encourage us to work longer, especially lower income 
workers who won't be able to retire for financial reasons. It 
may not affect wealthier people as much, because they can rely 
on their other resources.
    Other proposals to decrease benefits may also encourage us 
to retire later. However, even though they are similar to 
proposals that increase the NRA, they may not register until 
too late. Most people don't know what their Social Security 
benefit amount is, so decreasing it won't affect their thinking 
now. Only when they reach age 65 will they realize how much the 
benefits dropped. At that point, they will finally realize that 
they have to work until a much later age. Thus, raising the 
retirement age could be the more effective way of making 
changes to Social Security. It is more likely to affect our 
thinking now than just decreasing benefits.
    Congress Should Coordinate its Policies on Retirement Age: 
In addition, Congress should coordinate its national retirement 
policy, because right now it is sending inconsistent signals. 
Social Security is moving its retirement age to 67, but 
Medicare is still 65. In addition, the federal laws for 
employer-sponsored pension plans still use age 65. (Note: If 
Congress amended pension law to use the same ages as Social 
Security, some companies might take advantage of it. This could 
be a revenue raiser for the government, because employer 
contributions could go down--or at least not go up.) Another 
inconsistent signal is the requirement that IRA's and certain 
pension benefits begin their distributions by age 70\1/2\ even 
if the individual wants to continue to work. Raising the 70\1/
2\ would defer government revenue however. You could also raise 
the 59\1/2\ age for earliest distributions, but that could 
discourage people from putting money into IRAs and 401(k) 
plans, since it would lock the money up longer. It would also 
be a revenue loser for the government. Of course, much of this 
depends on whether there are jobs for older Americans.
    Will Employers Keep Us Past Age 67? Some employers believe 
that older workers may be less productive and less adaptable to 
change than younger workers. The older employees can limit the 
promotion possibilities of younger workers to the point that 
the younger employees may quit. Older employees' benefits may 
also cost more. An older worker's employee benefits (Health 
Insurance, Long Term Disability, Pension, Life Insurance, 
Annual Leave, and Sick Leave) could cost $10,000 more per year 
than those for a younger worker. On the other hand, not having 
to pay Post-Retirement Health benefits \9\ and Pension benefits 
\10\ while the older person is working could offset this 
amount. However, these cost reductions in Post-Retirement 
Health and Pensions don't apply to elderly employees who were 
recently hired. In fact, newly-hired elderly workers could 
increase employee health, post-retirement health, and pension 
costs (if they work long enough to become entitled to these 
retirement benefits). Laws that require their full coverage can 
make it a very costly decision for employers to hire older 
workers. If these laws were somewhat relaxed, employers might 
hire more older employees. For example, if an older worker can 
be hired at a lower salary that compensates for the extra cost 
of benefits, then cost will be less of an issue.
---------------------------------------------------------------------------
    \9\ Post-Retirement Health plans would not have to pay amounts paid 
by their active employee health costs if they are between their 
earliest retirement age and age 65. If the employee is over 65, the 
employer plan would only benefit from the non-Medicare benefits that 
their post-retirement health plan would have paid. However, the active 
employee health plan would have to pay all health costs since Medicare 
is the secondary payer there. It would be difficult for Medicare to 
become the secondary payer to a post-retirement plan, because then 
employers would drop the plans. Employers can't drop their active life 
plan (unless they drop it for all active employees) because of ADEA.
    \10\ For example, the employee could lose a temporary supplement. 
Or costs could decrease if the employee is no longer accruing benefits 
due to a service maximum. If the employee is older than their NRA or 
the first age for unreduced benefits, their retirement benefit can be 
suspended while they are working, if they are notified.
---------------------------------------------------------------------------
    Employer Demand for Older Workers: An SSA publication by 
John Straka, The Demand for Older Workers, asserts that 
employers that limit the number of older workers (or reduce 
their earnings) do so for productivity and market efficiency 
reasons and not for prejudicial discriminatory reasons. He 
bases this on his theory that (ultimately) in an efficient 
market, people are paid what they are worth. He also says that 
job opportunities for older workers will be mostly confined to 
relatively low-paying, labor-hungry sectors and occupations 
such as certain retail and clerical work and part-time or 
temporary work (e.g., on holidays). These jobs may not be 
attractive to many elderly workers who once had well-paying 
jobs. His position is that the Age Discrimination in Employment 
Act (ADEA), shortages of younger workers, and SSA policies to 
encourage work will not be adequate to both get jobs for the 
elderly and safe-guard their well-being. He suggests more 
subsidized training and resources for older job searchers.
    Labor Force Considerations: As noted above, the reason the 
earliest eligibility age was lowered from 65 to 62 was due to a 
lack of jobs and the large number of unemployed. However, 
because of today's booming economy and low levels of 
unemployment, this might not be as great a concern. In fact, if 
the Social Security retirement age is not changed, Social 
Security actuaries predict that the rate of increase in the 
labor force will continue to decline dramatically to less than 
1% when the baby boom starts retiring. By 2008 it will be less 
than the annual increase in the population for the first time 
since 1960 (see chart). This could lower unemployment levels 
(something which may have already started happening). The lack 
of workers (i.e., supply) could push wages up, unless 
individuals become much more productive or unless we get more 
workers from other countries or can convince our older workers 
to remain in the job market. Employers may want to keep their 
older employees (at least part time). However, these good 
economic times may not last forever, so the rules need to work 
in times when unemployment isn't low.
    Kinds of Jobs: Today's economy is more service-oriented 
(and less in need of heavy physical labor) than in 1940, which 
makes it easier for older individuals to work. Factors working 
in the other direction, however, include the rapid pace of 
change which makes it more difficult for older workers to keep 
up. (Training may not pay off if the worker might retire soon.) 
This may be particularly true of the many jobs in the high tech 
industry. These jobs are less physical, but they also change 
rapidly.
    Part-Time Work and Phased Retirement: One way to help older 
employees to keep working would be to provide more part-time 
opportunities for them as they phase-out to retirement. 
However, many employers don't find part-time jobs very 
efficient, especially if they incur the same fixed overhead and 
benefit costs. It is also difficult to decrease an employee's 
pay by a substantial amount. One way to make this easier 
however, would be for Social Security to allow workers over age 
65 to declare that they are switching to half-time, and request 
half of their Social Security benefit. Then it would be easier 
to pay them less. The federal retirement plans already do this. 
This declaration could replace the earnings or retirement test 
and be done in a way that is actuarially neutral to Social 
Security. \11\ Essentially, this would be giving people more 
choice. People would choose their own retirement age and how to 
phase it in, and not Social Security through the earnings test, 
which people dislike. It would also bring in more payroll taxes 
than if the worker completely retired. Allowing employer 
pension plans to pay a partial pension while they are still 
working (in service benefit) would be important for consistency 
purposes too. Mechanisms would be needed to make sure that an 
employee's pension benefit is not hurt by low wages in their 
final years of employment (such as annualization of pay or 
indexing pay).
---------------------------------------------------------------------------
    \11\ For example, if a retiree receives 50% of his/her Social 
Security benefits, then the actuarial reduction (or actuarial increase) 
applicable at the commencement of the remaining half of their benefit 
would apply only to the remaining half of the benefit.
---------------------------------------------------------------------------

                          Effects on Employers

    Increasing Social Security's Normal Retirement Age will keep FICA 
taxes down, which employers will like. However, it may put more 
reliance for retirement benefits on the private pension system--
employers and employees. Thus, employers with retirement plans may end 
up paying for the Social Security fix anyway, through higher pension 
contributions.\12\ Employers without pension plans will get off free, 
unless their employees use this as a chance to demand a plan.
---------------------------------------------------------------------------
    \12\ Social Security Offset plans (and plans with temporary 
supplements to the Social Security NRA will automatically get more 
expensive, unless employers amend them.
---------------------------------------------------------------------------
    Alternatively, if employers don't improve their pension benefits, 
employees may end up working longer (if they can). An older work force 
will increase employer costs for other employee benefits (such as 
employee health, disability, life insurance, annual and sick leave) by 
as much as $10,000 per older employee that could have been replaced by 
a younger employee.\13\ If employers don't want an older work force and 
the associated costs, they can lay off the older employees (always a 
difficult thing to do) or encourage them to retire by improving the 
company pension plan, which also will be costly.
---------------------------------------------------------------------------
    \13\ Retaining older employees could decrease post-retirement 
health costs, but this would be offset to the extent that Medicare also 
increases its retirement age. Pension costs could also decrease for 
employees over the Normal Retirement Age (unless actuarial increases 
are provided along with accruals).
---------------------------------------------------------------------------
    Due to a huge increase in the number of retirements that will occur 
early in the next century, unemployment will probably continue to 
recede. When the labor force decreases in size (i.e., low supply), 
wages tend to increase. This could occur unless each worker becomes 
much more productive, or foreign workers are used. Later retirement 
ages (normal and earliest) in Social Security and employer pension 
plans could help reduce this concern. Employers may want to rethink 
their retirement strategies and encourage employees to stay on (at 
least part-time). Phased retirement may become popular, but IRS 
regulations \14\ would need to be revised to allow in-service 
distributions to be payable before a pension plan's Normal Retirement 
Age. In addition, it is quite difficult for employers to increase their 
Retirement Ages in tandem with Social Security, unless pension law 
allows higher normal retirement ages than age 65 and relaxes the rules 
against decreasing benefits.\15\ Otherwise, employers will have to 
calculate 2 separate pension amounts for service before and after each 
change in the retirement age. This will be very complex. It appears 
that Congress can increase Social Security retirement ages the easy 
way, but they won't allow employers to. Finally, decreased Social 
Security benefits could necessitate changing the nondiscrimination 
rules to reduce the disparity in benefits.
---------------------------------------------------------------------------
    \14\ For example, Sec. 1.401-1(b)(1)(i) requires that retirement 
plans be exclusively for retirement and other incidentals.
    \15\ See the definition of Normal Retirement Age (65 & 5) in 
Sec. 411(a)(8), the maximum distribution age of 70\1/2\ for owners in 
Sec. 401(a)(9), the anti-cutback rule in Sec. 411(d)(6), and the 
commencement rules (65 & 10) in Sec. 401(a)(14).
---------------------------------------------------------------------------

                 Effects on the Social Security System

    Increasing the Normal Retirement Age would significantly 
reduce Social Security's long-term deficit and could add 
additional years of solvency to the trust fund. For example, 
gradually increasing the NRA to age 70 would solve about half 
of its financial problems. Increasing the NRA to age 73 would 
nearly eliminate the deficit.
    Increasing the earliest retirement age would reduce outlays 
(creating more surplus) in the years that it is implemented. It 
would also solve about 10% of the long-term deficit. This 
occurs even though the early retirement reductions are 
actuarially equivalent,\16\ because they only compensate for 
the fact that the recipient gets the benefits for more years. 
It doesn't compensate for the fact that Social Security will 
get tax contributions for fewer years.\17\ This is particularly 
significant if the NRA moves to age 70 and the Earliest remains 
at 62.
---------------------------------------------------------------------------
    \16\ Social Security's actuarial reductions are somewhat liberal 
when interest rates are high.
    \17\ One way to remedy this is to determine average earnings over 
40 years instead of over 35 years, as is currently done. However, 
Congress might want to allow drop out years for years of pregnancy and 
child care. There is already a rule for this in certain disability 
calculations.
---------------------------------------------------------------------------
    Indexing the Normal Retirement Age to increases in 
longevity (for example, by 1 month every year or two) would 
keep the system from going out of balance due to longer life 
spans. Then Congress wouldn't have to continually readdress 
this painful issue of fixing Social Security every 20 years, 
unless the economy went sour or birth rates decreased 
dramatically.
    Medicare, on the other hand, is not helped as much by an 
increase in its Retirement Age. For example, age 70 would 
reduce Medicare's deficit by only 0.3% of payroll or about 15% 
of its long-term deficit (Hospital Insurance only). This is 
because (1) disabled people would continue to get the Medicare 
benefits anyway and (2) most of HI's expenses are at very old 
ages. This also points out, however, that most of us are quite 
healthy between the ages of 65 and 70. Changing just Social 
Security's NRA to 70 (and not Medicare's) would also help HI's 
deficit, because Medicare is a secondary payer to employee 
health plans), but it would be less than the 15% solution cited 
above.
    All the above changes also encourage people to work longer. 
If the right jobs are available, this could increase the 
nation's productivity. This in turn increases both FIT and 
FICA/SECA taxes, which is good for government and can help us 
either lower taxes or improve other government programs.

               What Should the Normal Retirement Age Be?

    The last question is ``If we do increase the retirement 
age, what should it be?'' Here are some choices.
    Keep the NRA at age 65. It might be easier to understand 
this question if we look at extremes. Suppose for example that 
we lived on average to age 110. If the NRA stayed at age 65, we 
would receive benefits for 45 years on average, or as many 
years as we worked. Dependency ratios could be around one (1) 
worker per beneficiary, which is much worse than today. Thus, 
the system would be very expensive. In addition, indexed life 
annuities at age 65 might cost 90% more than they do today. 
Thus, a funded system would also be very expensive, because we 
would have to save 90% more over the same 45 year working 
lifetime to get the same replacement ratios. It's easy to see 
the financial difficulties with keeping the retirement age 
fixed at 65 forever.
    Pay Benefits for the Same Number of Years. Thus, one might 
consider indexing the retirement age, just like we now index 
the initial benefit to productivity levels at retirement. One 
way to do it would be for Social Security to provide benefits 
for the same number of years (i.e., keep the life expectancy at 
NRA the same). When Social Security was created, life 
expectancies at 65 were about 12.7 years.\18\ If we used this 
method, the NRA would be around age 72 today. It would have 
gone up 7 years in 6 decades. In that case, the ratio of 
workers to beneficiaries would continually go up and thus the 
costs of our unfunded system would generally decline under this 
suggestion. Similarly, in a funded system, the costs of buying 
the indexed annuity would remain the same. However, since it 
can now be funded over 7 more years (i.e., ages 65 to 72), the 
annual amount that needs to be saved would continually 
decrease.
---------------------------------------------------------------------------
    \18\ The Trustees' report uses composite life expectancies based 
solely on the death rates for the year in question. Actual life 
expectancies (with an assumed mortality improvement) for people living 
in that year might be more appropriate, especially in a funded system.
---------------------------------------------------------------------------
    Keep the ratio of years in retirement to the working 
lifetime the same. Another way to index the retirement age 
would be to determine the age that maintains the same ratio of 
retirement years to working years. This could be accomplished 
in several ways. One example would be to divide the life 
expectancy at NRA by the potential years worked (e.g., the 
years from age 20 to 65). This would be a compromise between 
freezing the NRA at 65 (which would dramatically increase 
costs) and freezing the life expectancy at NRA (which could 
dramatically decrease costs). In fact, it was recommended by a 
majority of the members of the 1983 National Commission on 
Social Security Reform. This idea could stabilize the costs of 
the system and it wouldn't go out of balance every year as 
another deficit year was added to the 75-year projection. If 
this idea had been used since the creation of Social Security, 
the NRA would be age 70 now. This is an easy calculation. 
However, it doesn't reflect whether our health is continuing to 
improve also. This could be handled by using a health index. 
For example, we could look at the disablement rates (or some 
sort of health index) at the NRA and prohibit an increase if 
the rates (or index) were getting worse. However, this has 
problems. A health index could be quite subjective and it could 
trap us into setting different Retirement Ages for men and 
women, and for different worker classifications, minorities, or 
income levels. Multiple retirement ages and provisions are some 
of the reasons the Chilean and other foreign systems were 
collapsing, so we may not want to open that Pandora's box.
    Maintain Same Cost Levels: Another method would be to use 
the calculation of the NRA to maintain a level cost for the 
system. Other similar methods would be to maintain the same 
dependency ratio of workers to retirees. In a funded system, it 
would require an actuarial calculation to maintain the same 
contribution or savings rate for each person. However, these 
methods entail a much more difficult calculation, and it would 
depend on many different assumptions about the future. For 
example, it could mean that the NRA could go up even if we 
weren't living longer--for example, if fertility rates declined 
or if the economy got worse. That might not be appropriate. In 
fact, it might be more appropriate for those variables to 
affect the tax rates. For example, if national birth rates 
decline, then maybe we should contribute more, not raise the 
retirement age.\19\
---------------------------------------------------------------------------
    \19\ Congress could index the system now, or wait until the 
problems occur. If they decided to index, there would need to be rules 
on how big the problem would have to be before change occurred, and how 
to phase it in gradually. Changes could be subject to an override by 
Congress and would need a cap on how much change could occur and how 
often a change could occur. There are many issues which would have to 
be worked out on this.
---------------------------------------------------------------------------

                               Conclusion

    Raising the retirement age is a difficult decision and 
gives us much to consider. We can't move ahead with it unless 
the people understand Social Security's financial problems and 
the effects of increasing the Retirement Age. It seems like an 
obvious fix since people are living so much longer. However, if 
raising the retirement age does not work because (1) many 
elderly people can't work longer (because of health reasons or 
mental inability), or (2) a huge percent just end up with 
disability benefits, or (3) the elderly can't get a job for 
lack of demand, or (4) because people perceive too little value 
for their contributions, then we will need to find other ways 
to fix Social Security. Whether privatization or focusing more 
benefits on low income workers (and reducing benefits for 
higher income workers) will solve the problem is unclear. What 
is clear however, is that Social Security will cost us a lot 
more if we cannot increase the retirement age (or decrease 
benefits). We would suggest that Congress use 1998 to educate 
the public and sufficiently consider all of the ramifications 
of any possible solution. Once again we commend the 
subcommittee for taking a leading role in educating the public 
on a very complex, but important topic.
      

                                <F-dash>

[GRAPHIC] [TIFF OMITTED] T2247.011

[GRAPHIC] [TIFF OMITTED] T2247.012

[GRAPHIC] [TIFF OMITTED] T2247.013

[GRAPHIC] [TIFF OMITTED] T2247.014

[GRAPHIC] [TIFF OMITTED] T2247.015

[GRAPHIC] [TIFF OMITTED] T2247.016

[GRAPHIC] [TIFF OMITTED] T2247.017

[GRAPHIC] [TIFF OMITTED] T2247.018

      

                                <F-dash>

    Chairman Bunning. Thank you very much.
    I'd like, since we have another panel to follow, and some 
of us have other places to be, Dr. Burkhauser, in your 
testimony, you seem the most convinced, out of all our 
panelists today, that not only is it possible for Social 
Security policy to encourage workers to stay in the work force 
longer, but that changes in the public policy in a strong 
economy have already ended the trend toward early retirement. 
At least that's what I heard you say.
    Would you provide more details as to how you reached this 
conclusion? And do your conclusions differ based on specific 
cohorts by gender or by ethnic background?
    Mr. Burkhauser. These aren't my statistics. These come from 
the Current Population Survey, which looks at the labor force 
participation rates of men and women by age group. If you go 
through some of the tables in my formal statement, you'll see 
that, since 1985, the trend toward lower labor force 
participation rates, which had gone on since the fifties, has 
stopped, and in fact in certain age groups over the age of 62 
they actually increase. For women, that's happening mainly 
because labor force participation rates of younger women are 
rising, and therefore, there are more women in the labor force 
in their fifties. For men, I believe it's occurring because men 
are not so much staying longer at their career jobs, but are 
working in a new job after they've left their career jobs.
    The evidence is now very strong that this trend toward 
earlier and earlier retirement is over, and it's in part due to 
the 1983 Social Security Amendments which have reduced a lot of 
the biases in the Social Security system against working at 
older ages. Congress has raised the actuarial adjustment after 
age 65. You've also raised the earnings test amounts, and these 
signals that work will be rewarded have been picked up. Older 
people are working more because of them.
    Chairman Bunning. Do you think the employer also adjusts?
    Mr. Burkhauser. I think that employers are very sensitive 
to the rules of the game. For instance, a few years ago, to 
save some money, Congress changed the way that Medicare 
payments were paid. Medicare used to be the first provider of 
health insurance for older people. To save some money for the 
government, Congress made private employers the first payer. If 
you look at where the jobs are increasing for older people, 
they're mostly in companies that don't have health insurance 
because in those companies, whether you're old or young doesn't 
make any difference. If you wanted to do something about 
allowing older workers to stay longer in the workplace, go back 
to making Medicare the first provider of health care. Don't 
penalize workers by lowering the value of their Medicare 
protection because they want to work.
    Mr. Bernstein. Mr. Bunning, may I comment on that? I agree 
with that. It's in my prepared testimony, that the Medicare 
requirement's not only for retirees, but for their dependents, 
create a hurdle for the continued employment of older people.
    Chairman Bunning. Under a program where the employer 
furnished medical benefits?
    Mr. Bernstein. That's correct.
    Chairman Bunning. OK.
    Mr. Bernstein. I would point out also that Social Security 
probably plays a much more minor role than private pensions do. 
That's the import of the data presented by Dr. Burkhauser. 
Footnote 3 of his statement, he says, ``Unless major changes 
take place in employer pensions, these changes alone in Social 
Security will have only a minor effect on employment.''
    Mr. Gebhardtsbauer. Mr. Chairman, I was just wondering if I 
could add one thing. Employer pension plans right now often 
have used 65 as the age for retirement, and the laws in the 
pension law right now make it very difficult to increase that. 
Congress has increased Social Security's retirement age to 67, 
but it's more difficult for employers to do something like that 
now. And you might consider some consistency there in allowing 
employers to do the same thing.
    Chairman Bunning. Most employers set that as the normal 
retirement age, but they allow you to take early retirement, 
just like Social Security, with a lesser pension or a lesser 
program actuarially from the 65 years. The buyouts and things 
that are being offered by major corporations are trying to get 
people to age 65, generally speaking.
    Mr. Bernstein. Frequently, though, when they permit people 
to go out, to retire before age 65, it's without actuarial 
reduction, frequently.
    Chairman Bunning. Well, as an incentive to get them out.
    Mr. Bernstein. No, as a regular proposition.
    Chairman Bunning. I haven't run into many of those people.
    Mr. Portman.
    Mr. Portman. I want to thank the panelists. I have a lot of 
questions, but I'm really intrigued by this notion that was 
raised by Mr. Gebhardtsbauer at the end about part-time work 
and phased retirement and getting back to the earnings limit 
discussion that we started to have earlier with the 
Commissioner.
    I've read your testimony on it, and I've heard what you 
have to say. You've obviously given this some thought, and I 
think it would be helpful to the Subcommittee if you would 
flesh it out even further.
    But I think what you're saying--and correct me if I'm 
wrong--is that, particularly as we get beyond this 2008 
crossing of the lines where there will be more encouragement 
naturally among employers to keep older workers and to provide 
opportunities for them, is to allow people to take a part of 
their benefit, maybe half of their Social Security benefit, and 
continue to work. In essence, that would replace the earnings 
limit. It would have an impact similar to the earnings limit, 
but not as onerous, because they could still get half their 
Social Security benefit. So, in essence, the benefit would be 
postponed, but they'd be working part time.
    What would the impact be on the Social Security system? 
Have you analyzed that?
    Mr. Gebhardtsbauer. OK, thank you for asking. By the way, 
the reason why I came up with this idea, or some of us came up 
with the idea initially, was regarding choice. In the 
individual account area you have more choice in your retirement 
age than in the Social Security area. I thought, well, what's 
the concern there? I realized, oh, it's the earnings test. 
That's sort of Social Security telling you when you really are 
retiring. If you're earning some money, then you really 
haven't, so they deduct something from your benefits.
    Mr. Portman. I guess one of the intriguing parts about it--
it does give older Americans more choice.
    Mr. Gebhardtsbauer. Right.
    Mr. Portman. Many, perhaps, as Mr. Bernstein was saying 
earlier, don't feel they, in fact, have.
    Mr. Gebhardtsbauer. In addition, as you point out, if we 
get to the point where employers want more labor, they may use 
this idea to keep their part-time employees, because, as we 
mentioned earlier, it's more expensive to have them, but if you 
can reduce their pay, then the expense doesn't go up. So it 
helps you keep people around working, but the payroll doesn't 
continue to go up, and have all these more expensive benefits.
    Finally, how would you do it? You said it pretty clearly. 
Like the Federal plan, for instance, a retiree can come back to 
work and work, say, 60 percent, 3 days a week and get 40 
percent of their Federal benefits.
    And, finally, the effect on Social Security, right now 
we've talked about how you have a delayed retirement credit. 
It's sort of an actuarial increase. If you work longer and 
don't get a benefit, then your benefit is much larger when you 
actually do get the benefit. So by getting the benefit now, 
you're getting less. So in the long run, it's about the same 
amount of money if the actuarial reduction is about right or if 
the actuarial increase is about right.
    There are a couple of other concerns, and I wanted to 
mention them earlier. And one is that there are other reasons 
why you improve your benefit, if you continue to work, and that 
is, you continue to improve your 35-year average salary. But 
after a certain point, after you've gotten 35 years, it doesn't 
really help you that much. So you might want to consider 
changing that to make it more cost neutral to Social Security, 
so that it becomes something like a 40-year average instead of 
a 35-year average. That would make it even more cost neutral.
    But initially, you would have the problem that more people 
would be getting benefits now, and so cashwise up front and 
short term it is a little bit more expensive. But in the long 
run, it's cost neutral to Social Security.
    Mr. Portman. Because of the fact they would be paying in 
during that period as well, and not taking the benefit as soon?
    Mr. Gebhardtsbauer. Right.
    Mr. Portman. Dr. Myers.
    Mr. Myers. With regard to the suggestion that the 
computational period ought to be extended and be longer than 35 
years and go up to 40 years, I think this would be very 
undesirable because it would primarily affect women workers, 
because they have enough trouble getting 35 years, of covered 
employment, considering that many of them are homemakers for a 
while. So I think increasing the averaging period would be a 
step in the wrong direction.
    Mr. Gebhardtsbauer. I have something in my testimony that 
speaks to that, because that's a very good point. What you 
would do is you would have dropout years for women for child 
care, for reasons like that, you drop out the years. So instead 
of having 40, they would get 40 minus 5, or 35, if they had 5 
years of child care and pregnancy. In fact, that's already done 
in the disability area a little bit. So it's not something that 
would be impossible to do.
    Mr. Burkhauser. You should be careful about whether it 
affects homemakers, though. Most homemakers are married. Their 
benefits are based primarily on their husband's earnings, not 
on theirs. What they pay into the system, They often get no 
additional benefits out of what they pay into the system, and 
there are almost no women whose survivors' benefits are based 
on their own contributions; almost they are based solely on 
their husband's.
    Mr. Gebhardtsbauer. And that's another area where you 
should be looking into making changes to the system.
    Mr. Portman. I'm making a general comment. I think what we 
talked about today in terms of the earnings limit and its 
replacement by something like this has a lot of potential, and 
obviously it has an impact on pension policies, you said, and I 
agree with you on the age 65 and the pension policy. That's 
quite controversial, and we need to be sure it was done in 
concert with these other things.
    In Medicare, as you said--it reminds me a little bit of the 
welfare debate. To get people to work and to encourage people 
to work, it needs to be looked at at a much broader context. So 
I hope that you can provide some more information on that, and 
other panelists as well.
    I'm going to ask one final question, and I'm going to put 
it out on the table here at the start, Mr. Chairman. I'm 42. 
Can we go through the panel here--is this a privacy matter that 
we shouldn't get into? Dr. Myers, can you tell us your age?
    Mr. Myers. Yes, 85.
    Mr. Portman. Eighty-five?
    Mr. Bernstein.
    Mr. Bernstein. Next month I'll be 75.
    Mr. Portman. Seventy-five. You're 85 and 75. I want to 
commend you both for your excellent testimony today.
    Dr. Burkhauser, you called yourself a baby boomer.
    Mr. Burkhauser. Fifty-two.
    Mr. Portman. Fifty-two--we'll let you in on the edge.
    Mr. Burkhauser. OK.
    Mr. Gebhardtsbauer. And I'm in the middle of the baby boom; 
I'm 45.
    Mr. Portman. All right, thank you, Mr. Chairman. Thank you, 
gentlemen.
    Chairman Bunning. Gentlemen on this panel, I want to make 
sure you understand that we may submit further questions in 
writing to you, since we have another panel following you. 
Thank you for your testimony.
    [Questions were submitted by Chairman Bunning to Mr. Myers. 
The questions and responses follow:]

    Question 1. In your testimony you say that you believe that as 
people live longer, they should and will be able to work longer. Thus 
the definition of retirement age should be a dynamic one. Yet, Dr. 
Myers, we know that last year three/fourth of those who retired, 
retired early. Do you see it as the Congress's job to require people to 
stay in the workforce? While older individuals may in fact want to stay 
in the workforce, how can we be sure that employers will make jobs 
available?
    The first question relates to my belief that, as people live 
longer, they should and will be able to work longer. I fully realize 
that, currently, most people retire early and that, in the future, they 
may wish to also do so. However, the Social Security program and its 
financing should not be an undue burden on the working population, and 
its costs should not be excessive because of people's early retirement. 
If people wish to retire early, they should finance it themselves.
    Question 2. You mention that current law provides just over a 10-
year plateau at age 66 before the retirement age begins gradually 
moving up again to reach 67. Would you provide more details as to why 
the law provides for this plateau?
    The second question relates to the 10-year plateau in the full-
benefits retirement age when it first reaches age 66. This was done in 
the 1983 Act, rather than going continuously up to age 67, because the 
latter course of action would have produced a significant estimated 
positive long-range actuarial balance (or surplus), and the intention 
underlying the legislation was to have a very close to zero actuarial 
balance result.
    Question 3. You propose eliminating the plateau in current law, and 
also continuing increasing the retirement age by two months for each 
year of birth indefinitely into the future. You also advocate for 
raising the early retirement ago once the normal retirement age hits 
67, so that it is always 5 years lower than the normal retirement ago. 
The remainder of the long-term deficit in your view, could be made up 
by what you consider ``noncontroversial'' changes such a covering all 
new State and local government employees, making the provisions for 
income-taxing benefits the same as are applicable to pensions, and 
correcting the consumer price index. Most, if not all of these 
``fixes'' are controversial, and translate into real benefit cuts for 
our young people today. Do you have any suggestions for program changes 
that would be embraced by young people?
    The third question relates to what I referred to as 
``noncontroversial'' changes. I used this phrase because all such 
changes were agreed to unanimously by the recent Advisory Council on 
Social Security. I believe that these changes are reasonable and are 
fair to young people. As to changes which would be embraced by young 
people, within the context of the present program, most persons like 
neither benefit-cost reductions or tax increases, and yet one or the 
other (or both) seem to be needed.
    Question 4. I'm interested in knowing your views on the degree to 
which age discrimination may ultimately prevent increased participation 
of older workers in the work force.
    The fourth question relates to possible age discrimination 
ultimately preventing the increased participation of older workers in 
the work force as the full-benefits retirement age is increased. 
Because such increase is very gradual, I believe that, in one way or 
another, such discrimination will not occur, as the country (and 
especially the employers) realize that this should not occur, in the 
best interest of all concerned.
    Question 5. Will there be enough jobs for older workers, jobs with 
the level of physical activity that most persons over age 67 can 
perform?
    The fifth question relates to whether there will be enough jobs for 
older workers, considering the level of physical activity which they 
will have. I believe that, as in the past, there will be fewer and 
fewer jobs requiring a high level of physical activity. Even more 
importantly, I think that, as longevity increases, so too will the 
ability to do physical activity at any particular age (e.g., in the 
distant future, a person aged 70 will have at least as much ability to 
do physical activity as can a person aged 65 today).
    Question 6. Do you have thoughts on how the increasing number of 
older workers might impact rates of unemployment, job opportunities, 
and career advancement for younger workers?
    The sixth question relates to whether the increasing number of 
older workers might impact rates of unemployment, job opportunities, 
and career advancement for younger workers. Considering that the 
relative (but not necessarily, absolute) number of younger workers will 
decrease over the long run, I believe that a gradual increase in the 
number of older workers as the full-benefit retirement age rises, would 
likely work out equitably for both younger and older workers. 
Obviously, if older workers tend to continue retiring at age 65 (or 
even earlier), this would be more favorable job-wise for younger 
workers (although they would have to pay more, directly or indirectly, 
for the support of the aged population). However, I think that a good 
and equitable balance as to employment conditions would develop as 
between younger and older workers.
      

                                <F-dash>

    [Questions were submitted by Chairman Bunning to Mr. 
Gebhardtsbauer. The questions and responses follow:]

    1. In your testimony, you discuss the importance, when increasing 
the retirement age of avoiding any sudden decline in benefits, and 
therefore avoiding a ``notch.'' How was this avoided in the 1983 
amendments and how can we be sure to avoid it in the future, should an 
increase in the retirement age occur?
    There were many changes in the 1983 amendments that did not 
decrease benefits and thus avoided the notch problem. However, it did 
increase the Normal Retirement Age (NRA), or age for full benefits, 
which could be perceived as a decrease in benefits, if someone still 
takes their benefit at the same age. As I stated in my testimony 
(including footnote 1), if someone born in say 1938 ``still retires at 
age 65, their retirement benefit will be about 1% lower \1\ than if the 
Normal Retirement Age had remained at age 65. If the NRA had increased 
to age 66 all in one year, benefits would have dropped immediately by 
about 7%. This large decrease would be similar to the notch baby 
benefit decreases which caused much alarm among the elderly in the 
1980's. Phasing in the increase in retirement age over 6 years from 
2000 to 2005 avoids this problem.'' As I stated in my footnote, when 
wage increases exceed the CPI, it reduces (and can eliminate) the size 
of the notch. By a notch, I mean someone getting a benefit in early 
January that is less than a similar person (born a week earlier) 
retiring in late December of the prior year. In addition, the change 
was delayed until the year 2000, so not much fuss was made over this 
change in 1983. It only affected people who were age 45 or younger at 
the time. That was probably more than enough lead time back then.
---------------------------------------------------------------------------
    \1\ Since people born in 1938 get their wages indexed one more year 
than people born in 1937 (and one less COLA), there is little 
likelihood that a notch will occur (assuming the wage index for 1997 
wages will be more than the COLA in 1999). Even a 4 year phase-in would 
probably not create a noticeable notch.
---------------------------------------------------------------------------
    Some people do not consider increasing the retirement age as a 
decrease in benefits because we are living longer. They would contend 
that future retirees will live longer than current retirees, and thus 
get benefits for just as many (or more) years. In town hall meetings 
across the country sponsored by Americans Discuss Social Security and 
the Pew Charitable Trusts, we have found that people don't categorize 
``Increasing the Retirement Age'' with benefit decreases. In 
electronically-taken votes, people ranked the 3 major benefit decreases 
(benefit decreases across the board, reduced COLAs, and increased taxes 
on Social Security benefits) at the bottom of 10 options, while ranking 
``Increase the Retirement Age'' at 3rd from the top. See chart showing 
rankings at the forums.
    Thus, ways to avoid the notch problem are to:
    (a) Phase-in each one-year increase in Normal Retirement Age over 6 
years (4 years might be enough, if wage increases are expected to 
exceed the CPI by more than 1%), and
    (b) Delay its effective date (so that near-retirees who are already 
planning their retirement are not affected).
    Other ways, of course, are to not decrease benefits directly (e.g., 
increase payroll taxes, increase coverage, increase taxes on benefits, 
delay or reduce COLA's, or decrease the benefits of a small group, 
etc.).
    2. What are the advantages to creating a minimum benefit level 
through Social Security reform and how would that work? What are the 
advantages and disadvantages?
    We will respond to this question, by analyzing the proposal for a 
minimum benefit equal to 100% of the poverty level from the National 
Commission for Retirement Policy (Center for Strategic and 
International Studies).
    Minimum Benefit would offset benefit decreases to low paid: Under 
the CSIS/NCRP proposal, Social Security would provide a minimum benefit 
equal to 100% of the poverty level (currently almost $8,000 per year), 
beginning in 2010. This would offset to some degree changes in their 
proposal that decrease benefits (e.g., Increasing the Normal Retirement 
Age (NRA), using more years in Average Indexed Monthly Earnings (AIME), 
BLS reductions in the CPI that is used for indexing benefits, reducing 
survivor benefits, reducing the benefit formula, no mandatory 
annuitization or pre-retirement withdrawal restrictions \2\).
---------------------------------------------------------------------------
    \2\ It was unclear whether CSIS/NCRP mandated annuitization of 
their Individual Security Accounts or restricted pre-retirement 
withdrawals.
---------------------------------------------------------------------------
    Cost: Of course, a minimum benefit also increases costs, but 
probably not as much as expected, due to the progressive nature of the 
benefit formula and subsidies in spousal benefits.\3\ It would reduce 
the costs of the Supplemental Security Income (SSI) program.
---------------------------------------------------------------------------
    \3\ The CSIS/NCRP proposal for a minimum benefit equal to the 
poverty level could also have been deceptively less expensive, since 
poverty levels may only increase with inflation. However, it appears 
that they did not take the easy (less expensive) choice. Their initial 
minimum benefit is wage-indexed after 2010. This implies that 
productivity gains in the economy will be shared with all retirees (at 
the point of their retirement), including low income ones. After 
retirement, their benefit would increase with just inflation, like 
other retirees' benefits.
---------------------------------------------------------------------------
    Disincentives to Work: Flat minimum benefits can create a 
disincentive to work, once their eligibility rules have been satisfied. 
(After that point, the marginal money's worth can drop to zero for 
awhile.) The NCRP proposal reduces this concern by phasing the minimum 
benefit in over 40 years of work.\4\ Thus, the more years worked, the 
greater the benefit. Under their proposal, the 60% of poverty benefit 
after 20 years of work would phase into 100% after 40 years of work. A 
low income person would have some disincentives to work (or report 
income or pay taxes) after 40 years of service, which could be reached 
by someone age 58. If the formula was 2 % times the number of years 
worked, the incentive to work would continue beyond 40 years of work. 
Someone with 50 years of work would then get 125% of poverty level. 
This approach may not increase costs much. If you want to preserve the 
60% after 20 years of work, the formula could use 3% times the first 20 
years worked. Under this formula, someone with 50 years of work would 
get 120% of the poverty level. The costs should not be much different.
---------------------------------------------------------------------------
    \4\ This would need to be defined. It could be say 15% of the wage 
base. Once reached, some might stop working.
---------------------------------------------------------------------------
    Some will not receive the full poverty level benefit: In order to 
have incentives for working, some people (who cannot work the full 40 
years) will not receive the 100% poverty benefit. Therefore, the NCRP 
proposal's benefit reductions will create some inadequate benefits for 
some people. The government may have to pay them public assistance, 
which means government may have to pay the costs anyway. Furthermore, 
without a full poverty benefit, a proposal may then have to mandate 
annuitization of the Individual Accounts.
    No Minimum for 19 years of work or less: The NCRP proposal creates 
a large cliff at 20 years of work, below which, a worker would get no 
minimum benefit. Providing proportionately lower benefits for workers 
with less than 20 years of work should not cost much. The benefit would 
be inadequate of course, but so is the benefit after 21 years (equal to 
62% of poverty level). We are unaware of any concern, abuse, or moral 
hazard that minimum benefits would cause for people with short work 
histories. Eliminating the 20-year requirement would be simpler, 
provide benefits proportional to years that contributions were made, 
and not have any cliff effect, which would primarily affect low-paid 
immigrants and women who care for children. In fact, lowering the 20-
year requirement could create incentives for people with short work 
histories to work more.
    Early Retirement Reductions: If the minimum poverty level benefit 
is not reduced by early retirement reduction factors (and increased by 
delayed retirement factors) just like other PIA benefits, there will be 
a strong incentive to retire when first eligible. If it is reduced, 
then the benefit payable before NRA will be less than the poverty level 
(e.g., it would be 30% less in 2029 when the NRA reaches 70 for someone 
retiring at age 65). If the minimum benefit was set at 150% of poverty 
levels at the NRA then the age 65 ERA benefit would be at least 100% of 
poverty level. The benefit could reach 150% at age 70, if the formula 
was 3% times years worked (e.g., 3% x 50 years of work = 150%).
    Disability Benefit: Under the NCRP proposal, it is unclear whether 
an individual receiving the disability benefit would get the minimum. 
If yes, and if total income exceeded income while working, there would 
be little incentive for rehabilitation and returning to work. Current 
rules limit disability benefits so that total income is less than 80% 
of average earnings, and that could help allay this concern if applied 
here too.
    Spouse Benefits: Should the dependent spouse of a worker receive 
the full poverty minimum? If yes, then the couple will receive more 
than the poverty level for a couple. If the spouse receives 33% of the 
poverty level, it will be closer to the poverty level for a couple. 
Also, we assume that the surviving spouse will also receive the minimum 
poverty benefit because very elderly single women have the highest 
poverty levels among the elderly.
    Minimum could be a windfall: The minimum could provide an 
individual with a benefit that is larger than recent salary amounts for 
the person, and thus could encourage them to retire. Having a maximum 
equal to the worker's Highest 5 year salary average (or something 
similar to the disability maximum) would reduce this problem.
    3. Can Americans be encouraged to work longer? (and how?)
    Retirement policy is one way to affect American's retirement 
decisions. Here are some ideas:
    Retirement Ages May Be Increasing: Recently, labor force 
participation rates (see charts) have increased, possibly due to (for 
example) a relaxation of the Social Security retirement earnings 
test.\5\ This also shows that some people can work at age 70. In 
addition, 401(k) plans don't subsidize pensions at younger retirement 
ages, like traditional retirement plans. If 401(k) participants want to 
retire early, they have to suffer the full actuarial reduction. This 
may force many people to work longer in the future.
---------------------------------------------------------------------------
    \5\ Workers over 70 can now earn a wage and not have their Social 
Security benefit reduced.
---------------------------------------------------------------------------
    Delayed Retirement Ages or Reduced Benefits: The labor force charts 
also show that Americans used to work to later retirement ages. The 
average male worked to age 70 before Social Security and Medicare 
(inter alia) inadvertently encouraged them to retire earlier. With not 
only our life spans improving, but also our health improving,\6\ it 
would be possible for most people to work longer. If Social Security, 
SSI, Medicare, and Medicaid delayed or reduced benefits at younger 
ages, people would be more likely to work longer in order to have a 
secure retirement. Eliminating benefits at younger ages would have an 
especially powerful effect. That's because many people may still take 
reduced benefits at younger ages even if they are not adequate.
---------------------------------------------------------------------------
    \6\ See Chronic disability trends in elderly US populations: 1982-
1994 by Manton, Corder, & Stallard. In 1982, 14.1% of elderly between 
65 and 74 were IADL (Instrumental Activities of Daily Living) or ADL 
impaired or institutionalized. In 1994 this decreased to 11.5%. For 
ages 75 to 84, it dropped from 31.9% to 26.9%.
---------------------------------------------------------------------------
    Decrease Social Security Benefits: Proposals to decrease Social 
Security benefits may also encourage us to retire later. However, even 
though they are similar to proposals that increase the NRA, they may 
not register until too late. Most people don't know what their Social 
Security benefit amount is, so decreasing it won't affect their 
thinking now. Only when they reach age 65 will they realize how much 
the benefits dropped. At that point, they will finally realize that 
they have to work until a much later age. Thus, raising the retirement 
age could be the more effective way of making changes to Social 
Security. It is more likely to affect our thinking now than just 
decreasing benefits.
    Relax or Eliminate Retirement Earnings Test: Another chart shows 
how Social Security has a clear and direct impact on people's decision 
to work. The chart shows that large numbers of older people work up to 
the retirement earnings test exempt amounts and then stop. This not 
only shows that Social Security affects our decisions, it also points 
to another way for Social Security to encourage us to work--by 
eliminating (or increasing) the retirement earnings test exempt 
amounts. Social Security actuaries estimate that this would not hurt 
the actuarial balance. However, it does increase cash outlays in the 
short term.
    35-Year Average Earnings: Another way is to modify the benefit 
formula. Currently, many people commence benefits at age 62. That's 
because, even though there is a 20% penalty for early retirement, the 
Social Security PIA benefit is not improved much after a person has 35 
years of work. Paying more contributions after 35 years of work does 
not improve the benefit much. This could be changed by determining 
average wages over say 40 years rather than 35 years (or NRA minus 20 
minus 5 drop out years, which would automatically update it when NRA is 
changed). However, this change could hurt women who leave the workforce 
for children. This concern can be alleviated by allowing additional 
drop out years for taking care of children up to age 5 for example. The 
law already allows drop out years for women caring for children for 
some disability calculations.
    Allow/Encourage increased retirement ages in Private Sector Pension 
Plans: The current Internal Revenue Code (IRC) still references age 65, 
59, and 70 for various pension-related rules.\7\ (A couple IRC rules 
reflect the new Social Security NRA, but not many.) These ages could be 
updated, to encourage employers to raise the ages in their pension 
plans. In addition, Congress changed the Social Security NRA without 
protecting prior benefit promises. If Congress gave employers some 
flexibility in this area, it might make it easier for employers to 
increase retirement ages in their pension plans. This should be changed 
only after careful study.
---------------------------------------------------------------------------
    \7\ See the definition of Normal Retirement Age (65 & 5) in 
411(a)(8), the maximum distribution age of 70 for owners in 401(a)(9), 
the anti-cutback rule in 411(d)(6), and the commencement rules (65 & 
10) in 401(a)(14).
---------------------------------------------------------------------------
    Provide some flexibility to employers to encourage hiring older 
workers: As I testified, older workers can cost more due to higher 
health costs, etc. If Congress added some flexibility to the Age 
Discrimination in Employment Act, so that total compensation costs for 
older employees did not have to increase, then employers might be more 
willing to hire and retain older workers. Rules making it easier to 
have phased-retirement would also help. For example, IRS regulations 
could be changed to allow in-service distributions to be payable before 
a pension plans's NRA \8\ and partial Social Security benefits could be 
paid to reflect an older person's phased retirement.
---------------------------------------------------------------------------
    \8\ IRS reg 1.401-1(b)(1)(i) requires that retirement plans be 
exclusively for retirement and other incidentals.
---------------------------------------------------------------------------
    4. How is the Congress sending mixed signals about its policies on 
retirement age and what issues are the most important for us to address 
to ensure consistency?
    Social Security is moving its retirement age to 67, but Medicare is 
still 65. In addition, the federal laws for employer-sponsored pension 
plans still use age 65. (Note: If Congress amended pension law to use 
the same ages as Social Security, some companies might take advantage 
of it. This could be a revenue raiser for the government, because 
employer contributions could go down--or at least not go up.) Another 
inconsistent signal is the requirement that IRA's and some certain 
pension benefits begin their distributions by age 70 even if the 
individual wants to continue to work. Raising the 70 would defer 
government revenue however. You could also raise the 59 age for 
earliest distributions, but that could discourage people from putting 
money into IRAs and 401(k) plans, since it would lock the money up 
longer. It would also be a revenue loser for the government.
    5. What do you see as possible options for indexing the retirement 
age and what are the advantages and disadvantages of each?
    As provided in my written testimony, here are some choices.
    Pay Benefits for the Same Number of Years. One way to index the NRA 
would be for Social Security to provide benefits for the same number of 
years (i.e., keep the life expectancy at NRA the same). When Social 
Security was created, life expectancies at 65 were about 12.7 years 
\9\. If we used this method, the NRA would be around age 72 today. It 
would have gone up 7 years in 6 decades. (This figure is cited to show 
what the effects would be if this had always been in law. If you change 
the law now, you would probably not go back to the 1930's, but start 
the change at a current or future date.)
---------------------------------------------------------------------------
    \9\ The Trustees' report uses composite life expectancies based 
solely on the death rates for the year in question. Actual life 
expectancies (with an assumed mortality improvement) for people living 
in that year might be more appropriate, especially in a funded system.
---------------------------------------------------------------------------
    Under this method, the ratio of workers to beneficiaries would 
continually go up and thus the costs of our unfunded system would 
generally decline under this suggestion. Similarly, in a funded system, 
the costs of buying the indexed annuity would remain the same. However, 
since it can now be funded over 7 more years (i.e., ages 65 to 72), the 
annual amount that needs to be saved would continually decrease.
    Keep the ratio of years in retirement to the working lifetime the 
same. Another way to index the retirement age would be to determine the 
age that maintains the same ratio of retirement years to working years. 
This could be accomplished in several ways. One example would be to 
divide the life expectancy at NRA by the potential years worked (e.g., 
the years from age 20 to 65). This would be a compromise between 
freezing the NRA at 65 (which would dramatically increase costs) and 
freezing the life expectancy at NRA (which could dramatically decrease 
costs). In fact, it was recommended by a majority of the members of the 
1983 National Commission on Social Security Reform. This idea could 
stabilize the costs of the system and it wouldn't go out of balance 
every year as another deficit year was added to the 75-year projection. 
If this idea had been used since the creation of Social Security, the 
NRA would be age 70 now. This is an easy calculation. However, it 
doesn't reflect whether our health is continuing to improve also. This 
could be handled by using a health index. For example, we could look at 
the disablement rates (or some sort of health index) at the NRA and 
prohibit an increase if the rates (or index) were getting worse. 
However, this has problems. A health index could be quite subjective 
and it could trap us into setting different Retirement Ages for men and 
women, and for different worker classifications, minorities, or income 
levels. Multiple retirement ages and provisions are some of the reasons 
the Chilean and other foreign systems were collapsing, so we may not 
want to open that Pandora's box.
    Maintain Same Cost Levels: Another method would be to use the 
calculation of the NRA to maintain a level cost for the system. Other 
similar methods would be to maintain the same dependency ratio of 
workers to retirees. In a funded system, it would require an actuarial 
calculation to maintain the same contribution or savings rate for each 
person. However, these methods entail a much more difficult 
calculation, and it would depend on many different assumptions about 
the future. For example, it could mean that the NRA could go up even if 
we weren't living longer--for example, if fertility rates declined or 
if the economy got worse. That might not be appropriate. In fact, it 
might be more appropriate for those variables to affect the tax rates. 
For example, if national birth rates decline, then maybe we should 
contribute more, not raise the retirement age.\10\
---------------------------------------------------------------------------
    \10\ Congress could index the system now, or wait until the 
problems occur. If they decided to index, there would need to be rules 
on how big the problem would have to be before change occurred, and how 
to phase it in gradually. Changes could be subject to an override by 
Congress and would need a cap on how much change could occur and how 
often a change could occur. There are many issues which would have to 
be worked out on this.
---------------------------------------------------------------------------
    NRA changes in law or updated by Social Security's Actuaries: The 
law could specify the increase in the retirement age, as it does now. 
Currently, the law stops the increases at age 67. If, as expected, we 
continuing living longer, the system will go out of balance again. A 
gradual increase in the retirement age would keep the system in balance 
(which keeps the trust fund stable in the out years). Thus, some 
proposals increase the NRA by 1 month every 2 years. Other proposals 
increase it by as much as 2 months every year. One can use different 
periods in the past (or in projections) to support either of these 
indexing proposals (or something in between).
    An alternative, would be to set the increase in law, but allow the 
Social Security Actuaries to adjust it if and when life spans change 
faster or slower than expected (within constraints set by Congress and 
subject to their override). This would help Congress avoid reopening 
the difficult debate on how to fix Social Security every 20 years or 
so. However, some people might contend that it is not appropriate for a 
non-elected individual (Social Security's Chief Actuary) or agency to 
adjust something this important. (However, it should be noted that BLS 
economists can affect the COLA amounts, and Canada has invested similar 
powers in its government actuary.) Another concern is that people like 
to know their NRA in advance. A response would be that Congress could 
set constraints on the adjustments, so that no one over age 55 would be 
affected.
    6. I'm interested in knowing your views on the degree to which age 
discrimination may ultimately prevent increased participation of older 
workers in the work force.
    An SSA publication by John Straka, The Demand for Older Workers, 
asserts that employers that limit the number of older workers (or 
reduce their earnings) do so for productivity and market efficiency 
reasons and not for prejudicial discriminatory reasons. He bases this 
on his theory that (ultimately) in an efficient market, people are paid 
what they are worth. He also says that job opportunities for older 
workers will be mostly confined to relatively low-paying, labor-hungry 
sectors and occupations such as certain retail and clerical work and 
part-time or temporary work (e.g., on holidays). These jobs may not be 
attractive to many elderly workers who once had well-paying jobs. His 
position is that the Age Discrimination in Employment Act (ADEA), 
shortages of younger workers, and SSA policies to encourage work will 
not be adequate to both get jobs for the elderly and safe-guard their 
well-being. He suggests more subsidized training and resources for 
older job searchers.
    My expertise in this area is limited, so I will just discuss those 
areas with which I am familiar. In my testimony I noted that in 10 
years, employers may need more workers due to the start of the 
retirement of the baby boomer generation. (See chart showing declines 
in Increase in Labor Force.) This may already be happening. 
Unemployment levels are decreasing dramatically, and this could 
encourage the retention and hiring of older workers. Anecdotal evidence 
is that many older workers that were laid off in the early 90's have 
been rehired (at least on a part-time basis).
    However, it is still true that the employee benefits of older 
workers can cost more \11\ than for a younger employee. Unless 
employers can offset this higher cost somewhere else, they may prefer 
hiring anyone else that is cheaper (e.g., younger workers, aliens, 
part-time older workers who don't have to get employee benefits, etc.). 
Thus, ironically, Congress could decrease discrimination by relaxing 
the Age Discrimination in Employment Act to allow, for example, 
employers to offset salary increases by increases in an employees 
health costs.
---------------------------------------------------------------------------
    \11\ Especially health costs, although the existence of a post-
retirement health plan or unreduced pension plan benefit can offset 
this higher active employer health cost.
---------------------------------------------------------------------------
    7. Will there be enough jobs for older workers, jobs with the level 
of physical activity that most persons over age 67 can perform?
    The issue of whether there will be enough jobs ultimately depends 
on the nation's economy/productivity. However, as discussed above, the 
retirement of the baby boomers (see chart) should dramatically increase 
job opportunities in the first 30 years of the next century. However, 
the question for older workers is not whether the jobs are there, but 
whether they will get them. If as discussed in #6 above, it is not 
efficient for an employer to hire the older worker, then the older 
worker could lose out to younger workers, aliens, etc. Whether older 
workers will be able to perform the jobs of the future is better 
discussed by gerontologists, futurists, and others. Many will be, 
especially now that our economy has more service-oriented jobs than 
physically-arduous ones, especially if an older worker's knowledge is 
valued. However, older blue collar workers will have to be trained for 
the less physically demanding jobs. In addition, your decisions now on 
the NRA will apply in future years, long after the baby boom retires. 
Whether there will be enough jobs then, is difficult to predict.
    8. Do you have thoughts on how the increasing number of older 
workers might impact rates of unemployment, job opportunities, and 
career advancement for younger workers?
    The issues you note in these last 3 questions are all very 
important and call for the expertise of many professionals in addition 
to actuaries. Raising the retirement age and encouraging people to work 
longer can increase unemployment and reduce job opportunities and 
advancement for younger workers.
    However, the aforementioned graph of increases in labor force shows 
it is now lower than in any time on the graph (and soon will be less 
than the increases in the total population for the first time since 
1960). Thus, you could increase the NRA and still keep the labor force 
increase below the increase in the population. In fact, you might ask 
the Social Security actuaries to revise this forecast based on various 
proposed changes to Social Security.
    We want to thank you again for holding the hearing and inviting us 
to testify. We are more than happy to answer further questions or meet 
with you to discuss these and other items at any time.
      

                                <F-dash>

[GRAPHIC] [TIFF OMITTED] T2247.005

[GRAPHIC] [TIFF OMITTED] T2247.006

[GRAPHIC] [TIFF OMITTED] T2247.007

[GRAPHIC] [TIFF OMITTED] T2247.008

[GRAPHIC] [TIFF OMITTED] T2247.010

[GRAPHIC] [TIFF OMITTED] T2247.009

      

                                <F-dash>

    Chairman Bunning. The final panel today is Christopher 
Bone, the chief actuary of the Actuarial Sciences Associates. 
David Walker is a partner and global managing director with the 
international accounting and consulting firm of Arthur 
Andersen, and David Smith is the director of the AFL-CIO Public 
Policy Department.
    Mr. Bone, would you please begin?

  STATEMENT OF CHRISTOPHER M. BONE, CHIEF ACTUARY, ACTUARIAL 
        SCIENCES ASSOCIATES, AT&T, SOMERSET, NEW JERSEY

    Mr. Bone. Mr. Chairman, Members of the Subcommittee, thank 
you for your invitation to appear. In your opening remarks and 
in the last panel, we heard about the important of coordination 
of Social Security changes with other plans. We welcome the 
Subcommittee's emphasis on Social Security as part of an 
integrated U.S. retirement income system.
    Numerous observers have called for Congress to act soon on 
changes to Social Security to enable workers sufficient time to 
plan for retirement. An integral part of the planning process 
will be undertaken not solely by workers, but by employers that 
sponsor retirement plans. In choosing amongst alternative 
reforms in the near future, it is imperative that the 
Subcommittee consider the role of voluntary, employer-sponsored 
retirement plans and the impact of Social Security reform on 
those plans. Failure to do may result in significant disruption 
to the private retirement system, and the possible loss of 
valuable retirement benefits to millions of workers.
    I'll focus the remainder of this discussion on employer 
reactions and issues around raising the Social Security 
retirement age. First, none of the proposals that would change 
the retirement age would do so sufficiently to cure Social 
Security's ills singlehandedly. Thus, in evaluating any 
proposals to raise retirement age, and their impact on the 
system, it's important to evaluate them as part of a package 
and to review the alternative reforms that could be paired with 
these types of changes.
    Employers' responses to Social Security changes will be 
made in the context of, at least as far as designing retirement 
systems, the changes to the retirement plan that further their 
business and work force goals. As we saw in the last session, 
as labor markets change, it is to be anticipated that employers 
will react to those changes in the labor force and design plans 
that are tailored to attract and retain employees at those 
ages.
    To look at how a change in this proposal would affect the 
private retirement system would require you to look at how 
different types of current plans would be affected and how 
those changes would change the employer's ability to meet 
business objects. Thus, if we see changes in the demographics, 
we can anticipate that employers will react to those changes in 
the demographics at the same time, or perhaps at a later point, 
than public policy reacts to them under Social Security.
    The specifics of how employers are likely to react is work 
that is yet undone. Employers are interested in the different 
alternatives. Researchers are interested. One way to look at 
this is to say, what would cause a disruption in the private 
sector system? Disruptions are likely to occur if the amount 
and incidence of the cost to the sponsor changes significantly 
or if there is a sudden and sharp change in the behavior of 
plan participants.
    To the extent that proposals to increase Social Security 
retirement age are based on an accurate scenario of the future 
that reflects the availability of a productive work force, 
employers will respond to the same trends by raising retirement 
ages in tandem with Social Security. If changes in the 
retirement age reflect changes in labor pools, changes may be 
anticipated to have relatively small effects in terms of 
disruption to the current retirement plans.
    There do exist a group of plans for which changes in the 
Social Security normal retirement age could be anticipated to 
be disruptive currently. These plans provide benefits that 
bridge the gap between actual retirement and commencement of 
Social Security benefits. Any increase in the Social Security 
normal retirement age that is sudden would create a cost to 
sponsors who would then have to bridge these benefits for a 
longer period of time; however, the cost to these types of 
plans to be made manageable through appropriate delay in the 
commencement date of any change in retirement eligibility.
    The existence of a sufficiently long planning horizon can 
enable these plans to adapt the general level of benefits to 
the changed circumstances. It's important to note that we have 
experience with similar changes under the 1983 Social Security 
reforms. The long duration before changes in the normal 
retirement age were effective gave employers the opportunity to 
adjust pension plans to the changes.
    Changes in the normal retirement age do not appear to 
abruptly increase cost for employer plans, nor to unduly change 
the system. Much more significant were the related changes of 
the Tax Reform Act of 1986. In considering any changes to 
Social Security retirement ages, legislators may wish to 
consider the experience of the 1983 changes and provide similar 
timeframes for employer-responsive plans.
    In addition to sharp disruption in costs, the employers are 
also concerned with sharp changes in employee reactions, in 
particular whether or not an employee perceives that he/she 
will be subject to a sudden prolonged delay in in the ability 
to retire.
    I think that we have issues of worker productivity. The key 
issue here for employers may be changes in retirement rules to 
give employees the same sort of flexibility to make productive 
arrangements for employees in the future.
    Finally, I'd like to point out that in terms of disruption 
to the system, changes in Social Security normal retirement age 
are much less disruptive to the system of employee provided 
benefits than are certain other proposed changes, including 
changes in tax rates and in payroll benefits.
    Thank you.
    [The prepared statement follows:]

Statement of Christopher M. Bone, Chief Actuary, Actuarial Sciences 
Associates, AT&T, Somerset, New Jersey

    Mr. Chairman, members of the Subcommittee, my name is 
Christopher M. Bone. I am the Chief Actuary of Actuarial 
Sciences Associates (ASA), a benefits consulting firm that is a 
wholly owned subsidiary of AT&T. I am speaking today on behalf 
of ASA.

                              Introduction

    The retirement income system in the United States has often 
been pictured as a three-legged stool; the three supports of 
the stools being Social Security, employer-sponsored retirement 
plans and individual savings. In this analogy, significant 
changes in the length or strength of one leg of the stool may 
be anticipated to require changes in the other legs. Yet, to 
date, analyses of proposed social security reforms have 
primarily focused on the effects of the proposed changes on the 
Social Security program as a stand-alone entity. In designing 
effective and coherent retirement policy it is imperative that 
changes proposed for social security be reviewed in light of 
the implications of social security reform for the second leg 
of the stool--retirement plans sponsored by employers.
    Numerous observers have called for Congress to act soon on 
changes to Social Security, to enable workers sufficient time 
to plan for retirement under the new rules. An integral part of 
the planning process will be undertaken not solely by workers, 
but by employers that sponsor retirement plans. In choosing 
amongst alternative reforms in the near future, I urge that the 
Subcommittee consider the role of voluntary, employer-sponsored 
retirement plans and the impact of Social Security reform on 
those plans. Failure to do so may result in significant 
disruption to the private retirement system and the possible 
loss of valuable retirement benefits to millions of workers.
    Since the enactment of ERISA in 1974, the percentage of the 
elderly population receiving pension and annuity income has 
risen from 24% to 36%.\1\ Furthermore, because of the inherent 
long time horizons of pension plans, these numbers 
significantly understate the anticipated rates of participation 
in the voluntary employer based retirement system that have 
come about in the last 20 years; various studies have put the 
projected rate of pension recipiency among the elderly as high 
as 77% to 81% by the time period 2018 to 2030.\2\
---------------------------------------------------------------------------
    \1\ EBRI Databook on Employee Benefits, 4th Edition, 1997, p. 60, 
Table 7.4 based on EBRI Tabulations of March, 1975 and March 1996 
Current Population Surveys
    \2\ EBRI Databook on Employee Benefits, 4th Edition, 1997, p. 57, 
Table 7.1 citing 1991 Advisory Council on Social Security, Future 
Financial Resources of the Elderly and Lewin-VHI, Inc., Aging Baby 
Boomers, How Secure is Their Economic Future?
---------------------------------------------------------------------------

  How Can We Anticipate Responses of Employers and Employer-Sponsored 
    Plans to Increases in the Social Security Normal Retirement Age?

    Today's hearing focuses on proposals to improve the 
solvency of the Social Security system by raising the age at 
which unreduced social security retirement benefits are paid. 
Various proposals would:
    <bullet> increase Social Security Normal Retirement Age to 
age 70
    <bullet> tie increases in the Social Security Normal 
Retirement Age to increases in life expectancy,
    <bullet> change the age at which Social Security early 
retirement benefits are first paid.
    None of the proposals to date would change retirement ages 
sufficiently to cure Social Security's ills single-handedly. 
Thus, in evaluating proposals to raise retirement age it is 
important to also evaluate the other alternative reform 
proposals that could be paired with this change.
    Employers' responses to Social Security changes will be 
made in the context of designing retirement plans to further 
business and workforce goals. To anticipate how employers would 
react to potential changes, any change in Social Security 
Retirement Ages must be analyzed to determine how the change 
would affect each of the various current types of employer-
sponsored plan designs. More specifically, the analysis must 
review how the proposed change might disrupt the ability of 
that design to meet its business objective; whether the 
objective be related to cash flow, financial statement impact 
or human resource goals. This is work which has, as yet, only 
begun to be performed by employers and researchers. At this 
point it is difficult to see, with any degree of clarity, the 
exact form that responses to Social Security changes would 
take. However, one framework for evaluating likely changes by 
employers is to review potential Social Security reforms in 
light of:
    <bullet> the amount and incidence of the related cost to 
the sponsor of the plan, and
    <bullet> the effect of changes on the behavior of plan 
participants.\3\
---------------------------------------------------------------------------
    \3\ Bone, Christopher M., ``Actuarial Perspectives on Implications 
of Social Security Reform for Employer Sponsored Pension Plans'', 
Pension Research Council Working Paper 97-16, October 1997.
---------------------------------------------------------------------------
    Amount and Incidence of Employer Cost.  Increases in the 
age of retirement decrease the underlying cost of employer-
sponsored pension plans in much the same way as they do for 
Social Security. However, in addition to underlying cost, the 
incidence of reported cost for financial statements is also of 
concern. Most plans for employees, regardless of sector of 
employment, feature an accumulation of capital or of retirement 
benefits. Reported employer cost is typically a function of the 
accumulation of benefits per year of service. If the date of 
benefit commencement is delayed, accumulation continues for a 
longer period and payout of benefits is over a shorter 
duration. This allows the sponsor to provide the same level of 
annual retirement income with a lower annual outlay of cost. 
Thus, in an employer's plan, delayed retirement usually reduces 
the employer's annual benefit cost.
    However the retirement age for social security benefits is 
not necessarily closely linked to retirement age for the 
employer's plan; instead, employers typically design retirement 
plans to reflect employer perceptions of workforce needs. To 
the extent that proposals to increase social security 
retirement age are based on an accurate scenario of the future 
that reflects the availability of an active, productive older 
workforce, employers may be expected to respond to the same 
trends in worker productivity by raising pension plan 
retirement ages in tandem with social security. This would 
generally lead to slow reductions in benefit costs over time. 
But, to date, employers continue to sponsor early retirement 
incentives in defined benefit plans that encourage retirement 
well before the age of earliest retirement under social 
security, even as increases in Social Security Normal 
Retirement Age are scheduled to begin under existing law. Thus 
for these plans, changes in Social Security Normal Retirement 
Age might be anticipated to have relatively small current 
effect.
    There exist a group of plans for which changes in the 
Social Security Normal Retirement Age can be anticipated to 
initially increase costs. These plans current provide benefits 
that ``bridge'' the gap between actual retirement and 
commencement of social security benefits. Any increase in the 
Social Security Normal Retirement Age would create a cost to 
sponsors who would then have to bridge these benefits for a 
longer period of time. However, the cost to these types of 
plans can be made manageable through appropriate delay in the 
commencement date of any change in retirement eligibility under 
Social Security. The existence of a sufficiently long planning 
horizon may enable these plans to adapt general levels of 
benefits to the changed circumstances. Alternatively, Congress 
could avoid disrupting the private sector system by directly 
coordinating legislation to increase Social Security retirement 
ages with legislation that would hold sponsors of these type 
plans harmless to increased benefits that are solely due to 
reductions in government-promised Social Security benefits.
    Other employer-sponsored defined benefit plans integrate 
early retirement benefits very closely with social security 
through the provision of elective forms of benefit that bridge 
the gap until social security retirement age (either early or 
normal) is reached. For these type of plans cost issues are 
likely to be manageable. However, there will be increased 
complexity of administration unless action is taken to hold 
these plans harmless for changes that are designed to reflect 
the new Social Security changes.
    It is important to note that we have experience with the 
cost effect of the 1983 Social Security reforms. The long 
duration before changes in the Social Security Normal 
Retirement Age were effective gave employers the opportunity to 
adjust pension plans to the changes. Legislative changes to 
conform the private pension plan rules to the new Social 
Security law changes were part of the Tax Reform Act of 1986, 
and employers were given an extended period to reflect the 1986 
law. In fact, many other changes in the Tax Reform Act have 
been cited as onerous and costly, but the effects of the 1983 
legislated changes in the Social Security Normal Retirement Age 
do not appear to have abruptly increased costs of employer 
plans. In considering any changes to Social Security Retirement 
Ages, legislators may wish to consider the experience of the 
1983 law changes and provide similar time frames for employer-
sponsored plans to adapt to changes in the law.
    Changes in the Behavior of Plan Participants: If the Social 
Security Retirement Age is increased, an employee would be 
forced to retire at a later age to be able to sustain a 
consistent level of income. For an individual covered by both 
Social Security and an employer-provided pension, the delay 
would likely not be equal to the total increase in Social 
Security retirement age, as it would be mitigated by the 
compounding effect of increases in private pension 
accumulation. However, a delay or a reduction in Social 
Security benefits could certainly act to delay retirement 
somewhat, particularly for lower-paid employees that are 
relatively more dependent on Social Security. (Since the 
progressive determination of the Social Security benefit tends 
to provide relatively higher Social Security benefits for lower 
paid workers, motivation to accumulate other sources of 
retirement income is lower and reliance on Social Security 
benefits is higher.) For lower paid individuals in physically 
demanding jobs, there are concerns that, if the Social Security 
retirement age is increased for these individuals without a 
commensurate increase in productivity for workers nearing 
current Social Security retirement ages, employers may incur 
additional cost in providing retirement programs that maximize 
the productivity of the labor force.
    Similarly, many employers continue to restructure their 
workforces as the nature and type of work required to compete 
in the economy changes. For employers that attempt to 
restructure primarily through voluntary early retirement 
offerings, increases in Social Security retirement ages are 
likely to lead to increased costs.

 The Importance of Flexibility for Employer Plans as We Face an Aging 
                               Population

    Social Security is not alone in facing the issues of an 
aging population. For the country to be able to afford the 
retirement of the Baby Boom generation, either we must 
experience very significant increases in productivity for the 
younger part of the population, or employees must be able and 
employers must be free to enter into imaginative and flexible 
arrangements that allow employees to remain employed and 
productive to later ages. Current pension regulation provides 
an inflexible approach to the ability of employees to gradually 
reduce work hours with a career employer. Either an employee is 
active or retired. Instead of remaining productively employed 
with a career employer, employees now may migrate to a 
retirement employer, where it possible for the employee to 
reduce work hours without sacrificing pension entitlements. I 
urge the members to coordinate efforts on Social Security 
reform with efforts to increase the flexibility of private 
sector retirement programs. As an example, truly flexible 
retirement regulations could include changes to allow employees 
to partially retire with a current employer, reducing work 
hours while commencing a portion of the pension. Less 
traditional work arrangements will allow employers and 
employees to maintain productivity and reduce pressures on 
Social Security.

Gauging the Effect of Alternative Proposals to Raise the Retirement Age 
                      on Employer Sponsored Plans

    Proposals that increase Social Security Normal Retirement 
Age, either by indexing the age to life expectancy or by 
raising the age to a specified starting point, will affect 
employer plans in large part based on the amount of increase in 
normal retirement age and the amount of time that employers 
have to prepare before changes are required to be made to 
pension plans by pension regulations and the amount of time 
until actual increases in retirement age begin to apply to plan 
participants. The primary driver of employer cost is the amount 
of increase in normal retirement age from current law, whether 
the mechanism is through an indexed increase or to a fixed age. 
Employers are likely to find the uncertainty inherent in an 
indexed retirement age, and in how an indexed normal retirement 
age would interact with the complex pension rules, 
unattractive. The resulting uncertainty and lack of clarity in 
pension regulation may provide a yet another disincentive for 
the establishment of new employer-sponsored plans, but is 
unlikely to add enough cost to encourage employers to terminate 
plans.
    Proposals to increase the age of first eligibility for 
Social Security benefits above age 62 have drawn much more 
concern. In particular, employers that are dependent on workers 
in physically demanding jobs are concerned that increased 
retirement demands not fall on the employer, if Social Security 
early retirement ages are increased. Increased pension costs 
for low-paying, physically-demanding work would generally 
increase the labor costs for low-skilled workers. This further 
reduces the ability of low-skilled workers to compete in the 
marketplace. Employers are also concerned over the potential 
for increased disability benefit costs if the age for early 
retirement under Social Security is increased.

Gauging the Effect of Increasing The Social Security Retirement Age vs. 
            Other Types of Proposed Social Security Reforms

    While the effect of raising the retirement age on employer 
plans is difficult to specify, it may be useful to compare the 
effects we can see, with the projected effect of other Social 
Security reform proposals. Of course, the degree to which 
social security reforms determine changes in employer-sponsored 
retirement plans will depend on the regulatory environment for 
employer-sponsored plans and the desire of plan sponsors to use 
plans to affect retirement decisions of their own workforce. 
Preliminary analysis, based on the incidence of employer cost 
and the effect on employee behavior, indicates that phased-in 
changes in Social Security retirement ages may be much less 
disruptive to the private plan system than certain other types 
of reforms that have been proposed:
    <bullet> Increases in social security tax rates would 
likely affect employer-sponsored defined contribution plans, 
due to the interaction of decreased ability to save by lower-
paid individuals, with the nondiscrimination rules for defined 
contribution plans. Alternatively, Congress could act to 
simultaneously amend the non-discrimination rules to reflect 
anticipated effects of the increased tax rate on lower-paid 
individuals' ability to save.
    <bullet> Removing the limit on earnings subject to payroll 
taxes would require immediate redesign of the majority of 
private sector, defined benefit plans and presumably some 
defined contribution plans as well if accompanied (as 
anticipated) by the elimination of permitted disparity rules at 
the time the cap on taxable earnings is removed. In conjunction 
with the progressive nature of the determination of the social 
security benefit, this could accelerate the trend to a two-tier 
system of unfunded pension plans for the top paid group, and a 
funded plan which is adequate for the lower paid and inadequate 
for employees in the middle.
    <bullet> Proposals to change the investment policy pursued 
by the Social Security Administration, or to add IRA-type 
Social Security individual accounts will likely have effects 
not only on benefit design costs but also could change capital 
markets and financial cost drivers, particularly, for large 
private sector plans. The administrative implications of a 
switch to IRA type accounts could be extremely burdensome for 
the employer who might have to maintain Social Security records 
and balances for its employees, especially during periods of 
transition or portability of its employees from one employer or 
plan to another.
    Thus, many of the alternative reforms have an immediate 
impact on private sector plans. On the other hand, increasing 
the Social Security Normal Retirement Age tends to have a 
delayed effect on many plan sponsors, giving employers the 
necessary time to implement adequate changes to their benefit 
structure. To reemphasize, looking back to 1983 when the Social 
Security Normal Retirement Age was increased to age 67, even 
while some legislation was incorporated in the Tax Reform Act 
of 1986, the ensuing changes did not have to be made 
immediately. This allowed the employers to group the change in 
the Social Security Normal Retirement Age together with the 
other long term demographic needs of their company, and 
gradually change the benefit structure to coincide with the 
changing demographics, without disrupting the benefit programs 
in place. Some employers are still today making changes to 
their benefit programs, to reflect the 1983 increases in the 
Social Security Normal Retirement Age.

                              Conclusions

    The degree to which increasing the Social Security Normal 
Retirement Age determines changes in employer-sponsored retirement 
plans will depend on the regulatory environment governing these plans 
as well as the desire of plan sponsors to affect retirement decisions 
of their own workforce, to meet their human resources objectives. 
Changes in the regulatory environment for pension plans will be needed 
to reflect changes in retirement age. Additional changes in the pension 
regulatory environment are needed to help employers and employees enter 
into flexible arrangements to enhance employees' productivity as they 
age.
    Increases in retirement ages are anticipated to have long-term 
design implications for sponsored plans; but these may be manageable 
with sufficiently long time horizons for plan sponsors to adapt to 
changes. Short-term cost increases may be limited to plans that provide 
early retirement supplements, or are restructuring. In comparison with 
several other types of proposed reforms, increases in retirement ages 
may prove less disruptive to private sector plans.
    It is imperative that increases in the Social Security Normal 
Retirement Age be evaluated not solely for effects on social security 
benefits, but also with respect to effects on employer-sponsored 
retirement plans, and the desire and ability of employees to save on 
their own behalf.
    Mr. Chairman and Members of the Subcommittee, I thank you for the 
opportunity to appear before you, and I would be glad to answer any 
questions you may have.
      

                                <F-dash>

    Chairman Bunning. Thank you very much.
    Mr. Walker, please.

  STATEMENT OF DAVID M. WALKER, CPA, PARTNER, GLOBAL MANAGING 
DIRECTOR, ARTHUR ANDERSEN, LLP; AND MEMBER, BOARD OF DIRECTORS, 
        ASSOCIATION OF PRIVATE PENSION AND WELFARE PLANS

    Mr. Walker. Thank you, Mr. Chairman. It's a pleasure to be 
here this morning. The hat that I have on today is I'm on the 
executive Committee of the board of the Association of Private 
Pension and Welfare Plans. Its members collectively represent 
about 100 million Americans covered by employee benefit 
programs.
    For your benefit and the benefit of the other Subcommittee 
Members, I'm also a former Public Trustee of Social Security 
and Medicare, and currently serve with Senators Breaux and 
Gregg, as well as Congressmen Stenholm and Kolbe on the CSIS' 
National Commission for Retirement Policy, which is looking at 
reforming Social Security and the private pension system.
    Mr. Chairman, what I'd like to do is to note that the APPWP 
has formed a board-level task force to look at the issue of 
Social Security. It's currently deliberating and has not 
finalized its deliberations. When we do, we would be happy to 
provide our recommendations. However, in the interim, certain 
preliminary observations with regard to Social Security reform 
and the possibility of raising the normal retirement age I 
think are in order, given the subject of this hearing.
    First, APPWP believes that Social Security should be 
reformed in a comprehensive manner and on a reasonably timely 
basis--sooner rather than later--in order to minimize the 
disruptive effect, and provide adequate lead time for employers 
and individuals to adjust to the changes. We also believe that 
such reform needs to maintain the importance of the Social 
Security Program as a foundation of retirement security for 
current and future Americans. That's a very important element 
to a sound National retirement system.
    We believe that increasing the normal retirement age, and 
possibly the early retirement age, should be seriously 
considered as a possible element of overall reform, given the 
fact that many have already recommended increasing normal 
retirement age--for example, the Committee for Economic 
Development. As was noted by my colleague, that would only have 
resulted in about 44 percent of savings that are necessary to 
put the program in actuarial balance over 75 years, but it is 
an important fact to consider, not only for financial reasons, 
but because of work force and labor force trends. The fact that 
in 1950 we had 16 people working for every person drawing 
Social Security; now it's down to 3.3 to 1, and by the year 
2030, it will be less than 2 to 1.
    In the final analysis, we need to analyze individual reform 
elements, including raising the normal retirement age or early 
retirement age, and other possible reform elements, to come up 
with a balanced program and to consider the interactive effects 
of those reform elements.
    With regard to the specific possibility of raising the 
normal retirement age, several preliminary comments are 
appropriate. First, doing so would have significant 
implications not only on Social Security, but also on other 
government programs, such as the disability program, as well as 
other employer-sponsored programs, such as pension, health, 
disability, workers' compensation, and so forth. These have to 
be properly analyzed and considered. It may result in 
individuals needing to work longer, either on a full-time or a 
part-time basis.
    We believe that consideration should be given to looking at 
current laws that affect both government programs, as well as 
private sector pension plans, to possibly allowing additional 
flexibility for individuals who wish to retreat into 
retirement, rather than a cliff approach into retirement, where 
it's working full time on 1 day and not working at all the 
next. We think it's important, given projected labor force 
trends, that we look for more flexibility.
    We also believe it's important to seriously consider 
eliminating the earnings test on Social Security, as a way to 
encourage people, but not require people to be productive 
longer in the work force, given projected skills gaps that we 
see ahead.
    In addition, we believe that raising the normal retirement 
age would serve to increase the importance of private employer-
sponsored retirement programs as an important supplement to the 
base Social Security Program. It is important to also consider 
ways that the private sector could be strengthened to 
increasing coverage; enhancing benefit security, benefit 
adequately, portability and preservation would be desirable.
    And, last, but not least, Mr. Chairman, we believe that it 
would be extremely important that any change in the normal 
retirement age or early retirement age be phased-in over an 
appropriate period of time in order to allow time for 
individuals and employers to be able to adapt to that change, 
and frankly, as a matter of fundamental fairness.
    Mr. Chairman, I would be happy to answer any questions you 
might have, and obviously, the APPWP and myself would be happy 
to contribute in any meaningful way that you deem appropriate 
in the future in this regard.
    Thank you.
    [The prepared statement follows:]

Statement of David M. Walker, CPA, Partner, Global Managing Director, 
Arthur Andersen, LLP; and Member, Board of Directors, Association of 
Private Pension and Welfare Plans

    Mr. Chairman and members of the Committee, my name is David 
M. Walker. I am a Partner and Global Managing Director with the 
international accounting and consulting firm of Arthur Andersen 
LLP. My background includes serving as one of two Public 
Trustees of the Social Security and Medicare Trust Funds, as 
Assistant Secretary of Labor for Pension and Welfare Benefits 
and as head of the Pension Benefit Guaranty Corporation (PBGC). 
I am also the author of a book entitled: Retirement Security: 
Understanding and Planning Your Financial Future. In addition, 
I currently serve as a member of the National Retirement Policy 
Commission sponsored by the Center for Strategic and 
International Studies (CSIS).
    I am appearing before you today on behalf of the 
Association of Private Pension and Welfare Plans (APPWP--``The 
Benefits Association''), an organization of which I serve as a 
member of the Board of Directors and the Executive Committee. 
As a result, my testimony today is designed to reflect the 
views of the APPWP rather than my personal views. The APPWP is 
the national trade association for companies and individuals 
concerned about federal legislation and regulations affecting 
all aspects of the employee benefits system. The APPWP's 
members represent the entire spectrum of the private employee 
benefits community and either sponsor directly, service or 
administer employee benefit plans covering more than 100 
million Americans.
    Today's subcommittee hearing is particularly focused on an 
examination of the implications of raising the retirement 
eligibilty age under the Social Security retirement income 
program (i.e., the Old Age Survivors Insurance (OASI) program). 
In my oral remarks today I will first outline certain 
information contained in the 1997 Annual Trustees' Report. I 
will then discuss some of the implications of increasing the 
Social Security normal retirement age on the private pension 
system and on retirement security in general.

     Current and Projected Financial Condition of the OASI Program

    The Trustees of the Social Security and Medicare programs prepare 
an annual accounting of these programs for the Congress and the 
American public. This annual accounting is due by April 1 of each year. 
The 1997 Annual OASDI Trustees' Report (``the Annual Report'') was 
issued in the spring of 1997 and covers the 1996 fiscal and calendar 
years. It also included a projection of the financial condition of the 
OASI program over the 75-year period ending in 2071. This long-range 
projection is important as a means to advise the Congress and the 
American people as to the likely condition of these programs in the 
years in which several generations can be expected to receive OASI 
program benefits. Specifically, a 75-year projection period is 
necessary in order to assess the likely financial condition of the OASI 
program for all individuals currently paying OASI payroll taxes, 
including new entrants into the workforce.
    According to the Annual Report, the OASI Trust fund held 
approximately $514 billion in U.S. government securities as of December 
31, 1996. In addition, the OASI program ran an approximate $56 billion 
surplus for the year then ended. While the 1998 Annual Report has yet 
to be issued, it is expected to show that OASI Trust fund assets 
totaled approximately $589 billion at December 31, 1997. It is also 
expected to show that the surplus for the year then ended amounted to 
approximately $75 billion. Importantly, under current law, all annual 
OASI program surpluses must be invested in certain U.S. government or 
agency securities. The current government bonds held in the OASI Trust 
Fund bear market rates of interest at their date of issue, carry 
maturities of up to 15 years and are not readily marketable.
    According to the Annual Report, the OASI program met the Trustees 
short-term (10-year) test of financial solvency. The OASI program did 
not, however, meet the Trustees' long-range (75-year) test of financial 
solvency. The Annual Report also disclosed that the estimated 75-year 
financial imbalance in the OASI program amounted to approximately 1.84% 
of taxable payroll.
    The Annual Report projected that, based on the Trustees' 
intermediate (best estimate) set of assumptions, the OASI Trust Fund 
would be exhausted in the year 2031. The projected exhaustion date is 
significant since, beginning in that year, the government will no 
longer be able to pay full OASI benefits on a timely basis. However, 
while the program would not be able to pay full benefits, the OASI 
program would still have a significant revenue stream for benefits and 
program expenses. Specifically, the OASI program is expected to have 
revenues equal to approximately 75% of projected benefit payments and 
administrative expenses during the period 2031-2071.
    Given the above, OASI program revenues would have to be increased 
by 33% or benefit payments reduced by 25% beginning in 2031 in order to 
restore the financial integrity of the current program. Alternatively, 
more timely reforms would serve to lessen the degree of changes 
necessary to restore the financial integrity of the OASI program.
    The projected OASI exhaustion date of 2031 may be a number of years 
away, however, history shows that it is likely to come sooner than 
projected. Specifically, after Congress enacted the 1983 Social 
Security reforms, the Trustees' projected that the OASI program would 
have adequate assets to pay full program benefits on a timely basis 
until about 2062. By 1991, the Trustees' projected exhaustion date had 
accelerated to 2045. As previously noted, the Annual Report projected 
the OASI Trust Fund will be exhausted in 2031. This is 31 years sooner 
than predicted in 1983 and 14 years sooner than projected in 1991. All 
of these projected dates are based on the Trustees' intermediate (best 
estimate) assumptions for the respective years. Unfortunately, history 
has generally shown that actual program experience is likely to fall 
between the Trustees' best estimate and high cost sets of assumptions. 
As a result, a further acceleration of the projected exhaustion date 
would not be surprising.
    While the Annual Report noted that the OASI Trust Fund would be 
able to pay benefits on a timely basis until 2031, there is a much 
earlier fiscal challenge relating to the OASI program which needs to be 
addressed. Namely, based on the Annual Report, the OASI program is 
projected to enter a negative cash flow position in the year 2014, just 
two years after the first ``baby boomer'' is eligible for normal 
retirement. Beginning in that year, annual benefit payments and 
administrative expenses are expected to exceed payroll taxes and other 
revenues. In addition, the projected annual OASI deficits accelerate 
rapidly each year thereafter. For example, these annual OASI cash flow 
deficits are expected to grow to over $358 billion in the year 2025 
alone.
    Once the program begins to experience a negative cash flow 
position, the federal government will generally be required to take one 
of three steps in order to generate the necessary cash to pay OASI 
benefits and expenses on a timely basis. Specifically, beginning in 
2014, the government will either have to increase OASI tax revenues, 
decrease OASI benefits/expenses, or revise the current nature of the 
government bonds held by the trust fund and sell them to willing third 
party investors. Obviously, the government could also take some 
combination of these actions in order to bring the OASI program into 
annual balance if it so chose.

          Implications for Employer-Sponsored Retirement Plans

    One way that total OASI benefit payments could be reduced 
is to increase the age at which normal retirement benefits are 
available. To date, the APPWP has not formulated a policy 
position with respect to the specific issue that you are 
examining with today's hearing. However, it should be 
recognized that changes in the eligibility age (both for normal 
retirement age and early retirement age) raise a number of 
important questions that extend beyond merely the impact on the 
fiscal integrity of the Social Security trust funds themselves. 
Such a change should be considered in the context of overall 
reform of the Social Security system along with its effect on 
the Medicare program, the labor force, employer-sponsored 
benefit programs and individuals. It is APPWP's position that 
the current Social Security program must be reformed in order 
to assure its long term financial integrity and sustainability. 
Such reform should be comprehensive in nature and enacted 
sooner, rather than later, to minimize the cost and disruption 
reform will have and to provide as much opportunity as possible 
to prepare for the changes inherent in reform.
    Raising the Social Security retirement eligibility age will 
have very real implications for the employer-sponsored benefits 
system, both retirement and health related benefits. It is 
important that these implications be understood and analyzed.
    Many retirement plan sponsors currently coordinate normal 
and early retirement eligibility under their plans with the 
Social Security eligibility age. In the past, employers have 
often used enhanced benefits under a private pension plan as a 
way of adjusting the level of a company's workforce without the 
necessity of layoffs. However, in the near future the United 
States is likely to experience a labor shortage, particularly 
among skilled workers. In this regard, potentially one of the 
greatest changes to the employer-sponsored retirement system 
that could be caused by increasing the Social Security 
eligibility age is a change in the retirement pattern of 
workers. The primary expected change would be that workers may 
remain in the workforce for longer tenures, either in the same 
position, or at a different job.
    Another pattern that can be anticipated is an increased 
shift away from ``traditional retirement'' to ``phased'' or 
``partial retirement.'' Traditional retirement is when a worker 
totally exits the work force and commences distribution of his 
or her entire retirement benefit. A phased retirement is 
instead when a worker remains employed but at a reduced work 
schedule and earns reduced wages, but simultaneously receives a 
portion of his or her pension benefit. The combination of 
reduced wages and a distribution of a portion of the pension 
benefit results in the individual continuing to receive a 
similar or slightly reduced amount of income from combined 
sources. Raising the Social Security normal or early retirement 
age would reinforce the need to consider allowing additional 
flexibility under employer-sponsored retirement plans so that 
workers can begin receiving a portion of their retirement 
benefits before full retirement.
    Certainly, continued employment on a part or full time 
basis would help meet the economic demand for skilled workers. 
However, some employers may want to continue to provide 
incentives for older workers to retire from their jobs to make 
room for younger employees. Plan sponsors who need this 
flexibility to recognize their workforce realities (i.e. 
recognizing the inability of some industries' workers to 
continue working) will face increased costs.
    In addition, some individuals may need or want to retire 
earlier than the increased Social Security eligibility age. To 
the extent that employers do not supplement the difference in 
benefits there will be greater pressure on individuals who 
want, or need, to retire earlier to rely on individual sources 
of retirement security, including employer-sponsored plans. 
This would serve to increase the importance of assuring that 
federal laws and regulations are designed to encourage the 
creation, maintenance and proper funding of employer-sponsored 
retirement plans, including reasonable contribution and benefit 
limits.
    Also, an increased Social Security eligibility age would 
likely result in greater use of employer-sponsored and 
government disability programs. There will likely be greater 
use of worker compensation and unemployment compensation 
programs. In addition, increasing the Social Security 
eligibility age may result in increases in the cost of 
employer-provided health plans. This would translate into 
greater costs for these programs due to longer coverage and 
greater use.

               Recent OASI Program Reform Recommendations

    A number of groups have recognized the projected financial 
imbalance associated with the OASI program. In fact, a number 
of groups have called for reform of the existing OASI program. 
Many of these organizations have made specific recommendations 
for consideration by the Congress and the Administration, 
including the increase in the normal Social Security 
eligibility age.
    The most notable OASI reform group that has already made 
related recommendations is the 1994-1996 Advisory Council on 
Social Security (the ``Council''). This statutorily mandated 
group issued its report in December 1996. While the Council 
agreed on the need to reform the OASI program, it did not fully 
agree on how to do it.
    A majority of the Council members favor speeding up the 
current schedule for increasing the eligibility age for full 
retirement benefits under Social Security. Under current law, 
the eligibility age for full retirement benefits (currently 65) 
will gradually increase to age 66 for workers who attain age 62 
in 2005. It will then remain at age 66 for eleven more years 
and then gradually increase to age 67 for workers who attain 
age 62 in 2022 or later. The majority of the Council members 
would speed up the schedule so that the age of eligibility for 
full benefits increases to age 67 by the year 2011. According 
to the Council's report, this change would save five percent of 
Social Security's long term actuarial deficit. After 2011, 
these same Council members would recommend a gradual increase 
in the eligibility age in the line with longevity trends.

           Findings of the Committee for Economic Development

    In its report issued one year ago this month, the Committee 
for Economic Development (CED) recommended a continuous two 
month per year rise in the normal retirement age beginning in 
the year 2000, until the age reaches 70 in year 2030. Further, 
the CED recommended that increases in the normal retirement age 
after 2030, should be linked (indexed) to changes in average 
life expectancy in a way that maintains a constant average 
ratio of working years to retirement years. This reduction 
would eliminate about 44 percent of the 75 year acturial 
deficit in the present program according to CED's report. The 
CED report noted that in the future an extended work life will 
be a necessity for most workers.
    Among the members of the Committee's Subcommittee on Social 
Security Reform there was a disagreement as to whether the 
early retirement eligibility age should also be raised. 
According to the report, benefits at early retirement should be 
reduced actuarially to reflect the number of years of 
retirement before the normal retirement age. Those retiring at 
age 62 currently receive about 80 percent of the benefit at age 
65. The present reduction along with maintaining the early 
retirement eligibility age will ensure that the penalty for 
early retirement at age 62 will rise as the normal retirement 
age increases. A large reduction in benefits would be intended 
to encourage individuals to work longer or to save more to 
finance their early retirement. At least some of the 
Subcommittee's members were of the view that the early 
retirement age should also be increased. This is because the 
availability of an actuarially reduced early benefit may serve 
as a trap for the unwary. More specifically, individuals may 
mistake the availability of an early retirement benefit as an 
indication that the benefit will be a sufficient safety net 
without understanding the full impact of the reduction on their 
total retirement income. If the early retirement age were 
increased, however, it would still be appropriate to consider 
facilitating full access to actuarially reduced benefits as 
early as age 62, but only for those individuals who retire 
because they are unable to work.

                                Summary

    The OASI program does not face an imminent financial 
crisis. However, the APPWP recognizes, and many believe, that 
we are beginning to experience an emerging crisis of confidence 
among the American public in connection with the Social 
Security and Medicare programs. This emerging crisis of 
confidence is primarily attributable to the growing concern 
regarding the financial integrity of these programs and the 
historical inability of the federal government to communicate 
candidly and deal effectively with the looming fiscal 
challenges facing these important federal programs. Many of 
these looming fiscal challenges are the result of known 
demographic trends.
    Both the legislative and executive branches of the federal 
government have a responsibility to address this growing crisis 
of confidence. In addition, the private sector also has a 
responsibility to take steps to eliminate this emerging crisis 
of confidence.
    While the OASI program does not face an imminent financial 
crisis, it does face a midterm financial challenge due in large 
part to known demographic trends. The most notable of these 
trends relates to the need to finance the significant OASI 
program obligations associated with the ``baby boom 
generation'' in the face of declining worker/retiree ratios. 
Specifically, we face rapidly accelerating OASI program 
obligations beginning in 2014. In addition, the worker/retiree 
ratio has declined from 16:1 in 1950 to 3.3:1 today. This ratio 
is projected to decline to less than 2:1 by 2030. Importantly, 
these demographic trends are a virtual certainty and the 
related implications on the financial condition of the OASI 
program must be addressed.
    From a broader perspective, the challenges we face in 
connection with the OASI program are a subset of a much larger 
fiscal challenge. Specifically, according to estimates by the 
Concord Coalition, total mandatory federal spending (e.g., 
entitlements and interest on the federal debt) are expected to 
exceed projected federal revenues before 2020, if changes are 
not made. In addition, entitlements alone are expected to 
consume more than 100% of projected federal revenues by 2030, 
if reforms are not enacted. Social Security is a major part of 
these projected entitlement expenditures. Medicare and Medicaid 
represent other major dimensions of the growing entitlement 
challenge.
    Fair and timely action is needed to restore the financial 
integrity of, and public confidence in, the OASI program. 
Fairness requires that any related program changes be balanced 
among different generations and that certain changes be phased-
in to allow individuals time to adjust. Timely action is also 
appropriate since delay will only serve to increase both the 
severity and the difficulty of achieving the needed OASI 
program changes.
    Achieving the needed OASI program reforms will require the 
development of nonpartisan policy options and the pursuit of 
bipartisan legislative action. Any successful reform package 
will also require a balancing of policy and political 
considerations. Importantly, Congressional legislative action 
will have to be preceded by a concerted national campaign to 
educate the American public as to the nature and extent of our 
challenges, various options, including raising the normal and 
early retirement eligibility ages, and their implications, and 
any recommended approaches to reform. These hearings, Mr. 
Chairman, are clearly an integral part of that national 
dialogue.
    Finally, in pursuing reform of the OASI program, 
policymakers must recognize that any modification of the OASI 
program will also have a ripple effect on other important 
retirement income programs. Specifically, OASI program reforms 
will also necessitate congressional action designed to 
strengthen employer and union sponsored retirement income 
programs and individual retirement savings arrangements. Such 
actions should include, but not be limited to, efforts designed 
to rationalize existing retirement vehicles, review current 
plan sponsorship requirements, facilitate employee savings 
through payroll deduction, increase current contribution and 
benefit limits, strengthen existing minimum funding standards, 
eliminate inappropriate administrative burdens, enhance pension 
asset portability, improve the fairness of PBGC variable rate 
premium structure and encourage the preservation of pension 
savings for retirement income purposes.
      

                                <F-dash>

    Chairman Bunning. Thank you, Mr. Walker.
    Before I call on Mr. Smith, let me tell you, it took us 10 
years to get the earnings limit moved from where it was at the 
$11,250 to $30,000 over a 7-year period. It cost $7 billion to 
get it done. We were trying to eliminate it, but it took 10 
years and two administrations, and we finally got the second 
administration to sign onto the bill. So I want you to know 
that I'm for eliminating it completely, but, under PAY-GO, we 
have to find the money to do it.
    Mr. Smith.

     STATEMENT OF DAVID A. SMITH, DIRECTOR, PUBLIC POLICY 
   DEPARTMENT, AMERICAN FEDERATION OF LABOR AND CONGRESS OF 
               INDUSTRIAL ORGANIZATIONS (AFL-CIO)

    Mr. Smith. Mr. Chairman, thank you. I know I'm the last 
witness in a long day, so I will try to as brief as my 
colleagues have set an exemplary example.
    Let me try to respond to a couple of things that aren't in 
my prepared testimony, but that have come up today. One of 
them, and David mentioned it, as others have, is the labor 
market effects of raising the retirement age. Frankly, Mr. 
Chairman--and this may be unexpected coming from the AFL-CIO, 
but it seems to me that this a case where we ought to assume 
that the market will work. One of the questions--and I was 
talking with Chairman Greenspan earlier last year about--how do 
you explain what's happened to labor force participation really 
at both ends of the cohort. Older Americans coming back in, as 
we've testified, and among some young people who have stayed 
out of the labor force for most of the last decade and are 
finding their way back in. The answer here is simple: A very 
low unemployment rate, some pressure on labor markets, and 
employers figuring out ways to add men and women who weren't 
previously in the labor force.
    They will do that with older Americans as well as they will 
continue to do it with younger Americans, and we won't want to 
assume that, in the absence of a tight labor market, raising 
the retirement, the normal retirement age, that that will 
happen, or that not raising the normal retirement age in the 
presence of a tight labor market won't yield precisely the same 
phenomenon we've seen over the last 3 or 4 years. Working 
people, men and women who have left the labor force, have been 
downsized or forced out, come back in when they have those 
opportunities. And I would expect that that will continue 
regardless of what we do with the normal retirement age, as 
long as labor markets stay tight. We ought to assume that the 
market, as you so often note, Mr. Chairman, is pretty 
thoughtful about these things, and this labor market will work 
in that way.
    A second issue which gets raised here, which I really do 
want to emphasize--when I testified before this Subcommittee 
last spring, I said something to the effect that this system 
ought not to be thought of as a piece of the retirement system 
for Americans. This isn't a leg of a roughly balanced three-
legged stool; this is the heart of retirement income for most 
Americans, and will grow in its importance over the next two 
decades, not diminish. Perhaps we would wish that not to be 
true, but it is true.
    And it's especially true for Americans who worked in low-
wage jobs, for Americans who have worked the nightshift, who've 
worked the dirty jobs, who've worked in the more dangerous 
jobs, and any increase in the normal retirement age, and 
particularly if it were twinned, as Dr. Myers had suggested, 
with a ratcheting up of the early retirement age, would have 
particularly serious effects on those Americans, people who 
have earned less in their lifetime and earned less probably in 
a circumstance where they will more likely to be exposed to 
health hazards, more likely to have been injured in a way, 
while perhaps not qualifying for disability--made it tougher 
for them at 62 than it did for some of the rest of us who had a 
chance to grow old somewhat more gracefully and less arduously.
    A few numbers I think help illustrate that, both the 
reliance question and the vulnerability question. Now 46 
percent of African-American older households rely on Social 
Security for 90 percent of their retirement income. That's a 
dramatically different figure than whites; only 28 percent of 
white Americans rely on Social Security for 90 percent of their 
retirement.
    Twenty-eight percent of African-Americans 62 years or 
older, only 28 percent have any pension income whatsoever. When 
we're talking about opening up this hole for a group of people, 
we're not talking mostly about people in this room. We're 
talking about people who do very different jobs, are exposed to 
very different risks, and make a great deal less money.
    Let me--one other: Precisely that same group of people, as 
you know, and as has been testified today, any increase in the 
retirement age is a benefit cut. It's widely understood that 
Social Security is actuarially sound. Were we to push the 
retirement age out, it would be a benefit cut for anybody. It 
would be a larger benefit cut for those who are more likely to 
die sooner. And African-Americans and other people of color are 
much more likely to die in that window, Mr. Chairman, than 
either you or I are. The death rate for males age 62 to 65 for 
African-Americans is 150 percent of the death rate for the 
white cohort during that same period.
    So we're not talking, as some of the earliest testimony 
suggested, we're not talking about a generalized either 
circumstance with which we approach retirement or a generalized 
impact on us from these kinds of changes. We need to be very 
careful.
    Thank you.
    [The prepared statement follows:]

Statement of David A. Smith, Director, Public Policy Department, 
American Federation of Labor and Congress of Industrial Organizations 
(AFL-CIO)

    Good Afternoon. Mr. Chairman and Members of the 
Subcommittee, my name is David Smith. I am Director of the AFL-
CIO Public Policy Department. On behalf of our 13 million 
members and their almost 40 million family members, I am here 
today to express our great concern over proposals to increase 
Social Security's retirement ages and the very serious 
questions that they raise about fairness toward and protection 
of some of the most vulnerable members of American society.

          Benefit Cuts That Target the Economically Vulnerable

    Let me begin today by posing this question: Assuming in the 
first place that any Social Security benefit cutbacks are 
warranted, should it be done in a way that has the greatest 
negative impact on the group of workers who have spent their 
working years in physically arduous jobs, who experience poor 
health, who have the lowest levels of health insurance and 
pension coverage, and who have seen their real wages drop 
significantly over recent years? I hope it strikes you as 
unfair, if not mean spirited, to balance the long-range 
finances of the nation's principal family protection plan on 
the backs of those who need it the most. That, however, is just 
what an increase in the Normal Retirement Age would do.
    Clearly, raising the full retirement age cuts benefits and 
does so in two significant ways. First, all workers, whether 
they delay retirement to the new full retirement age or 
continue to retire early, will get reduced lifetime benefits. 
Second, those who take early retirement will also receive lower 
monthly benefit amounts that provide a less adequate income 
throughout retirement. For example, under the current scheduled 
increase in the full retirement age, an individual who elects 
to begin receipt at age 62 will get a monthly benefit amount 
equal to 70 percent of the full retirement benefit, compared to 
80 percent under the rules currently in effect. A further 
increase would cut this benefit even more. But this is not the 
whole story.
    Keep in mind that for many retirement is not the beginning 
of a golden age cruise, but rather an economically traumatic 
event, especially for low-wage workers and people of color. 
With the cutbacks Congress enacted in 1983 beginning to take 
effect for early retirees in 2002, it may yet get worse. 
Consider that a fourth of African Americans 60 years of age and 
older live in poverty, compared to less than a tenth of White 
Americans. An overwhelming majority of these workers lack 
substantial sources of retirement income beyond Social 
Security.
    <bullet> Forty-six percent of African American older 
households and 44 percent of Hispanic older households rely on 
Social Security for 90 percent or more of their income in 
retirement. And nearly a third count on it for all of their 
income.
    <bullet> By contrast 28 percent of White retirees rely on 
it for 90 percent of their income and 14 percent of them count 
on Social Security for 100 percent.
    <bullet> Only 28 percent of African Americans 62 years of 
age or older have any public or private pension income, 
compared to 43 percent of Whites of the same age.
    <bullet> Furthermore, asset income, while more widely 
received than pension benefits, amounts to very little for most 
retirees regardless of race. For all of those 65 and older, the 
median is $1,306. Looking at the least well off quintile, the 
median annual asset income is a tiny $12 a month.
    Also, it is critical to remember that any Social Security 
cutbacks will be sliced off of a baseline that is already quite 
low for the lower-income elderly. Among the poorest, the median 
Social Security benefit is roughly $5,500.
    This background information feeds directly into discussions 
about raising the retirement age because an increase will hurt 
these already vulnerable populations the most. The benefit cuts 
imposed by an increase in the retirement age have a greater 
impact on those population subgroups whose members die younger, 
are forced to start benefit receipt earlier, and have few 
alternative resources to enable delayed receipt of Social 
Security or cover cuts in monthly benefit amounts. Those 
beneficiaries affected most are minorities, particularly 
African Americans, and all low-wage workers.
    For workers who lack substantial alternative sources of 
income, any cut in Social Security is going to be more painful 
than it is for those who have other legs of the retirement 
stool on which they can rely. A worker who relies entirely on 
Social Security in retirement and retires at age 62 in 2022 and 
later will experience an additional 10 percent cut in benefits 
as a 10 percent cut in income. By contrast, an upper income 
worker who relies on Social Security for only one quarter of 
retirement income, as the top 20 percent of the elderly do, 
would see less than a 4 percent cut in total income from the 
same cut in early retirement benefits. The result will be even 
less adequate retirement incomes for workers and families 
already at the margin. The regressive nature of increases in 
the normal retirement age has been confirmed by one study that 
looked at the effects of an immediate increase in the Normal 
Retirement Age to 67. It concluded that the cut in benefits 
under a raised retirement age for incomes under $25,000 would 
be one and one-half times higher than for incomes above 
$75,000, measured as a share of lifetime income. (Wolff, Edward 
and Howard Chernick, ``The Distributional Effects of Raising 
the Social Security Normal Retirement Age and Partially 
Indexing Benefits,'' EPI Working Paper No. 115, 1996.)
    The argument that we should cut benefits by increasing the 
Normal Retirement Age is ultimately based on two related 
numbers: life expectancy and the percentage of the population 
in retirement. These are the same basic facts that Congress 
relied on in 1983 when it voted to increase the full retirement 
age to 67 in the next century. It would be a mistake, however, 
to treat life expectancy as a predictor of the health and well-
being of the elderly and near-elderly populations. More 
importantly, a generalized treatment of these populations 
glosses over the very substantial heterogeneity that exists 
regarding life expectancy, health, job situation, and 
alternative economic resources. The most salient differentials 
exist between African Americans and White Americans, and poor/
lower-income and non-poor workers.
    African Americans as well as the poor and near-poor have 
shorter life expectancies than the population as a whole. The 
differences between White and African Americans is clearly 
illustrated in male mortality rates. While the magnitude of the 
mortality gap narrows among the elderly, a substantial 
difference persists. For example, the death rate from age 62 to 
age 65 for African-American men is over one and one-half times 
that of White men (8.9 percent versus 5.5 percent). An 
increased normal retirement age would disproportionately impact 
African American men simply because they are more likely to 
retire early. There is a 15 percentage point gap in the Labor 
Force Participation rates of White and African-American men 
ages 60 to 64. If early retirement ages were bumped up, a 
smaller percentage of age-62 African American men would survive 
to the higher eligibility age than White men. While separate 
life expectancy numbers are less well developed for poor versus 
non-poor Americans, the available evidence also suggests a 
substantial gap between the two groups. According to some 
estimates the mortality rates among the young elderly may be 
two times higher for the poor and near poor (the bottom 20 
percent of income earners) than they are for the rest of the 
population.
    While we do not know life expectancy by occupation, it is 
clear that people who spend their work lives scrubbing floors 
in a nursing home, moving 5 liter engine blocks around a 
factory floor, pouring steel into a Bessemer mill, or hauling 
bricks around a construction site can count on a shorter life 
span and a shorter work life. They are more likely to 
experience work place injuries and to lack the continued 
physical endurance necessary to perform their jobs very far 
into their 60's. We should not be telling them that they have 
to postpone retirement or do with less.
    Much has been made of the issue of whether near and young 
elderly health is improving and will therefore enable longer 
working lives. While the evidence is far from clear, it is 
worth noting that health trends will likely be affected by 
health insurance coverage. The news on the employer-based 
health insurance front is not good. Eight million fewer 
Americans had employer-based coverage in 1996 than in 1989, and 
another 8.1 million can be expected to lose coverage between 
now and 2002. And the lack of employer-based coverage is felt 
most by low-wage workers: Whereas over 85 percent of Americans 
in families with $50,000 and more in income had coverage in 
1996, less than half of those in families with $15,000-$19,999 
in income did.
    Of course, the response to our criticisms is that workers 
can simply make up the difference in benefits by accumulating 
greater savings and pension benefits to enable early 
retirement. However, it is difficult to argue that low- and 
even average-wage workers will be able to save more given 
recent wage trends. Between 1979 and 1995 the median wage 
earner saw real wages decline by 6.9 percent. And wage drops 
were greatest at the lowest wage levels: for workers at the 
tenth and twentieth percentiles real wages declined by 17 
percent and 11 percent respectively. That is not a recipe for 
increased worker savings, as is evidenced by the decline in the 
personal savings rate from 7.4 percent to 4.7 percent (of 
disposable personal income) over that same period.

                               Conclusion

    In conclusion, the most critical point in any discussion 
about Social Security's future is necessarily its historical 
and continuing role as the retirement system for average wage 
workers. Social Security, not pensions or savings, provides 
two-thirds of the elderly with 50 percent or more of their 
income in retirement. Despite retirement policy rhetoric about 
a three-legged stool of retirement income, for too many 
Americans Social Security is the only leg on which they can 
depend. Therefore, any changes to Social Security--while they 
may seem reasonable to people who will actually have three legs 
of retirement income--are potentially traumatic to large 
numbers of American families. Raising the Normal Retirement Age 
is clearly a change that would have harsh consequences for 
those workers that Social Security counts among its most 
important beneficiaries.

Disclosure Statement: Neither the AFL-CIO nor David A. Smith 
received funds from the relevant statute(s) during this fiscal 
or the preceding two fiscal years.
      

                                <F-dash>

    Chairman Bunning. Let me also say to you that we are going 
to submit questions to you, individual questions on your 
testimony, but I want to ask Mr. Smith--if in fact we rule out 
any increase in retirement age, what are the other suggestions 
that you might have for stabilizing and making sure that we 
have solvency for all the boomers and those people past the 
year 2029, when, if we do nothing, we reduce it to 75 percent?
    Mr. Smith. Well, Mr. Chairman, as you know, we don't think 
doing nothing or hoping that it will----
    Chairman Bunning. I didn't say that. I'm looking for other 
suggestions.
    Mr. Smith. We could--and I'll make the suggestion that's 
least popular--we could raise taxes, either on us in a way to 
prefund the trust fund or on the cohort that will begin to 
retire, that will be working in about the middle of the decade, 
the second decade of the next century. There are a variety of 
other less traumatic things that we could do. I think there's a 
lot of imaginative work which can be done around the notion of 
part-time retirement. I'm not sure that I understand how all of 
those ideas would work, but it creates another option for older 
American, which seems to me to be sensible and would take some 
pressure off the trust fund.
    I'll give the easiest answer here. We can continue to run 
the economy as well as we've been running it. The increase in 
the trust fund surplus at the end of 1997 was substantially 
higher than had been projected only a year early. It's very 
simple why that happened. More Americans were earning more 
money, and that's good for the trust fund. A few more years 
like this and we'll actually begin to see a material difference 
in the deficit that we have to make up.
    We ought to close the gaps and ensure that this almost 
universal system becomes truly universal, and there are other 
suggestions made, some of the consensus suggestions out of the 
Grahamlich Commission which are well worth doing. I share some 
of Bob Myers' concerns about increasing the base, but I do 
think it might be done in a way that doesn't disadvantage women 
workers, and we ought to look at that.
    Chairman Bunning. Mr. Bone, in your statement you discuss 
the importance of sufficient long-range planning. In 1983, the 
long-range planning was the year 2000 all the way up for 20-
some years after that, to increase every 2 months, or 
thereabouts, an increase in the age. If we plan to do anything, 
and all of a sudden we're past the year 2030 or 2035, how long 
a period are you talking about?
    Mr. Bone. Well, I think there are two issues here. One is 
in the early retirement age, if you look in the Social Security 
Advisory Commission's Report, where one of the alternatives 
would tie early retirement age increases to increases in the 
normal retirement age, that's clearly too short for effective 
planning, because you would have that affecting people as they 
reach age 62 in the very near term future.
    On the other, as far as inducing sudden cost changes to 
employer plans, which might require some offsetting changes, 
something that says moving the retirement age after age 66, for 
instance, as Mr. Myers had suggested, allows sufficient time 
for employers to begin to plan and for costs to be taken into 
account in redesigning plans, as the labor markets commence to 
change.
    Chairman Bunning. In other words, you're suggesting a 25- 
or 20-year----
    Mr. Bone. I think that if you look at changes in the labor 
force and look at changes in normal retirement ages that are 
timed to occur around the time that we see significant 
reductions in the increase in labor force participation rates, 
that that's going to be more in tune with the changes that 
employers would naturally be making to plans, and therefore, 
less disruptive to the system.
    Chairman Bunning. Mr. Portman.
    Mr. Portman. I think it's great testimony; I wish everyone 
could hear it in the Congress. It's really very helpful. I have 
a bunch of questions. Let me just start with a couple of the 
premises with which we're working.
    One is the notion, Mr. Bone, you talked about, and it was 
also mentioned by Mr. Walker, as to the growth of private 
pension plans. Seventy-seven percent of Americans by the year 
2018 are expected to be covered by some kind of a pension plan, 
a retirement savings plan. Is that accurate?
    Mr. Bone. That's a study cited in one of the EBRI data 
books, assuming reinvestment of lump-sum distributions; that 
over time--and once again if I can respond to some of the 
comments over here, I think it's very important to look at the 
generational effects of pensions as opposed to looking at 
current coverage by participants within different groups. As 
you look at changes in labor force participation by those 
groups, the effect as to whether or not they're covered by 
pensions changes dramatically.
    Mr. Portman. OK. I'm encouraged by that. It surprises me. 
Twenty percent of small businesses don't offer any kind of 
pension plan at all, and that's 25 or fewer employees. What 
we've been doing in Congress--Jim Bunning has been supporting 
this--is simplifying our pension programs. The President just 
made another proposal. The Simple Plan is doing well out there, 
and we're making some progress, but I would find it hard to 
believe that smaller employers would move that rapidly. It's 
great news. If that's true, we truly have a third leg, as Mr. 
Smith talked about earlier. At least one of the other two legs 
is pretty well established.
    Mr. Walker.
    Mr. Walker. There are still significant coverage gaps, 
which are projected to continue, especially in the small 
business sector. We still only have about 50 percent of the 
full-time work force who's covered by private pension plans. In 
addition, the assumption in that study assumes that people 
reinvest lump sums, and the fact of the matter is that 70 
percent of the people don't reinvest their lump sums. We're 
moving to a defined contribution system.
    I think the bottom line is, while don't get me wrong, I'm a 
big believer in the private pension system; the organization 
that I represent believes that if you make changes in Social 
Security, especially raise the normal retirement age, you need 
to look at how you can expand coverage, how you can strengthen 
that system, provide additional flexibility and reduce burdens.
    But I think the fact remains that if you look at income 
dispersion, that low-income individuals rely extensively on 
Social Security, and will continue to, as their primary form of 
retirement income. The facts are there.
    Mr. Smith. Mr. Walker said it all. The question here, Mr. 
Portman, is not, does somebody have a pension, but does that 
pension amount to very much? For a substantial plurality of us, 
it really doesn't. Coverage, pension coverage, in the private 
sector has slipped below 50 percent, and the trend is down, not 
up.
    Mr. Portman. I think one of the challenges we have as a 
Congress is to figure out ways to reverse that. I happen to 
believe that the legs of the stool are different, but they're 
all three very important, and you're not going to be able to 
back up Social Security unless you provide more pension 
alternatives, both defined benefit and defined contributions, 
and I think particularly in the area of defined contribution 
plans, we have a real opportunity with small businesses, and 
that will cover a lot more Americans.
    So I do think there are three legs we need to focus on, and 
yet I'd be surprised if those numbers--and I guess the answer 
is really there will be more coverage, but it may not, 
depending on how the stock market goes. The coverage might not 
be adequate to provide for even a basic retirement, if someone 
were to retire or not have Social Security.
    Mr. Bone. There are issues with the size of the benefit. I 
also, though, would like to point out that, looking at a 
snapshot of coverage at any point in time ignores the movement 
of employees in and out of jobs that are covered by pensions. 
So that, once again, there is an issue of the size of the 
pension, and that we need to increase accessibility of pension 
plans to a broader range of employers, but we do have a number 
of employees who move in and out of pension coverage and retain 
a right from it.
    Mr. Portman. OK.
    Mr. Walker.
    Mr. Walker. I think you've raised an excellent point. The 
Commission that I'm working on, the CSIS National Retirement 
Policy Commission, is looking at all three elements of 
retirement income security: Social Security, private pensions, 
as well as individual savings. That's critical. You need to 
look at these things comprehensively because there is an 
interactive effect.
    Mr. Portman. And all related to the age issue?
    Mr. Walker. Well, they all are impacted by the age issue. I 
think we have to keep in mind the first social insurance system 
in the world was created by Otto von Bismarck in the 1870's. 
The normal retirement age under his program was 70; whereas the 
average life expectancy was 55. He had a great concept. He was 
going to take care of people and it wasn't going to cost much 
money. So there was a great politician for you. But times have 
changed and we've got to change with the times.
    Mr. Smith. Mr. Portman, you're absolutely right. The stool 
needs three legs to stand up and we need to pay attention to 
all of them. I would underscore what my testimony says about 
the centrality of Social Security, and two other numbers: The 
savings rate continues to trend down as a share of disposal 
income. So whatever meager contribution private savings now 
make, we should anticipate that for the next cohort of retirees 
it will be even less, and pension coverage--it's not simply the 
amount, although both my colleagues are right; the amount 
matters a great deal, but the reach of private pension is 
declining, unfortunately, has continued to even through these 
last half dozen relatively robust years in the economy.
    Mr. Portman. To make one final point, I had a broker in 
today to see me from a small town in Ohio, and he said two 
things. No. 1, the Simple Plan is very popular out there among 
small businesses. His company sold 15,000 of them last year. 
And second, there's this new Roth IRA. I hate when things are 
named after politicians, but this one actually happens to be 
successful, which is the third leg we talked about, and he says 
this thing is selling like hotcakes. I think that's good, 
because it's also in my view simplification because you don't 
worry about the IRS, once you make your contribution. I think 
there is hope out there, but I would hope that the AFL-CIO and 
our business partners can work with us on trying to make those 
other two legs work better as well to back stop it.
    Thank you, Mr. Chairman.
    Chairman Bunning. Mr. Portman, I can't resist. Just be 
happy that the Simple Plan isn't called after a politician. 
[Laughter.]
    [Questions were submitted by Chairman Bunning to Mr. Bone. 
The questions and responses follow:]

    Question 1. You say that to date, employers continue to sponsor 
early retirement incentives in defined benefit plans that encourage 
retirement well before the early retirement age as defined by Social 
Security (age 62), even as increases in the normal retirement age are 
schedule to begin under current law. Is there anything in your view, 
that will change this employer practice? In other words, will a 
shrinking workforce require employers to take another look at these 
practices in the future?
    1. Specific employers are likely to continue to sponsor early 
retirement incentive programs in defined benefit plans based on the 
particular needs of their business, need for employees and competitive 
environment. These programs satisfy a need for broad-based reductions 
in workforce size that are popular with both terminated and remaining 
employees and offer less negative effect on morale and marketplace 
perception than an alternative such as layoffs. As the population of 
workers entering the labor force begins to slow, I believe it likely 
that the number and frequency of these programs will decrease. In a 
marketplace that is increasingly competitive for employees, relatively 
more employers will find it easier to attain a desired workforce size 
reduction through attrition. Any downward changes in asset performance 
of pension plans would also serve to make the offering of these 
programs less attractive to employers. However, it is likely that some 
level of these programs will remain in place as specific employers 
adjust to the particular circumstances of their evolving competitive 
environment.
    Question 2. You suggest that Congress should hold sponsors of plans 
harmless to increased benefits that are due solely to the reductions in 
government-promised Social Security plans. Would you provide more 
detail as to why this is important in your view and do you know whether 
Congress instituted any ``hold harmless'' provisions when they raised 
the retirement age in 1983?
    2. Sudden changes in the system are the types of changes for which 
employers may need to be held harmless. (Employers could be held 
harmless by, for instance, granting them an exemption from the 
requirements of Internal Revenue Code Section 411(d)(6) when employers 
modify plans to reflect changes in Social Security benefit amounts.) 
The ability of employers to plan and adapt to changes in an unhurried 
and rational manner is important for many reasons:
    <bullet> Plans of many large employers have benefits directly 
linked to Social Security benefits, retirement ages and/or the taxable 
wage base.
    <bullet> Changes in Social Security will have broad implications on 
the availability of older workers.
    To the extent that legislation directly impacts a plan's benefits 
employers need time to evaluate costs, redesign plans, retool 
administrative procedures, and communicate with employees. Pension 
plans are also a significant item in a company's balance sheet, 
financial statement, and its ability to borrow. To the extent that 
protected benefits are automatically increased as a result of links to 
Social Security, there could be a substantial impact on a company's 
financial health. The voluntary private sector system cannot absorb 
increases in costs due to unanticipated events without significantly 
affecting the desire of plan sponsors to maintain plans and provide 
retirement benefits to employees.
    All companies, including those without plans that are directly 
linked to Social Security, need time to assess the broader demographic 
implications of legislation, not only on their benefits plans, but also 
on their overall business plan.
    In 1983, by providing a sufficiently long-time horizon to reflect 
the emerging changes in Social Security, Congress effectively provided 
an opportunity for employers to:
    <bullet> Adjust plans for future retirees through the ability to 
redesign the pattern of future benefit accruals
    <bullet> Retain current plans for those near retirement without 
change.
    Question 3. You discuss the importance of flexibility for employer 
plans to enhance employee's productivity as they age. Would you provide 
some examples for us on what you mean and how current law prevents this 
needed flexibility?
    3. Retirement is more than just a financial decision. It is 
influenced by health, desire for leisure time, family considerations, 
the non-financial rewards of employment and many other factors. Current 
law makes it very difficult for employees to partially retire with 
their current employer and receive both pension and a reduced wage in 
exchange for reduced hours. Employees desiring partial retirement 
generally change jobs. This results in lost productivity by both the 
employer and employee as training of replacement employees occurs at 
both the ``old'' and ``new'' jobs.
    Current retirement plan law takes a ``one size fits all'' approach: 
you are either active or you are retired. Among the roadblocks to 
partial retirement are the following:
    <bullet> Distributions from pension plans cannot commence prior to 
Normal Retirement Age unless an employee retires.
    <bullet> Retirement distributions cannot be pro-rated to reflect 
part-time employment.
    <bullet> Employment after Normal Retirement Age can require 
expensive benefit accruals and, unless confusing ``suspension of 
benefit notices'' are provided, actuarial increases.
    <bullet> The legal definition of Normal Retirement Age itself, and 
many other rules that key off NRA have been unresponsive to the 
increase in Social Security Retirement Age, remaining at age 65 with 
five years of service.
    Question 4. I'm interested in knowing your views on the degree to 
which age discrimination may ultimately prevent increased participation 
of older workers in the work force.
    4. As the number of new entrants to the labor force decreases, and 
if the health status of older workers continues to improve, I 
personally believe that the employer's job requirements will adapt to 
the available workforce. Certainly, the country has seen periods in the 
past when labor force participation by older workers was much more 
common than it is today. This may reflect today's demographics which 
have a relatively larger number of qualified mid-career employees in 
the labor force today, rather than any acceleration of age 
discrimination in the recent past.
    Question 5. Will there be enough jobs for older workers, jobs with 
the level of physical activity that most persons over age 67 can 
perform?
    5. Projecting the number of jobs available for persons with the 
level of physical ability of most persons over age 67 requires a 
projection of both the level of future physical ability among older 
individuals and a projection of the relative amount of physical 
activity required in employment. Whether increases in longevity have 
been linked to improvements in physical well being of older individuals 
is the topic of active study. While neither a demographer nor an 
economist, my understanding is that recent studies do appear to show 
reductions in morbidity levels as well as in mortality rates. Levels of 
physical activity required to perform jobs would appear to be 
decreasing in the ``information economy,'' but I am not aware of any 
reliable projections of future trends in required physical activity.
    Question 6. Do you have thoughts on how the increasing number of 
older workers might impact rates of unemployment, job opportunities, 
and career advancement for younger workers?
    6. This is an interesting area of exploration and modeling, but 
outside my own area of expertise. In addressing these questions, it 
will be imperative to link demographic studies with economic models. A 
discussion of these and related issues is contained in the National 
Research Council Report, Assessing Policies for Retirement Income, 
Needs for Data, Research, and Models, Constance F. Citro and Eric A. 
Hanushek, editors, National Academy Press, 1997.
      

                                <F-dash>

    Chairman Bunning. Thank you all for your testimony, and we 
will stand adjourned.
    [Whereupon, at 3:01 p.m., the hearing was adjourned subject 
to the call of the Chair.]
    [Submissions for the record follow:]

Statement of Employee Benefit Research Institute, Kelly Olsen

    Analysis using the EBRI-SSASIM2 Policy Simulation Model has 
shown that increasing the normal retirement age to 67 by the 
year 2011 and indexing it to longevity thereafter would save 
the Old-Age and Survivor's Insurance (OASI) program a projected 
5.3 percent in total costs \1\ over 75 years and 13.56 percent 
in annual costs in 2070.\2\ In light of such positive financial 
implications, policymakers face the question of how a raise in 
the normal retirement age would affect beneficiaries. Issues 
include whether increasing the normal retirement age would be 
an effective means of achieving the desired policy goals, from 
what perspectives such a reform can be viewed by policymakers 
and the public, and the extent to which such an increase would 
disadvantage workers in physically demanding occupations.
---------------------------------------------------------------------------
    \1\ Cost rates are the ratio of the present value of tax income to 
the present value of taxable payroll for the years in a given period.
    \2\ Saving projections are expressed relative to the current 
system.
---------------------------------------------------------------------------
    In making these decisions, policymakers will likely find 
the following three points of interest. First, few persons 
today actually wait to retire at Social Security's normal 
retirement age. Since 1960, the percentage of Social Security 
beneficiaries with a reduction in benefits for early retirement 
has grown from 11.8 percent to 71.1 percent (chart 1). In 
addition, Employee Benefit Research Institute tabulations of 
data since 1988 have shown an increasing percentage of early 
retirees among those ages 55-64 (EBRI, 1997). In 1988, for 
example, 10.4 percent of the population ages 55-62 were 
retired, compared with 12.5 percent in 1996. In 1988, 32 
percent of the population ages 63-64 was retired, compared with 
36.5 percent in 1996, the last date for which data are 
available. These data suggest that if the goal of raising the 
normal retirement age is to encourage delayed retirement by 
raising the ``age hurdle,'' the more significant hurdle in 
reality for most workers is the early retirement age. 
[GRAPHIC] [TIFF OMITTED] T2247.001

    Second, an increase in the normal retirement age can, and 
has often been, viewed as a benefit decrease. However, since 
1960, remaining life expectancy at age 65 has increased almost 
21.7 7 percent, giving the average American an extra 3.1 years 
in later life (table 1). Had the Social Security retirement 
ages been indexed to longevity since 1960, the normal 
retirement age would be 68.1 years today, and the early 
retirement age would be 65.1 years. Because the retirement ages 
have not been indexed to longevity, beneficiaries have actually 
been receiving progressively larger total expected lifetime 
benefits since 1960, in part because they have been living more 
years on the program. Depending on one's perspective, keeping 
the benefit period steady rather than growing over time is, on 
the one hand, a benefit cut and, on another hand, simply a way 
of more closely maintaining the historical level of benefits.

                   Table 1: Life Expectancy at Age 65
------------------------------------------------------------------------
                                                            Years of
                         Year                            Remaining Life
                                                           Expectancy
------------------------------------------------------------------------
1960.................................................               14.3
1970.................................................               15.2
1980.................................................               16.4
1985.................................................               16.7
1990.................................................               17.2
1995.................................................              17.4
------------------------------------------------------------------------
 Source: U.S. Department of Health and Human Services, 1997


    Finally, the prospect of raising the normal and/or early 
retirement age raises questions about the ability of some 
workers to continue employment until the eligibility 
agespecifically, workers with physically demanding occupations. 
While overall, research in this area is still in need of 
support and continuation before such effects can be adequately 
assessed, one ground-breaking study by Burkhauser, Couch, and 
Phillips (1995) was done using data from the Health and 
Retirement Survey (HRS).\3\ They found that ``the great 
majority of those who take early benefits have both good health 
and economic well-being.'' Contrary to popular conception, they 
found that only about 5 percent of those taking early 
retirement and 2 percent of those retiring at the normal 
retirement age reported a health limitation. These results 
suggest that an increase in the normal retirement and/or early 
retirement age would not force droves of workers in poor health 
to continue employment or to apply for Social Security 
disability benefits.
---------------------------------------------------------------------------
    \3\ For additional analysis on the HRS, see Fronstin (1997).
---------------------------------------------------------------------------
    However, whether those workers who are in poor health later 
in life but who are too young to qualify for Social Security 
retirement benefits should be forced to rely on disability or 
welfare benefits for support is an important policy issue. 
Today, Social Security disability benefits are issued only 
through a complex determination process. As a society, we may 
decide that persons in their sixties should not be held to the 
same disability standards as younger persons. Burkhauser et al. 
(1995) suggest that older workers with health limitations may 
be particularly vulnerable to hardship in the face of an 
increased normal and/or early retirement age. Among those who 
reported a health limitation at early retirement age, 
Burkhauser et al. found that the incidence of poverty was high.
    While certainly not an exhaustive list, the above three 
considerations are likely to be important to policymakers and 
the public alike in deciding whether to raise the normal 
retirement age. First, if delayed retirement is sought, an 
increase in the early retirement age rather than (or in 
addition to) the normal retirement age is a more likely 
impetus. Second, because of increases in life expectancy at age 
65, a raise in the normal and/or early retirement age(s) may be 
perceived by policymakers and the public as a benefit cut or 
alternatively as simply a means of maintaining historical 
benefits. Finally, while it may be unlikely that a deluge of 
beneficiaries would flock to the disability and/or welfare 
rolls upon an increase in retirement age(s), present research 
suggests that some innovative policy provisions will likely 
need to be designed for those most vulnerable to adversity 
under such a policy reform.

                               References

    Employee Benefit Research Institute. EBRI Databook on Employee 
Benefits, Third Edition (Washington, DC: Employee Benefit Research 
Institute, 1997).
    Fronstin, Paul. ``Employee Benefits, Retirement Patterns, and 
Implications for Increased Work Life'' EBRI Issue Brief no. 184 
(Employee Benefit Research Institute, April 1997).
    Burkhauser, Richard V., Kenneth A. Couch, and John W. Phillips. 
``Who Takes Early Social Security Benefits: The Economic and Health 
Characteristics of Early Beneficiaries.'' The Gerontologis. (Vol. 36, 
No. 6): 789-799.
    U.S. Department of Health and Human Services. Public Health 
Service. Health United States, 1996-7. (Washington, DC: U.S. Government 
Printing Office, 1997).
    U.S. Social Security Administration. Social Security Bulletin 
Annual Statistical Supplement 1997 (Washington, DC: U.S. Government 
Printing Office, 1997).
      

                                <F-dash>

Statement of Jonathan Barry Forman, University of Oklahoma

    I am pleased to submit this statement for the record you 
are compiling on The Future of Social Security for this 
Generation and the Next. I am submitting this statement in my 
individual capacity as a Professor of Law at the University of 
Oklahoma College of Law where I teach courses on tax and 
pension law and research primarily about tax, pension, and 
Social Security policy. The purpose of this statement is to 
discuss how the current Social Security system discourages the 
elderly from working and to propose a solution to that problem. 
Specifically, I recommend creating individual retirement 
savings accounts (IRSAs)--but only for elderly workers. With 
IRSAs for elderly workers, those who chose to remain in the 
work force would no longer face the financial penalties of the 
current Social Security system. Consequently, more elderly 
workers would stay on the job, and that would enrich both them 
and the nation.\1\
---------------------------------------------------------------------------
    \1\ This statement is based on the author's forthcoming article: 
Jonathan Barry Forman, Reforming Social Security to Encourage the 
Elderly to Work, 9 Stanford Law and Policy Review--(forthcoming 1998).
---------------------------------------------------------------------------

            Privatizing Social Security for Elderly Workers

    Social Security is in financial trouble. The primary reason 
for this trouble is that workers are living longer and retiring 
earlier. Of course, it's great that we are living longer, and 
it's wonderful that we can expect to have long and leisurely 
retirements. But it has led to the current financing problem, 
and the federal government must soon either cut Social Security 
benefits or raise taxes.
    In short, there are too many retirees and not enough 
workers to support them. The ratio of workers-to-beneficiaries 
has been declining for years. There were 16.5 workers for every 
beneficiary in 1950, but, by 2015--soon after the baby boomers 
start to retire--there will be just 2.7 workers per 
beneficiary.
    Ironically, the current Social Security system actually 
compounds its own financial woes by pushing elderly workers 
into early retirement. A whole range of arcane rules discourage 
most everybody from working past age 62. Not surprisingly, more 
than half of all workers claim their Social Security benefits 
at age 62, and 72 percent of workers claim them by age 65.
    On the bright side, however, it should be possible to 
improve Social Security's finances by encouraging the elderly 
to stay in the work force. Keeping elderly workers on the job 
would increase the worker-to-beneficiary ratio. That would 
bring down costs for both Social Security and Medicare, and the 
work efforts of these elderly workers would enrich them and the 
nation.
    Demography and Destiny. The primary reason for Social 
Security's financial woes is that people are living longer but 
retiring earlier. For example, a boy born in 1940 had a life 
expectancy of just 61.4 years, but a boy born today can expect 
to live to 72. Similarly, a man reaching age 65 in 1940 could 
expect to live another 11.9 years, but a man reaching 65 today 
can expect to live another 15 years.
    Yet despite the fact that life expectancies have gone up, 
there has been a marked trend towards earlier and earlier 
retirement. For example, the average age at which workers begin 
receiving Social Security has fallen from 68.8 years old for 
men in 1940 to 63.6 years in 1994. Also, in 1995, only 16.8 
percent of men and 8.8 percent of women aged 65 or older were 
still working.
    Social Security Discourages the Elderly From Working. The 
federal government has little reason to intrude on an 
individual's decision about when to retire. Nevertheless, the 
current Social Security system actively discourages the elderly 
from working.
    Once a worker reaches age 62 and is eligible to receive 
Social Security, delaying the receipt of benefits can actually 
be quite costly. Those who delay retirement lose current 
benefits, but the increases in benefits that can result from an 
additional year of work rarely compensate for the benefits 
lost. In fact, since only 35 years of work count for 
determining a worker's Social Security benefit, each additional 
year of work after age 62 usually squeezes out the benefits 
earned in an earlier year. Moreover, elderly workers must 
continue to pay Social Security taxes (and income taxes) on 
their earnings.
    Individuals who start to draw Social Security benefits at 
age 62 but nevertheless keep working are particularly hard hit. 
The so-called retirement earnings test takes a dollar of Social 
Security benefits away for each dollar of earnings in excess of 
$9,120 this year. Also, in addition to paying the usual income 
and Social Security taxes on earned income, these workers may 
have to pay income tax on up to 85 percent of their Social 
Security benefits. The net effect is that many workers over the 
age of 62 can face confiscatory tax rates on their earned 
income.
    Workers who wish to work past age 65 face yet another work 
disincentive. The delayed retirement credit increases the 
monthly benefit paid to a worker who postpones retirement past 
age 65 by just 5 percent for each year that a worker postpones 
claiming benefits. Unfortunately, a 5-percent credit is 
inadequate to compensate for a year of lost benefits. The 
delayed retirement credit will increase gradually to an 
actuarially fair 8 percent in the year 2008. Until then, 
however, Social Security indisputably discourages the elderly 
from working past age 65.
    Finally, those who work until they drop leave nothing 
behind for their estates.
    Faced with these work disincentives, it's no surprise that 
more than half of elderly workers retire as soon as they can--
at age 62--and that fully 72 percent of elderly workers retire 
by age 65.
    So what can be done to encourage the elderly to remain in 
the work force?
    One approach would be to repeal the earnings test, raise 
the delayed retirement credit to 8 percent, and change the 
other arcane rules that discourage the elderly from working. 
And Congress might want to increase Social Security's early and 
normal retirement ages to, say, 65 and 70 respectively.
    An alternative approach would be to privatize the Social 
Security system. Proponents of privatization typically call for 
replacing the current system with individual retirement savings 
accounts (IRSAs) that would operate pretty much like today's 
Individual Retirement Accounts (IRAs) and 401(k) plans. The 
Social Security taxes that workers now pay to the federal 
government would go instead into these IRSAs and be invested in 
the stock market.
    Replacing all or a part of the current Social Security 
system with IRSAs would help encourage the elderly to work. 
Unlike the current Social Security system, payroll 
contributions and the earnings on those contributions would 
remain in individual accounts, and no money would ever be taken 
from one worker to provide benefits for other workers or their 
families. Consequently, there would be no penalty for working 
past age 62: IRSA contributions made by elderly workers would 
simply increase their own individual account balances.
    Unfortunately, because there would be no redistribution 
under a privatized system, there would be no redistribution to 
those low-income retirees whose own individual account balances 
would provide inadequate retirement incomes. Consequently, 
unlike the current Social Security system, a privatized system 
could leave millions of elderly Americans in poverty.
    Individual Social Security Accounts for Elderly Workers. A 
better approach would be to create individual retirement 
savings accounts--but only for elderly workers. As under 
current law, those workers who chose to retire immediately at 
age 62 could claim the usual Social Security benefits. For 
those workers who chose to work past age 62, however, an 
individual retirement savings account (IRSA) would 
automatically be opened. These accounts would be held by the 
government, invested in the stock market, and annuitized on 
retirement.
    The starting balance in each worker's account would be the 
present value of that worker's Social Security benefit 
entitlement at age 62. For example, an average-wage single man 
who turned 62 and retired in 1997 could claim a Social Security 
benefit of $743 a month. Each year that benefit will be indexed 
for inflation, and it will continue until he dies. In effect, 
he is entitled to an indexed lifetime annuity with a starting 
payment of $743 per month. The starting balance for his IRSA 
would be an amount exactly equal to the present value of that 
annuity--about $116,000, according to the Social Security 
actuaries.
    Each worker's IRSA would be invested in a secure equity 
fund and credited with investment earnings. Each IRSA would 
also be credited with any subsequent payroll contributions for 
that worker, and monthly statements would provide workers with 
information about their accounts.
    Once an elderly worker decided to retire, the balance in 
that worker's account would be reconverted into an indexed 
lifetime annuity. These annuities would be a good deal larger 
than the benefits that were available at age 62. After all, the 
starting monthly payment for a worker who postponed retirement 
would be based upon the worker's then-higher account balance 
and then-shorter remaining life expectancy.
    Moreover, the account balance of any elderly worker who 
died before retiring would be included in that worker's estate.
    In short, individual Social Security accounts for the 
elderly would reward them for working past age 62. As a result, 
more elderly workers would stay on the job, and that would 
enrich both them and the nation.

                                  <all>

</pre></body></html>
